<html>
<title> - HEARING ON THE SAN RAFAEL SWELL NATIONAL CONSERVATION AREA</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
       HEARING ON THE SAN RAFAEL SWELL NATIONAL CONSERVATION AREA

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

 H.R. 3625, A BILL TO ESTABLISH THE SAN RAFAEL SWELL NATIONAL HERITAGE 
 AREA AND THE SAN RAFAEL SWELL NATIONAL CONSERVATION AREA IN THE STATE 
                    OF UTAH, AND FOR OTHER PURPOSES

                               __________

                     APRIL 23, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-85

                               __________

           Printed for the use of the Committee on Resources 

                               -----------

                    U.S. GOVERNMENT PRINTING OFFICE
48-613 cc                   WASHINGTON : 1998



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                  P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 23, 1998......................................     1

Statements of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement of....................................     3
    Cook, Hon. Merrill, a Representative in Congress from the 
      State of Utah..............................................     9
        Prepared statement of....................................    10
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     5
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Hinchey, Hon. Maurice D., a Representative in Congress from 
      the State of New York......................................    29

Statements of witnesses:
    Bennett, Hon. Robert F., a Senator in Congress from the State 
      of Utah....................................................     5
        Prepared statement of....................................     7
    Curtis, Wes, Director, Governor's Rural Partnership Office, 
      State of Utah..............................................    58
        Prepared statement of....................................    82
    Dmitrich, Hon. Mike, State Senator, State of Utah............    12
        Prepared statement of....................................    68
    Johnson, Randy, Chairman, Emery County Commissioner..........    14
        Prepared statement of....................................    69
    Leavitt, Hon. Michael O., Governor, State of Utah............    28
        Prepared statement of....................................    77
    Martin, Wilson, Program Manager, Utah Department of Community 
      and Economic Development...................................    43
        Prepared statement of....................................    91
    Meadows, Bill, President, The Wilderness Society.............    56
        Prepared statement of....................................    78
    Owens, Hon. Wayne, President, Center for Middle East Peace, 
      testifying on behalf of Southern Utah Wilderness Alliance..    45
    Peay, Donald Keith, Utah Chapter of the Foundation for North 
      American Wild Sheep........................................    41
        Prepared statement of....................................    85
    Petersen, Kent, Emery County Commissioner....................    17
        Prepared statement of....................................    71
        Additional material submitted for the record by..........    94
    Shea, Pat, Director, Bureau of Land Management...............    22
        Prepared statement of....................................    74
    Warnick, Richard M., Salt Lake City, Utah, prepared statement 
      of.........................................................    84
    Wilson, Bevan K., Emery County Commissioner..................    20
        Prepared statement of....................................    73
        Letters submitted by.....................................    97

Additional material supplied:
    Community & Wild Lands Futures, ``Disputing Parties Heading 
      Onto Cooperative Public Lands Trail''......................   104


HEARING ON H.R. 3625, A BILL TO ESTABLISH THE SAN RAFAEL SWELL NATIONAL 
 HERITAGE AREA AND THE SAN RAFAEL SWELL NATIONAL CONSERVATION AREA IN 
               THE STATE OF UTAH, AND FOR OTHER PURPOSES

                              ----------                              


                        THURSDAY, APRIL 23, 1998

        House of Representatives, Subcommittee on National 
            Park and Public Lands, Committee on Resources, 
            Washington, DC.
    The Committee met, pursuant to notice, at 9:04 a.m., in 
room 334, Longworth House Office Building, Hon. James V. 
Hansen, (chairman of the Subcommittee) present.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. [presiding] The Committee will come to order. 
The Subcommittee on National Parks and Public Lands convenes to 
hear testimony on H.R. 3625, the San Rafael Swell National 
Heritage and Conservation Act, introduced by my colleague, Mr. 
Cannon, who represents Emery County.
    I would like to welcome our many friends from Utah who have 
worked very hard on this legislation to bring this proposal and 
that truly balances the needs of the land, and the needs of the 
people, who support these public lands. This legislation has 
been worked on by many interests, State and local governments, 
historic and cultural interest, wildlife interests, and 
recreational interests. Although the administration's testimony 
claims that interests were not represented in this discussion, 
the truth is that all who were interested were invited to 
participate and did participate. Those who wish to sit back and 
throw stones and fail to roll up their sleeves and actually 
work on something in a positive manner, will not and cannot be 
taken seriously. This also applies to the administration.
    The purpose of a hearing such as this is to hear 
constructive comments on how to make this bill better, to 
suggest changes to benefit land or help our local managers, or 
whatever it takes to help perfect legislation. We appreciate 
Mr. Shea coming out to Emery County and the visit we had with 
him. I am not 100 percent sure that the testimony he gives 
today was written by those who have been on the land or even 
knows what the land looks like, but that's something they'll 
have to work out.
    H.R. 3625 is unique in that the designations fit the land. 
Many wilderness proposals attempt to force the land to fit the 
designation, and this just does not work. However, H.R. 3625 
takes a very close look at the lands involved and maximizes 
their potential for what they are. This will protect 
wilderness, semi-primitive areas, bighorn sheep, scenic 
easements, history, and recreation.
    This administration often talks about balance and new 
approaches to land management. However, when such a proposal 
comes along, they simply choose to sit back and sometimes, 
unfortunately, play partisan politics and let the public land 
suffer. As one who has been part of more wilderness bills than 
any man in Congress, I can tell you that I find that very 
disturbing. If we do not find balanced approaches that can be 
endorsed by the local people who live in these areas and find 
cooperative management schemes, our land, our wildlife, our 
history, and our children will suffer the consequences of 
playing politics with this thing.
    I want to compliment the people from Emery County who work 
so diligently on this program and all the people who have put 
the hand of fellowship out to anyone that would talk to them. 
And, I don't think many of us realize the countless hours that 
these people have put on preparing this piece of legislation. 
In fact, as I look back at past administrations, and 
Presidents, and others who have worked on this, this is the way 
it should be done. People in the local area working with anyone 
who will come and work with them should take the time to do it.
    And I particularly want to thank Randy Johnson, Kent 
Petersen, and Bevan Wilson for the great work they've done on 
this. And, all of those people who were willing to say let's 
sit down and work this out.
    In 1984, we passed a wilderness bill in Utah. It was the 
Hansen-Garn bill on Forest Service, and it basically worked 
because we said everybody can be a player. However, we find a 
lot of people who choose not to be a player, and then when the 
time of reality comes, then they would come in and complain. I 
always worry about that.
    I guess I've said enough at this time. The sponsor of this 
bill is Mr. Cannon from the third district in Utah. So, I'll 
turn the time to him now for any opening remarks that he may 
have.

 STATEMENT OF HON. CHRIS CANNON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. It is a pleasure to be 
here this morning and participate in this hearing. As many of 
you know, the debate over the land use in Utah is a long and 
complicated history. Having spent most of my own youth on this 
land, I know and cherish it. No one wants more than I what is 
best for this unique land.
    That is why I am pleased to introduce H.R. 3625, the San 
Rafael Swell National Heritage and Conservation Act. This bill 
predicts nearly a million acres with various land designations 
and including 407,000 acres of wilderness, 193,000 acres of 
Semi-Primitive Areas, and 66,000 acres in which desert bighorn 
sheep management will take place, and 27,000 acres called 
critical environment.
    To allow for integrated management and enhancement of the 
numerous visitor attractions in the area, H.R. 3625 establishes 
a National Heritage Area for Emery County and parts of Carbon 
in Sanpete County. It also creates a national conservation area 
on the beautiful San Rafael Swell, which will allow management 
that will preserve the dramatic canyon's wildlife and historic 
sites of the Swell. The plan provides for management a 
management system which includes a desert bighorn sheep 
preserve. The often neglected school trust lands of Utah are 
also addressed in legislation. H.R. 3625 gives the Secretary of 
Interior three years to trade out any school trust lands 
impacted by the Heritage Conservation Area.
    The beauty of this plan is that it addresses specific 
concerns and problems with real practical solutions. I wish I 
could take credit for this impressive plan, but I can't. The 
local leaders of the area, and the citizens are the source of 
this conservation plan led by the Emery County Commissioners. 
They know the land management problems of this area well. I 
applaud their creativity and careful attention to detail in 
crafting this bill so that it meets these vexing problems with 
real-life practical solutions.
    If successful, this proposal can be the model for resulting 
other Federal land management issues across Utah. Already other 
counties are expressing an interest in pursuing a similar 
process.
    Let me emphasize that H.R. 3625 is a beginning. The text is 
neither sacred nor cast in stone. We're doing some new things 
here. We're in new territory. Rather, it builds a starting 
point from which to resolve the interrelated land management 
issues in the area. I would encourage the other witnesses and 
their respective organizations to see today's discussion as a 
dialogue. This is not a time for rigid positions or knee-jerk 
reactions, this is a time for constructive suggestions--a time 
to join the Utah lands solution revolution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cannon follows:]

 Statement of Hon. Christopher B. Cannon, a Representative in Congress 
                         from the State of Utah

    Thank you Mr. Chairman. It is a pleasure to be here this 
morning to participate in this hearing.
    As many of you know, the debate over land use in Utah has a 
long complicated history. Having spent much of my youth on this 
land, I know and cherish it. No one wants more than I what is 
best for this unique land.
    That is why I am pleased to introduce H.R. 3625, the San 
Rafael Swell National Heritage and Conservation Act. This bill 
protects nearly a million acres with various land designations, 
including 407,000 acres of wilderness, 193,000 acres of semi-
primitive areas, 66,000 in a desert bighorn sheep management 
area, and 27,000 acres of critical environment.
    To allow for integrated management and enhancement of the 
numerous visitor attractions in the area, H.R. 3625 establishes 
a National Heritage Area for Emery county and parts of Carbon 
and Sanpete Counties. It also creates a National Conservation 
Area on the beautiful San Rafael Swell which will allow 
management that will preserve the dramatic canyons, wildlife 
and historic sites of the swell.
    This plan provides for a management system which includes a 
Desert Bighorn Sheep preserve.
    The often neglected school trust lands of Utah are also 
addressed in this legislation. H.R. 3625 gives the Secretary of 
Interior three years to trade-out any school trust lands 
impacted by the Heritage Conservation area. The beauty of this 
plan is that it addresses specific concerns and problems with 
real, practical solutions.
    I wish I could take credit for this impressive plan, but I 
cannot. The local leaders and citizens of the area are the 
source of this conservation plan led by the Emery County 
Commissioners. They know the land management problems of this 
area well. I applaud their creativity and careful attention to 
detail in crafting this bill so that it meets these vexing 
problems with real-life practical solutions.
    If successful, this proposal can be the model for resolving 
other Federal land management issues across Utah. Already, 
other counties are expressing interest in pursuing a similar 
process.
    Let me emphasize that H.R. 3625 is a beginning. The text is 
neither sacred nor cast in stone. Rather, the bill is a 
starting point from which to resolve the interrelated land 
management issues in the area.
    I would encourage the other witnesses and their respective 
organizations to see today's discussion as a dialogue. This is 
not the time for rigid positions or knee jerk reactions. This 
is the time for constructive suggestions, a time to join the 
Utah lands ``solution revolution.''
    Thank you Mr. Chairman.

    Mr. Hansen. Thank you.
    We're privileged to be joined by the Ranking Member of the 
Committee, Mr. Eni Faleomavaega of American Samoa, a misplaced 
Utahn.
    [Laughter.]
    Mr. Faleomavaega. My apologies, Mr. Chairman, for being a 
little late this morning. I was tied up with another meeting, 
but I would like to first offer my personal welcome the good 
Senator from Utah, Senator Bennett, and I understand that 
Governor Leavitt will also be joining us in a couple of 
minutes, and the members of the Utah delegation.
    Yes, I am a transferred Utahan in that sense. I think I 
missed a call with such a substantial number of the Polynesian 
community living in the State of Utah. I know the reason why 
they're all in Utah, Mr. Chairman. They're all preparing to----
    Mr. Hansen. It's called football.
    Mr. Faleomavaega. No. Well, other than my cousin, Chris 
Ma'afala from your alma mater, but I think the reason why the 
Polynesians decided to live in Utah is that they are preparing 
for the winter Olympics--[Laughter.]
    Like the Jamaicans in the bobsleds, I'm sure they can 
probably do well also. The slalom I think is what it's called.
    But, Mr. Chairman, I do truly want to welcome the members 
of the Utah delegation for being here, and especially our good 
friend, Senator Bennett.
    Mr. Chairman, the debate on the San Rafael Swell area is 
not new. Proposals to protect the area have been around since 
the mid-1930's when a San Rafael Swell National Park was first 
proposed. The area has also been a focus as part of the long-
running Utah wilderness debate, and given its history, it's not 
surprising that a new proposal, substantially different from 
what has been considered previously, would generate 
considerable interest.
    And I recall very well, Mr. Chairman, a couple of years ago 
I did join you at a field hearing that we held in Salt Lake 
City. And, needless to say, it was a very lively, interesting 
debate from the various sections of the community there in 
Utah, and I have no doubt that my good friend Mr. Cannon's 
proposed legislation will, needless to say, also generate some 
very interesting different points of view.
    And I know, Mr. Chairman, that probably no one else, in my 
humble opinion, knows more about this area than you, yourself, 
and that you've honestly tried several different ways to 
resolve this impasse.
    I understand that Mr. Pat Shea with the Bureau of Land 
Management will also be representing the administration to give 
his points of view concerning this legislation. And with that 
in mind, Mr. Chairman, I do look forward to hearing from our 
witnesses this morning. And, I hope we will resolve this 
problem.
    Thank you.
    Mr. Hansen. Thank you. Our friend from Nevada, our sister 
State, Mr. Gibbons.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you Mr. Chairman, and I'm very pleased 
to be here to join you and my colleagues in support of this 
bill. I also welcome my colleague from Utah, including the 
Governor. I'd like to say that those of us in Nevada are very 
interested as well as those in Utah of the outcome of this 
bill. We think it's a very important bill. In fact, I think 
it's such a swell bill, I would order--ask all my colleagues to 
support it as well.
    [Laughter.]
    Thank you Mr. Chairman.
    Mr. Hansen. I just knew somebody would come up with that 
joke.
    We're very privileged to have our Senator, Robert Bennett, 
and our colleague, Mr. Merrill Cook, Representative of the 
Second District.
    Senator Bennett, we'll turn the time to you, sir.

STATEMENT OF HON. ROBERT F. BENNETT, A SENATOR IN CONGRESS FROM 
                       THE STATE OF UTAH

    Senator Bennett. Thank you Mr. Chairman. I have a prepared 
statement that I would submit for the record, and then make a 
few comments about it.
    It was about three years ago that Senator Hatch and I sat 
in this room with the Governor and testified in favor of the 
Utah Wilderness Bill perhaps a little naively because we 
thought, at that time, we could get a resolution to this issue. 
All we did was set off a extremely bruising debate with 
hundreds of thousands, if not millions, of dollars spent in 
national advertising, heavy lobbying, and, unfortunately, a 
great deal of acrimony ended up in simply solidifying the 
position of polarization rather than moving toward a solution.
    And, when it became apparent that neither side was going to 
get its way on the wilderness issue, the citizens of Emery 
County sat down around the table and undertook what has become 
a 2-year process in an effort to reach a consensus to bridge 
the gap between the polarized positions that have been taken. I 
not only applaud that as a logical thing to do, but I am 
interested to realize that that activity is in full compliance 
with both the language and the spirit of the 1964 Wilderness 
Act.
    A lot of people in the debate over the previous bill forgot 
that during the debate of the Wilderness Act, very 
specifically, priority was to be given to the attitudes of the 
people on the ground, the people who are closest to the 
wilderness designation. The people who live in and around it 
should have their opinions given priority over the opinions of 
people who are far away.
    I grew up in Salt Lake City. I am not familiar with these 
lands in terms of my youth, as Congressman Cannon is, and 
former Congressman Owens is. I really approach this from the 
position of a complete newcomer. And so, I am delighted that 
the people who are closest to it have been the people who have 
created this solution. And, I think in response to the specific 
requirement of the 1964 Wilderness Act those of us who do not 
live there, those of us who do not have our lives firmly 
entwined with this land on a day-to-day basis need to pay 
attention--close attention to the opinions of those who do. The 
law requires it, as well as common sense.
    Now, I informed the members of the Subcommittee that I 
intend to introduce similar legislation in the Senate. Senator 
Hatch will be joining me in this effort.
    It's refreshing to me to be able to be involved, as I say, 
on the basis of what people close to the area have to 
recommend. Now, we are often told in Utah during these debates 
over the use of the land, that the future of rural Utah lies 
with tourism.
    Along with you, Mr. Chairman, I went through the hearings 
that were all over the State of Utah, where we were told again, 
and again, and again, and again, by supporters of H.R. 1500 
that rural Utahans could make more money off of tourism than 
they could mining, ranching, agriculture, and timber. I 
remember one witness saying, ``we have a new extractive 
industry in rural Utah as we extract money from the wallets of 
the tourists who come in to see our incredible land.'' Well, if 
that is, indeed, is going to be the future of rural Utah, then 
the San Rafael Swell Heritage Area is a road map as to how we 
will get there. We may need to pay attention to that and keep 
that in mind.
    Now, the proposal would create an advisory council to work 
closely with the land management agencies to promote the 
cooperative use of the lands. I think that's a very logical 
thing to do because we need to recognize that we learn as we go 
along and crafting a single decision in Washington, and then 
imposing it on an area forever and ever without any opportunity 
for fine-tuning and changing as the world changes and as 
people's use of the land develops is very shortsighted. So, I 
applaud the bill for having that in it.
    Now, I am willing to enter into discussions on the Senate 
side of how this bill can be changed and improved. I'm willing 
to look at the question of the designation of Wilderness Study 
Areas beyond county lines. I understand that the Emery County 
people did not go beyond the county line of Emery County. That 
doesn't mean that Congress has to stay within those boundaries, 
and I understand that much of the controversy around this 
proposal has to do with drawing the county line across existing 
WSA's and saying that land beyond that line should not be 
included in the bill.
    While I will start out with the language of the bill as it 
is, I will be willing to have discussions about that issue as 
it goes forward. I think we should understand that in this 
discussion we are not disagreeing on protection of the land. We 
are not disagreeing on which land needs to be protected. The 
only disagreement that I can find comes on the definition of 
how that protection should go forward, and one of the things 
that has occurred in my experience since I've been a Senator is 
a recognition that there are many definitions. There are many 
ways to protect the land. And one of the reasons we have found 
ourselves at an impasse in the past is that stakes have been 
planted, positions taken on the assumption that everything is 
either or. You either have development or you have wilderness, 
and there is nothing in between, and there is nothing that 
either side will accept.
    The fact is, of course, that there are plenty of 
opportunities in between full development and full wilderness, 
and many of them make more sense for the land than either of 
those extreme alternatives. This proposal recognizes that truth 
and was worked out by people of different points of view who 
came up with sensible ways to protect the land, and at the same 
time, protect the interests of the people who live close to it.
    So, with that in mind, I hope that those of the other side 
of the issue three years ago would be willing to participate in 
a process that would involve the administration, the Utah 
delegation, Emery County Commissioners, and others to see if we 
can't resolve any remaining differences. I think perhaps if the 
principals could sit in a room without staff and P.R. people 
whispering in their ears as to how a press release might read, 
or how a fundraising letter might be affected, we could 
probably resolve this in an afternoon.
    With that Mr. Chairman, as I said, I will submit my full 
statement for the record. I'll be happy to answer any questions 
the Committee might have at this time.
    I will tell you in advance that we have a vote scheduled at 
9:30 a.m. and I, therefore, will have to leave and I apologize 
that I'll not be able to stay here and hear the testimony of my 
colleagues. I'll be happy to respond to any questions any 
member of the Committee might have.
    [The prepared statement of Senator Bennett follows:]

  Statement of Hon. Robert F. Bennett, a Senator in Congress from the 
                             State of Utah

    Mr. Chairman, I appreciate the opportunity to testify 
before the Committee today. It was almost three years ago when 
Senator Hatch and I sat in this room with the Governor and 
testified in favor of the Utah Wilderness bill. After the 
bruising debate last Congress, I didn't think that I would be 
back before the Subcommittee so soon, but it is a pleasure to 
be here.
    I first want to congratulate the Emery County Commissioners 
and the Emery County Public Lands Council for their excellent 
work in preparing the proposal we will refer to as the San 
Rafael Swell National Heritage Area. Two years ago, when it 
became apparent that neither side was going to get its way on 
the wilderness issue, citizens of Emery County sat down around 
the table and undertook a two-year process in an effort to 
reach a consensus on how to bridge the gap in opinions on 
public lands management in their county. These individuals 
recognized that there are many more facets to public lands 
management than just wilderness. The proposal you have before 
you today that has teen introduced by Congressman Cannon is a 
result of their work.

The San Rafael Proposal: Common Ground--Common Sense

    I am pleased to begin my remarks by informing the members 
of the Subcommittee today that I intend to introduce similar 
legislation in the Senate. I am delighted that Senator Hatch 
will be joining me in this effort. After the pummeling we 
received at the hands of our well-funded opponents in the 104th 
Congress, I am somewhat surprised that we are so willing to 
jump back into these murky waters. What would possibly compel 
us to do this?
    In an era when government is supposed to have been 
reinvented to allow for a common-sense approach, it is 
refreshing when initiatives originate from somewhere other than 
I Street or Capitol Hill. The San Rafael Swell National 
Heritage Area embodies the spirit of compromise. In an area 
that encompasses well over one million acres rich in diversity 
of uses, resolving all of the conflicts is bound to be 
difficult. This is a good faith effort to resolve several 
competing ideas of public land use. When this proposal was 
presented, it was done so with the understanding that not 
everyone would be happy with the conclusions. But it was a good 
step in the right direction.
    The people of Utah are often told that tourism is the 
future of rural Utah and that the traditional industries of 
mining, ranching, agriculture and timber are relics of the 
past. In good economic times that might be the case. But there 
must be a way to seize upon the tourism opportunities. If 
tourism is the destination for the future, then the San Rafael 
Swell Heritage Area is the roadmap to get Emery County there.
    I believe the primary goal of the Emery County proposal is 
to promote tourism opportunities by designating a nationally 
recognized Heritage Area. However, the resources and the rich 
history of the San Rafael Swell people are invited to see must 
be first protected and enhanced. The proposal would create an 
Advisory Council that will work closely with the land 
management agencies to promote the cooperative use of the 
lands. It ensures that management plans and criteria are 
prepared for the different regions in the Heritage Area to 
preserve their unique qualities. It will promote and arrange 
for cooperative agreements with state and local governments to 
prepare for the inevitable influx of visitors.
    I note with a bit of irony that we are talking today about 
methods by which we may protect public lands and establish a 
method of public input and management prior to the creation of 
the Heritage Area. This is a process that I wish we could have 
undertaken prior to the creation of the Grand Staircase-
Escalante. I believe what we are involved in today is the 
proper way to proceed with the creation of a special management 
area. That is one reason why I am puzzled by the 
Administration's current opposition. Perhaps we should just 
designate it a National Monument and worry about the details 
later. The administration didn't seem to worry about details 
the last time it decided to set aside a few million acres in 
some type of designation.
    Another important aspect of the proposal is its provision 
for the protection of continued management of one of the 
largest herds of bighorn sheep in Utah. It sets aside a Desert 
Bighorn Sheep Management area that is over 65,000 acres in size 
that has all of the protections of wilderness designation, but 
still provides the state of Utah with the management 
flexibility to properly manage the herd. This is a prime 
example of why a one-size-fits-all wilderness designation is 
not the best solution. If people will drive to Southern Utah in 
a chance that they might see a California condor, imagine their 
excitement to be directed to several designated viewing area 
established for the purpose of seeing Desert Bighoms in their 
most natural of habitats.
    Finally, the proposal will resolve the thorny issue of off-
road vehicle use by creating semi-primitive areas that are 
restricted in access. This will bring to closure a continuous 
management battle and reduce uncertainty as to what activities 
are permitted.

Resolution begins with the first few steps

    A comparison of acreage shows that under the proposal we 
protect 987,651 acres in Emery County under four different 
protective measures nearly half of that being wilderness by the 
strictest definition. The opponents to the Heritage Area 
proposal would protect 1,049,000 acres in Emery County as 
wilderness. The difference between the two proposals is under 
100,000 acres. Yet, using the same tired, old rhetoric 
opponents branded the proposal ``anti-wilderness'' before it 
was even introduced. It was labeled an anti-wilderness bill 
because we disagree not on protection, but on definition.
    It must be made clear that this proposal was not intended 
to be a wilderness bill alone. Wilderness is just one component 
of a larger land management process. With that in mind, I 
challenge the Board Members of the Southern Utah Wilderness 
Alliance to participate in a process with the administration, 
the Utah delegation and Emery County Commissioners which we 
might try to resolve the differences in this proposal. I would 
be happy to lead those discussions. I would venture that if we 
all sat in a room without staff for an afternoon, we could 
reach a consensus.
    A closer inspection reveals that there is quite a bit of 
good in this bill. If these lands are really in peril as we 
heard all throughout the last debate, failure to participate in 
the process is like the individual trapped on his roof by 
rising flood waters who turns back the rescuers in the boat 
because he is sure the helicopter is on its way. My point is 
that lands can be protected by designations other than just 
wilderness.
    In last year's wilderness debate, Members were implored by 
some individuals in the environmental community to act with 
vision and concern, not just for ourselves, but for our 
children. We heard a plea for ``visionary.'' I applaud the 
architects of this proposal for showing that kind of vision, 
which bridges the gap between many competing uses and puts 
forth a plan that will allow for the protection of this special 
area while promoting a wise plan for its management for the 
future.
    Granted, translating that vision to legislative language 
can be difficult. H.R. 3625 has several rough edges around it 
that need to be smoothed out. I will introduce companion 
legislation that in its first draft will be very similar. But I 
recognize that the process is just beginning. I am open for 
comments from both sides. Perhaps we will need to tighten 
legislative language, or look at some boundaries and I am 
willing to do that. I have already read the statement that Mr. 
Shea has submitted and I will admit he raises several good 
points that I am willing to entertain.
    Mr. Shea praised the Emery County officials last week and 
referred to the proposal in the Utah press last week as ``a 
step in the right direction.'' He stated: ``The ideas in the 
bill have a lot of merit. It is a step in the right direction. 
It recognizes wilderness. It involves people in a very direct 
process for having their perspectives heard.''
    I was encouraged when I read those comments in the Deseret 
News last week. But I read the printed statement of Mr. Shea 
today and I hope he will elaborate on why--if these ideas have 
such merit--has the Administration so willingly waved the veto 
pen before the public hearing process has even gotten underway. 
It does not bode well for the process and it sends a very clear 
and very unfortunate message to the local people: ``If your 
attempts fail to meet our predetermined outcome, your efforts 
are of no use to us.''
    Let me say to the Administration, rather than saying no, 
give us a chance to work with you. If we are able to cooperate, 
perhaps we will be successful in our efforts and at the end of 
this Congress we will have taken the first small steps to 
resolving the larger wilderness debate. I hope this could be 
the case.
    I appreciate the Chairman for allowing me the opportunity 
to testify today. I look forward to hearing the comments of the 
panelists today.

    Mr. Hansen. Without objection, your full statement will be 
in the record and all of the statements given today in their 
entirety will be in the record, and anyone, of course, is free 
to abbreviate their statements if they're so inclined.
    We'll now hear from Congressman Cook.

 STATEMENT OF HON. MERRILL COOK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cook. Thank you, Mr. Chairman, for allowing me the 
opportunity to speak on this important issue regarding the 
conservation of the San Rafael Swell encompassed in H.R. 3625. 
The San Rafael Swell is certainly one of the most beautiful and 
ecologically diverse areas in the State of Utah, and it 
deserves to be conserved and protected.
    I commend the Emery County Commissioners and my Utah 
colleagues on the work they've put into this bill to create a 
sensible, balanced bill. Do I think H.R. 3625 solves the 
wilderness debate in Utah? No, I don't, but H.R. 3625 is a good 
initiative by local government to work out the problems in 
their local area and, in this case, Emery County, Utah. This is 
a good start toward resolving wilderness and public land 
management issues in Utah.
    As we consider H.R. 3625, we know this is a solution that 
will drastically improve conditions and habitat in Emery County 
while preserving ecologically sensitive and vital areas within 
the San Rafael Swell. We also don't know that we'll have a lot 
more work to do. H.R. 3625 is a good approach toward balancing 
economic and recreation opportunities, which is important to 
the citizen of my district in the Salt Lake Valley, while 
preserving this wilderness may be the most diverse and 
beautiful areas of the Swell, which is also important to my 
constituents. H.R. 3625 preserves one of the largest bighorn 
sheep herds in the State through the creation of the San Rafael 
National Conservation Area.
    This designation of a National Conservation Area will allow 
the State to monitor and successfully manage the sheep herd 
while limiting and controlling access to this vital wildlife 
resource. H.R. 3625 also will allow for vital restoration and 
conservation of many other habitats in the San Rafael Swell 
benefiting many species within the National Conservation Area.
    This bill creates more than 400,000 acres of wilderness as 
well as preserving many of the most vital and interesting areas 
from Utah's history. As open space continually declines due to 
population growth pressures, these areas will offer unique 
recreational and historical opportunities for generations. Many 
of these sites chronicle the important part mining had in 
Utah's economic development, as well as preserving and 
chronicling sites along the Outlaw Trail within the Swell, 
which is a vital heritage for both Utah and the Nation.
    These areas deserve to be protected and shared as a 
remembrance for ourselves and for future generations. By 
preserving these areas, we will preserve who we were. These can 
serve as an inspiration for future generations to achieve 
greater things than either we or our ancestors thought 
possible.
    Finally, H.R. 3625 fairly balances the economic needs of 
the people who make the San Rafael Swell area their home. We 
must remember that any decision we make regarding designation 
and management of public lands will have significant impact on 
these people. This bill remembers the people and their needs, 
as well putting forth a viable and vigorous management and 
preservation plan for the San Rafael Swell.
    This bill may not be perfect, and it doesn't claim to end 
the wilderness debate in Utah, but it does balance the needs 
between preservation, wilderness, wildlife management, and 
human interaction with public lands in the San Rafael Swell. I 
would call that a win for everyone, especially for the San 
Rafael Swell.
    [The prepared statement of Mr. Cook follows:]

 Statement of Hon. Merrill Cook, a Representative in Congress from the 
                             State of Utah

    Thank you Mr Chairman for allowing me the opportunity to 
speak on this important issue regarding the conservation of the 
San Rafael Swell encompassed in H.R. 3625.
    The San Rafael Swell is one of the most beautiful and 
ecologically diverse areas in the state of Utah, and deserves 
to be conserved and protected. I commend the Emery County 
Commissioners and my Utah colleagues on the work they have put 
into this bill to create a sensible, balanced bill. Do I think 
H.R. 3625 solves the Wilderness debate in Utah? No I don't. 
But, H.R. 3625 is a good initiative by local government to work 
out the problems in their local area, in this case Emery 
County, Utah. This is a good start towards resolving Wilderness 
and public lands management issues in Utah, and as we consider 
H.R. 3625 we know this is a solution that will drastically 
improve conditions and habitat in Emery county, while 
preserving ecologically sensitive and vital areas within the 
San Rafael Swell. We also know we have more work to do.

    Mr. Hansen. Thank you, Congressman Cook.
    Questions for Senator Bennett and Congressman Cook?
    Let me just say this: I think they both hit upon one point 
that has to be made, and that is the BLM wilderness-park 
wilderness issue; this bill does not resolve it, but it is a 
step. It is one step into the issue. It would be an incremental 
step. It finally would break the logjam, and I honestly think 
that if we don't seem to be able to take it all in one bite, 
that this should be a very logical approach to do it--somewhat 
tying into what Governor Leavitt will probably testify to when 
he walks in about a step forward, and think this is a very 
progressive way.
    The gentlemen from American Samoa.
    Mr. Faleomavaego. Mr. Chairman, I don't have any questions, 
only to compliment Senator Bennett and Congressman Cook for 
their fine statements.
    Given the fact that the whole approach is now being taken 
from our good friend, Congressman Cannon, the proposed 
legislation takes into full consideration the views and the 
concerns of the local communities who will be directly affected 
by this legislation.
    And as you had noted earlier also, I think the statement of 
Governor Leavitt reaffirms the concept that is now being 
proposed is that we do this on an incremental basis. I'm 
curious to see how we're going to do this, and, hopefully, that 
our friends from the Bureau of Land Management will have their 
points of view taken in consideration, if this is possible and 
feasible under the circumstances.
    So with that, Mr. Chairman, I want to thank both Senator 
Bennett and Congressman Cook for their testimonies.
    Mr. Hansen. Congressman Cannon.
    Mr. Cannon. Thank you Mr. Chairman.
    Let me just reiterate what I've said many times in the 
past. I deeply appreciate the intellect, and capability, and 
camaraderie we have in this delegation and I want to thank 
Senator Bennett and Congressman Cook for coming in and sharing 
their thoughts with us. We certainly look forward to working 
with them as well as with you, Mr. Chairman, on this bill and I 
appreciate your efforts to come over here today.
    Thank you.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Mr. Chairman, thanks.
    I had only one question relating to the exercise of water 
rights by the Federal Government here. Perhaps either Senator 
Bennett or Congressman Cook could address the issue of water 
rights or perhaps the author of the bill. But, I'm curious as 
to--it's under section 407, Senator--whether or not the Federal 
Government acquiring a water right in that section would 
preempt State Water Right laws on the beneficial use of those 
water rights.
    Senator Bennett. No, it would not.
    Mr. Gibbons. That's all. Thank you Mr. Chairman.
    Mr. Hansen. Thank you.
    Senator Bennett, we appreciate you being with us today. We 
know you're busy and have things to do. Thanks so much for 
coming over to our side. We appreciate it. We'll look forward 
to hearings when your bill is introduced on the other side.
    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    Congressman Cook, would you like to join us on the dais? We 
are privileged to have you here. We know you have other things 
to do, but if you have time, we'd love to have you.
    Mr. Cook. Well, thank you very much, Mr. Chairman. I'd love 
to. I do have responsibilities with the Aviation and Banking.
    Mr. Hansen. I understand.
    We'll now turn to the next panel, the Director of the 
Bureau of Land Management, a Utah native, Pat Shea. We're glad 
that Pat could be with us. Senator Mike Dmitrich, one of my old 
colleagues from way back, will be with us on this panel; Emery 
County Commissioners Randy Johnson, Kent Peterseon, and Bevan 
Wilson. If you'd all like to come forward and take your places, 
we'd appreciate it.
    At the request of Director Shea, we'll ask the Utah folks 
to go first. So, Mike, are you ready?

 STATEMENT OF HON. MIKE DMITRICH, STATE SENATOR, STATE OF UTAH

    Mr. Dmitrich. Yes.
    Mr. Hansen. We'll turn to Mike. Let me say that we normally 
operate under a 5-minute rule, and that is our rule in this 
Committee, and that thing right in front of you is just like a 
traffic light: green you start; yellow you wrap up, and red, I 
gavel you down, which really won't happen today because I want 
to hear your testimony, but if you could stay it close to that 
area, I'd really appreciate it.
    Senator Dmitrich, we'll hear from you, sir.
    Mr. Dmitrich. Thank you, Mr. Chairman, and members of the 
Committee. It is of great pleasure that I address you today. 
I'm addressing you on an issue of great importance, not only to 
my constituents, but to all the American people.
    In Emery County, a county bigger than some New England 
States, lies one of the last great undiscovered national 
treasures, the San Rafael Swell--a place where the shores are 
long, vanished oceans. At every turn, there are signs of 
ancient Jurassic eras. Through the Swell passes the Old Spanish 
Trail, and cowboys can still be seen working. It is an area 
rich in biodiversity, both plant and animal. However, like many 
areas in the West, it is rich not only in beauty, but mineral 
wealth, grazing potential, and other uses which make human life 
possible.
    For decades, the various user groups have been also, 
literally, at war. Many groups on all sides have staked out 
extreme positions over which they have declared no compromise, 
no surrender, no quarter asked, none given. The result has been 
an area in managerial confusion. Such a situation is extremely 
difficult for local elected officials, and local area resource 
managers from the State and Federal agencies.
    However, not all voices have been strident and unyielding. 
Environmentalists, resource people, recreation groups from both 
in and out of the area have spent, literally, thousands of 
hours forging a plan to manage the San Rafael Resource Area in 
a sensible and thoughtful way.
    You have before you H.R. 3625, which is a legislative 
embodiment of that effort and an emblem of their dedication to 
reason and compromise. It is a commitment from both the 
citizens of Carbon and Emery Counties, and those who don't live 
there, but who loves those lands to care for them and to use 
them responsibly now and forever. There are those who can, and 
will, cite the specifics better than I.
    However, let me state that H.R. 3625 creates approximately 
630,000 acres of National Conservation Area from which 
industrial development will be banned, but in which 
conventional tourism and livestock will be allowed. In 
addition, over 300,000 acres would place in the wilderness or 
primitive designations. Again, I will leave the real details to 
others, but what I want to do is give you some reasons to vote 
for this proposal and not a blanket wilderness designation.
    For those who constituency lies east of the hundredth 
meridian, voting for wilderness always seems a safe and popular 
vote. However, as all of us who answer to the voters know what 
appears popular today can turn to voter resentment and anger 
tomorrow. If you enact, as some would have you do, a simple 
blanket wilderness designation for the San Rafael, the law of 
unintended consequence may begin to work with a vengeance.
    First of all, since wilderness precludes many kinds of game 
management techniques, such as providing salt or water 
bubblers, you may be causing great harm to the just reemerging 
bighorn sheep herd found on the Swell. You will hear testimony 
on that later. It goes against our intuition, but some of those 
species cannot any longer survive without human intervention. A 
game manager supports this proposal.
    Often wilderness precludes most kinds of archaeological 
work which would be criminal in this area so rich in Native 
American history. It may also mandate the destruction of some 
historical sites because they are the works of the ``hand of 
man.'' Furthermore, since the only allowed means of travel in 
wilderness areas are foot and horseback, many of the wonders of 
this area will be denied to your constituents who are elderly 
and handicapped. Those people deserve access to the lands as 
well.
    What might appear to be easy vote has many land mines in 
it. In the end, your constituents will be grateful that you 
took the thoughtful approach and did what is right for people 
and animals, for history and for culture, and for the 
opportunity to enjoy the land which they, hopefully, journey to 
my State senate district.
    That said, let me state that I am not an opponent of 
wilderness designation. Some of the earlier proposals did have 
too little wilderness. There must be pristine and quiet places 
in the evermore hectic world where a person can enjoy nature as 
God created it.
    Please note that an area larger than Rhode Island has been 
excluded from mineral development, and I am happy to say that 
there are several wilderness designations as part of the 
overall plan, but these are designations thoughtfully done, 
rather than done as part of a cynical numbers game. These areas 
contain the type of scenic wonders the original sponsor of the 
1964 Wilderness Act had in mind. Besides, I have great 
sympathies with endangered species.
    I am a rural Democrat that has survived the legislative 
process in the State of Utah for 30 years.
    [Laughter.]
    I can tell you this battle has been going on during that 
greater part of my 30 years of service. It is time for this 
battle to end. It is time to, finally, say no to narrow 
interests, and to say yes to the vast majority of Americans who 
know in their hearts that there's room for all of us. It is 
time to do the right thing, instead of the easy thing, for the 
wildlife, for the people of Emery County, for the people of the 
State of Utah, and all of America.
    Thank you for this opportunity, and thank you, Chairman 
Hansen, for allowing this hearing. I have also submitted with 
my testimony of copy of Senate Concurrent Resolution 2, which I 
sponsored in the State legislature which had both hearings in 
the House and Senate and passed with only 6 negative votes out 
of the 104 legislators.
    It is my pleasure to be here today.
    [The prepared statement of Mr. Dmitrich may be found at end 
of hearing.]
    Mr. Hansen. Were you the sponsor of that bill, Senator?
    Senator Dmitrich. Yes, Mr. Chairman.
    Mr. Hansen. And that passed? Out of 104, only 6 opposed it?
    Senator Dmitrich. There were six negative votes.
    Mr. Hansen. And that was in favor of Congressman Cannon's 
bill?
    Senator Dmitrich. Yes. That is in favor--the senate 
resolution has all the stuff that Congressman Cannon has in his 
bill.
    Mr. Hansen. So, in effect, the State legislature is solidly 
behind this legislation?
    Senator Dmitrich. Solidly.
    Mr. Hansen. The people of Utah, in other words?
    Senator Dmitrich. In fact, the negative votes--there was 
not any testimony given in the senate. It was just a negative 
vote.
    Mr. Hansen. Thank you, Senator Dmitrich. We appreciate you 
being here.
    Chairman of the Emery County Commissioners, Randy Johnson. 
The time is yours, sir.

      STATEMENT OF RANDY JOHNSON, CHAIRMAN, EMERY COUNTY 
                         COMMISSIONERS

    Mr. Johnson. Thank you Mr. Chairman.
    Mr. Hansen. Can you pull that mike just a little closer?
    Mr. Johnson. I will do that.
    Can I just make one point very quickly for the sake of 
everyone here that, while the San Rafael was most aptly named 
after earlier users of the Spanish Trail and most rightly would 
be pronounced San Rafael, in deference to the wonderful mix 
between human heritage and the beautiful land, we've always 
called it the San Rafael and it must be the San Rafael. It's 
just as true and natural as ``Easter,'' in which most of you 
would think back here in this part of the Nation is some sort 
of a down-easter wind, but it really means rolling Easter eggs 
and having a picnic on Easter weekend down in the desert. So 
these things mixed with this land, and I wanted to make that 
point very quickly.
    Mr. Hansen. I won't comment at this time.
    Mr. Johnson. Thank you very much.
    [Laughter.]
    Thank you for the opportunity to testify before you today 
on this important bill. I have spent a great deal of time 
trying to think of what I might say to you which would portray 
how important, I believe, that this new approach to public 
lands management really is.
    I'm chairman of the Emery County Board of Commissioners. 
I'm also chairman of the Utah Association of Counties, Public 
Lands Oversight Committee; a member of the National Association 
of Counties Public Lands Steering Committee, and chairman of 
the Rural Public Lands County Council. I am also chairman of 
the board of directors of the Utah Lands Foundation, a 
resolution-oriented environmental organization based in Utah, 
and I'll speak mostly from that perspective today.
    Obviously, public lands issues consume a great amount of my 
time. I want you to understand that I believe that what is 
before you is truly a remarkable landmark bill. H.R. 3625 has 
the potential to change the entire field of discussion and 
could lead us into an era of public lands problem solving if we 
willing to let it. The challenge would be in prying ourselves 
loose of the stalemate we have created.
    As stated in an April 14, 1998 Desert News editorial 
``Perhaps a miracle, a big one at that, would move key players 
off dead center or more accurately from the outer extremes.'' I 
am here today to ask you for that big miracle. I must also ask 
the question, if there is a general refusal to come to the 
table and look for solutions, then what kind of future have we 
defined for ourselves? Isn't it time to reevaluate our public 
lands management philosophy? I believe that we must ask 
ourselves what kind of war have we created and who benefits.
    I assert to you that the Emery County plan solves problems. 
It address the needs of all stakeholders. It works for the best 
good of the land itself, and most importantly, it is a 
manageable plan. Surely, this is a wonderful opportunity to 
move away from the stalemate described so well by the Desert 
News.
    Emery County has searched that natural history and human 
heritage are just as important and deserving of protection and 
recognition as our scenic vistas. We also believe that the 
current status of protection, and the current status of 
polarization and acreage quotas is harmful--harmful to the 
land, harmful to the people who use and enjoy the land, and 
harmful to the Nation. Certainly, we are capable of prescribing 
a management philosophy that meets the needs of the land while 
assuring that we can also carefully manage the resources which 
come from the lands. We believe that Emery County has done just 
that.
    H.R. 3625 is the only proposal that protects the entire San 
Rafael Swell. It is the only proposal that provides specific 
protection to one of Utah's largest herds of bighorn sheep. It 
is the only proposal that has started from the land upward 
drawing nearly all stakeholders to the table. And it is the 
only land management proposal that recognizes all the values of 
the land and works for truly manageable preservation of all 
those values. The National Heritage Area part of the plan 
addresses the wonderful blend of man and nature which is unique 
to the San Rafael. Here the footprints of history trace 
themselves across the rugged beauty of the Swell. Dinosaur 
remains scatter the area, focusing on the Cleveland-Lloyd 
Dinosaur Quarry, one of the largest sources of fossil remains 
in the world. There is also ample evidence of early and Native 
American cultures throughout the heritage area with many 
examples of their wonderful history preserved in rock art.
    Further, the heritage of the early settlers of this harsh 
and unforgiving land is woven into the area, and is every much 
as deserving of protection as recognition as the rocks 
surrounding them. Such treasures as Sid's Leaps, Swasey's 
Cabin, and Temple Mountain are as much a part of the San Rafael 
Swell as sand, and wind, and deep canyon draws. The Heritage 
Area works to identify and protect these and other wonderful 
sites for the enjoyment of all who come to the Swell San 
Rafael.
    Few other places in the world can provide such an ample 
supply of heritage sites. Access to these destinations will be 
accomplished by means of existing and long-used roads and 
trails. Most importantly, the ever-increasing flow of tourists 
will find a greatly enhanced visit to San Rafael Swell while we 
are able to better manage the flow of people and better protect 
the more pristine of the San Rafael lands. This wonderful blend 
of man and his world is the very heart and soul of this plan. 
Tracking the various footprints of natural history and human 
heritage through the San Rafael Swell gives the breath of life 
of these lands and causes all who become hooked by the 
excitement and mystery of the area to take some share of 
ownership in the process of preservation and protection.
    It is a user-friendly plan, and everyone benefits from its 
manageable approach. The National Conservation Area works to 
preserve the more pristine areas of the San Rafael, and various 
levels of protection as dictated by the land itself. In more 
than 600,000 acres, the NCA not only includes huge tracks of 
wilderness designation, but it goes well beyond wilderness and 
its protective layers. It recognizes the largest bighorn sheep 
herd in Utah and makes provisions to manage and protect that 
wonderful resource. It also withdraws the entire San Rafael 
Swell from oil drilling, timbering, and mining.
    Some will say we have withdrawn protection from many acres. 
What they really mean is that we are protecting those lands in 
ways other than wilderness--ways that are just as permanent, 
just as effective, and in many cases, much more protective than 
wilderness. Another criticism is that wilderness is permanent. 
Other protections are not.
    And, Mr. Chairman, we are here before you to seek 
congressional designation which would make this hybrid eagle 
system management concept permanent, providing protection for 
the San Rafael Swell for many generations to come.
    If you say the sand lands of the San Rafael need 
protecting, we say we agree. If you say there needs to be a 
wilderness experience available to anyone who seeks it, we say 
we agree. If you say we should preserve some of our precious 
lands for future generations, we say we agree. If you say there 
are some areas where no new roads should be built, and no new 
mining should occur, we say we agree, but if you say that 
wilderness is the only way to achieve these things, then we 
say, we do not agree. We believe that we must reevaluate our 
public lands management philosophy. We must look at the 
conflict we have created, and ask ourselves where are we going 
and who benefits.
    I close my testimony with the words of Thomas Jefferson 
directly from walls of the Jefferson Memorial: ``I am not an 
advocate for frequent changes in laws and constitutions, but 
laws and institutions must go hand in hand with the progress of 
the human mind. As that becomes more developed, more 
enlightened, as new discoveries are made, new truths 
discovered, and manners and opinions change, with the change of 
circumstances institutions must advance also to keep up with 
the times.''
    And I ask you once again for the big miracle. Let us move 
to a new hybrid form of manageable protection. Let us 
accomplish the purposes of the San Rafael Swell National 
Heritage Conservation Area.
    Thank you, sir.
    [The prepared statement of Mr. Johnson may be found at end 
of hearing.]
    Mr. Hansen. Excellent testimony. Thank you.
    Commissioner Petersen. We'll turn time to you, sir.

     STATEMENT OF KENT PETERSEN, EMERY COUNTY COMMISSIONER

    Mr. Kent Petersen. Thank you, Chairman Hansen. I appreciate 
being here, members of the committee.
    Most of the people in my county live along between the 
mountains of the Los Plato and the San Rafael Swell to our 
east. Now much of our wealth comes from these mountains. Our 
water comes from these mountains. Our coal is in these 
mountains, but our hearts are in the San Rafael Swell. It's 
where we go when we want to be alone, and it's where we take 
our visitors when we want to show them something special. And 
when our people leave for a time and come home, the Swell is 
the first place they want to visit. The San Rafael Swell is a 
land of scenic beauty, but it is much more than this. It has a 
unique history and heritage.
    Remnants of the early Americans abound throughout the 
Swell. Butch Cassidy and the Robbers Roost frequented the 
Swell. Cowboys have managed their herds on the Swell from the 
early 1870's until today, and abandoned uranium mines remind us 
of the Atomic Era.
    Now we know these are public lands belonging to the people 
of the United States. We support the right of the people all 
around this country to be able to visit these lands and have a 
say in the way they are managed, but we feel very strongly that 
those of us who live next to these lands and who have spend our 
lifetimes on or near them, must have a large say in how these 
lands are managed.
    Now the citizens of my county have a long history of caring 
for the land. In the late 1890's and early 1900's a person 
could tell a location, from the valley floor, of the sheep and 
cattle herds on the mountains by the clouds of dust they kicked 
up from the severely eroded lands. Local citizens petitioned 
the government for the establishment of the Manti National 
Forest, and now these lands are once again very productive.
    In 1992, Project 2000, a Coalition for Utah's Future, a 
broad-based public interest organization, decided to try to 
resolve the Utah Wilderness issue. Emery County volunteered to 
be the pilot county for this effort. We met with a widely 
diverse group of stakeholders to see if we could come to a 
consensus resolution.
    The stakeholders include State and national environmental 
groups, extractive industries, ORV users, ranchers, government 
agencies and local citizens. We worked for about two years and 
didn't reach consensus because the debate changed to be focused 
on H.R. 1745 and the sides became polarized.
    However, these discussions provided the impetus for the 
development of this bill. We decided if we were going to have a 
say in our destiny we would have to become proactive and seek 
workable solutions.
    While meeting with Project 2000, we found that our goals 
for the land were not all that different from most of the 
environmental community. We all wanted the San Rafael to remain 
forever as it is today. The differences were in how we were to 
accomplish our goal.
    We determined we all wanted the land protected, but we also 
found that wilderness was not the only method and is often not 
the best method. It is, in fact, a non-management tool. We 
studied various protection methods and determined that a 
national conversation area with various protection schemes 
inside the boundary would the most effective method for 
managing the Swell.
    And NCA provides protection for about 630,000 acres; and 
inside this area are wilderness, semi-primitive nonmotorized 
areas, an ACEC to protect the view from Interstate 70 and the 
Desert Bighorn Sheep Management Area. There are also wilderness 
and semi-primitive areas outside the NCA in both Carbon and 
Emery Counties.
    Now the Desert Bighorn Area provides protection for the 
sheep while allowing Utah DWR all the tool it needs to keep the 
herd viable. Careful management is necessary for this. It also 
provides for watchable wildlife areas, scientific study of the 
sheep and educational opportunities for the public.
    The semi-primitive areas provide the ideal management 
conditions for several areas in the San Rafael Swell. They 
provide for the wilderness experience while recognizing 
existing conditions.
    Now most of the H.R. 1500 areas in the Swell are protected 
within the NCA either as wilderness or semi-primitive areas or 
by the NCA itself. Additional areas are protected outside of 
the NCA as both wilderness and semi-primitive. These 
designations protect the land while recognizing existing 
conditions.
    I am sure that after careful study you will agree that H.R. 
3625 is the ideal management tool for the San Rafael Swell and 
for all of Emery and Carbon Counties in Utah. Let's try a new 
solution for an old problem.
    And I thank you again.
    [The prepared statement of Mr. Kent Petersen may be found 
at end of hearing.]
    Mr. Hansen. Thank you, Commissioner Petersen. Before you 
leave the mike, though, I've often been interested in the poem 
you have about the San Rafael Swell. So I'll take the 
prerogative of the Chair and ask you if you'd like to read 
that.
    Mr. Kent Petersen. Well, I thank you very much, Mr. 
Chairman. I'm disobeying one of the cardinal rules of a cowboy 
poet by appearing without my hat, but:

    ``I remember the first time I saw him, kind of hanging 
around by the store. His arms and his legs were both sunburned, 
and his nose was all peeled and sore. His boots had soles like 
a waffle, tacky shorts that had long since seen their best, and 
he wore an old faded blue t-shirt with a big `Save the whales' 
on his chest.
    ``Now he looked like just a regular feller with maybe a 
story to tell, and he asked if I could please help him to check 
out the San Rafael Swell. We jumped in my four-wheel drive 
pickup and went out to take a look at the place, and I could 
tell that he liked the desert, from the looks that he got on 
his face.
    ``When we got to our first grazing allotment, I stopped the 
pickup and sat there to wait. It was his job, because of where 
he was sitting, to get out and open the gate. He got back in 
and was cussing, and when I looked down I started to hoot. He 
hadn't looked where he was stepping, and he had green stuff all 
over his boot.
    ``And then he explained how he didn't like cattle, said 
they should be banned from the land. They ruined the wilderness 
experience. Kind of hard for an old cowboy to understand, but I 
showed him the canyons and pinnacles caused by erosion from 
millenniums untold, and we marveled at the colors and stillness 
as we watched nature's beauties unfold.
    ``We saw signs of the old ones, the Freemont, who left 
their messages carved in the stone, and we saw diggings left by 
the miners and some petrified dinosaur bones. We saw the 
remains of an old homestead cabin right next to a cool flowing 
spring. We showed how this land could be helpful and the next 
season heartless and mean.
    ``We got back to town, and I left him. I forgot him, and 
I'm sure he forgot about me, and then I saw him about a month 
later on the late evening news on TV. He explained how this 
land should be set aside as a wilderness for backpackers and 
friends and get rid of those cows and the cowboys and those 
four-wheel drive trails.
    ``It seemed like a lot of folks listened. They were starved 
for the touch of the land. They just wanted a place to be all 
alone. It was a feeling we could all understand. They got to 
thinking of us as intruders. It was their land they wanted to 
preserve. It was theirs, and we no longer belonged on it. We'd 
been here for as long as we deserved.
    ``Well, we talked to our Senators and Congressmen, 
explained in detail of our fight. We wrote letters and talked 
to each other. We put up one hell of a fight. We thought for a 
while we were winning. We held rallies and parades with our 
friends, but, just like it says in the good book, eventually 
all things have to end.
    ``We lost, but I guess it's been all right. There's plenty 
of things here to do. We now live on a big reservation, and 
they put all the cows in the zoo.''
    [Laughter.]
    Mr. Hansen. Very well done.
    Commissioner Wilson, thank you for being with us. We'll 
turn the time to you, sir.

    STATEMENT OF BEVAN K. WILSON, EMERY COUNTY COMMISSIONER

    Mr. Wilson. My pleasure.
    Chairman Hansen, Ranking Member and members of the 
Subcommittee, ladies and gentlemen, I come before you today as 
an Emery County Commission and as a native Democrat of Emery 
County. I appreciate the opportunity to testify on a matter 
that is of vital importance to all of us.
    During the debate on the 1996 Utah wilderness bill, Senator 
Bill Bradley raised a question that is central to my discussion 
today. Senator Bradley asked, ``How do we achieve a balanced, 
reasonable plan for conserving America's natural heritage while 
providing opportunities for economic growth and development 
across our public lands?'' This is a question that we in Emery 
County have been pondering for over a decade.
    The 10,000 citizens of Emery County live on tiny islands of 
private land surrounded by a sea of public land. Nine of the 
every ten acres are owned and controlled by government, either 
Federal or State. These lands not only surround us; they 
sustain us. Water is our most limited and precious natural 
resource. Every drop of water we use comes from public land. 
Ranching is our dominant agricultural enterprise. Much of the 
forage for our livestock comes from BLM or Forest Service land.
    Emery County is the No. 1 coal-producing county in Utah. 
Most of our coal comes from Federal coal leases. Public land 
has always provided most of our recreational opportunities, and 
our growing industry is inseparably tied to those lands.
    Public land issues have always been important to us, but 
they assumed a new importance during the BLM wilderness 
inventory process. Hundreds of local citizens attended public 
hearings and offered comments on the wilderness EIS. Since that 
time public land issues have occupied most of the county 
commissioners' time.
    Suffice it to say, the commissioners and Public Lands 
Council met with numerous stakeholder groups, listened to hours 
of testimony, held dozens of meetings, and considered every 
conceivable land protection strategy before developing our 
proposal. I wish to make it clear that H.R. 3625 is our 
proposal. We are deeply indebted to the Utah congressional 
delegation for helping us express our wishes in legislative 
language.
    What does H.R. 3625 do? First, it protects public land. It 
bans mining, logging, tar sands development, and oil and gas 
exploration on approximately one million acres. Some would have 
you believe that this bill somehow lessens existing protection. 
It does not. It protects lands now identified by the BLM as 
Wilderness Study Areas. It protects land in the center of the 
San Rafael Swell that are not identified as Wilderness Study 
areas. It provides specific protection to the Sid's Mountain 
Area, which is home to one of Utah's largest bighorn sheep 
herds.
    Second, H.R. 3625 sets the stage for a tourist industry 
that respects the environment and local culture. It does this 
by blending a National Heritage Area with a carefully selected 
mix of protective measures, including wilderness. Some paint 
tourism as the answer to all of southern Utah's environmental 
and economic problems, and wilderness as the ultimate tourist 
attraction.
    I have no doubt that tourism will assume a growing 
importance in Emery County's economy. Emery County is pretty 
close to Utah's population center. A visitor from Salt Lake 
City can spend his entire vacation in Emery County without even 
having to purchase fuel locally. If we base tourism industry on 
traditional ``windshield'' tourism, we will have to attract a 
huge number of visitors because per capita spending will be so 
low.
    We don't want to do that. That type of tourism would 
severely impact our public lands and compromise our cherished 
rural lifestyle. We hope to develop ``value-added'' tourism 
which will provide an enhanced experience to a smaller number 
of visitors. A National Heritage Area is a natural fit for that 
type of tourism. Protective designations, such as the Bighorn 
Sheep Management Area, also provides opportunities for 
sustainable tourism.
    The Bighorn Sheep Management Area was developed in 
cooperation with wildlife managers and land managers primarily 
to protect the sheep and their habitat. The Area also provides 
unique opportunities for visitors to view bighorn sheep. 
Recently two Public Land Council members were explaining their 
concept to a National Public Radio reporter, while traveling 
through the Buckhorn Draw.
    As if on cue, a herd of 13 bighorns moved out a gully, up a 
cliff face, and paused on top of a large boulder. The reporter 
was thrilled by his first encounter with bighorns in the wild. 
Guides and outfitters will be able to provide that experience 
to others, in perpetuity, if we adopt a plan that manages both 
lands and people. The bighorn sheep area is only one example of 
the sustainable, value-added tourism opportunities created by 
this H.R. 3625.
    I repeat Senator Bradley's question, ``How do we achieve a 
balanced, reasonable plan for conserving America's natural 
heritage while providing opportunities for economic growth and 
development across our public lands?'' I believe that H.R. 3625 
comes closer to answering that question than any proposal yet 
offered.
    Emery County's public lands and its culture are inseparably 
linked. Our lands and culture have survived the rise and demise 
of free-range grazing. They have survived the uranium boom and 
bust. They have survived the roller coaster trend of the coal 
economy. The question yet to be answered is: Can they survive 
tourism and the service-based economy of the New West? Our 
challenges are great. We believe that H.R. 3625 will help us 
meet those challenges now and in the future.
    Thank you for giving me the opportunity to testify.
    [The prepared statement of Mr. Wilson may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Commissioner. We appreciate your 
testimony.
    We are honored to have Pat Shea, Director of the Bureau of 
Land Management, with us. Director Shea met with us in Emery 
County and has been very good to work with in this issue. We 
appreciate you being with us. We'll turn the time to you, 
Director Shea.

   STATEMENT OF PAT SHEA, DIRECTOR, BUREAU OF LAND MANAGEMENT

    Mr. Shea. Thank you. I would like to submit a written 
statement that was provided to the Committee.
    Mr. Hansen. Without objection.
    Mr. Shea. And I will summarize that testimony. I do think 
H.R. 3625 is predicated on a genuine local concern that is 
shared certainly by this Administration for preservation, 
conservation, and interpretation of invaluable national assets; 
and the San Rafael Swell certainly is one of those.
    Indeed, many decades ago it was recognized as a area of 
great importance by my relatives who happened to help settle 
Emery County, and I should recognize that Bevan Wilson is a 
second cousin, just so there's no confusion here, and it's sort 
of nice and symbolic that we've got the two Republicans sort of 
book-ended by the endangered species, Utah Democrats.
    I want to make a couple of points: The BLM does have two 
plans in place. One is the San Rafael Resource Management Plan, 
and the other is the Price Resource Area Management Framework 
Plan, and quite frankly, Mr. Chairman, one of the difficulties 
that we in the Bureau have had is how we try to reconcile those 
plans that are in place with the legislation. I don't say it's 
impossible, but we are still in the process of trying to do 
that, and much of my testimony will be focused on some areas of 
concern that we have.
    We are pleased that the legislation recognizes I think a 
very valuable contribution that the Secretary of Interior, Mr. 
Babbitt, has introduced to the BLM process, and that is the 
Resource Advisory Committees. The RAC process I think has moved 
us away from the process of confrontation into recognized 
arenas of dialogue with each different group having a place at 
the table, to participate in that dialogue.
    And so I think that is an important principle; although, 
consistent with Congressman Canon's agility, he has introduced 
in it a new concept, and I think we need to discuss that new 
concept very much up front and see how it can be reconciled 
with the 1964 Wilderness Act.
    So instead of doing something inadvertently that results in 
litigation, I think we have an obligation to the people to deal 
with it directly, and if indeed we are trying to amend the 
Wilderness Act by this legislation, we ought to recognize that. 
If we are not, then we ought to make a clear declaration that 
we are not, but we shouldn't inadvertently slip into it.
    No, it also creates or proposes a National Heritage Area, 
and we in the BLM certainly have had experience with National 
Heritage Areas, and we think they are very important models 
where the predominance of the land that you are dealing with is 
in private ownership. We don't think that that model 
necessarily has an immediate application where the predominant 
land is public land, as it is in the San Rafael Swell; not to 
say that there isn't something that can't be worked out there.
    Now, we do think, again, because of the importance, and I 
would say the fundamental conservative nature of recognizing 
past legislation, namely the 1964 Wilderness Act; we believe as 
an administration that this bill inadvertently seeks to amend 
that Act, and therefore the Department, the Secretary and I, 
would recommend the veto if this legislation was to become law. 
So I need to make that message very clear, that we in the 
present form would not be able to endorse this legislation and 
would recommend a veto on it.
    Now, having said that, like I said, I hope we can find some 
areas of engagement, and certainly our meeting in Emery County 
and our going out to the San Rafael Swell was a step in the 
right direction. And I'd like to, for constructive purposes, 
mention a couple of things that, as the Director of BLM, I am 
more interested in trying to do.
    You'll notice the map there has stars which are designated 
as Heritage Areas, under this legislation. What I would like to 
do is enter into a Memorandum of Understanding with Emery and 
Carbon County and see if we couldn't do a systematic survey to 
make sure that either under the existing framework, which I 
would point to as a San Rafael Resource Management Plan or the 
Price Resource Area Management Framework Plan.
    We could provide the kind of protection--I don't think 
anybody disagrees that this area is vulnerable to an explosive 
growth in tourism and we need to have the infrastructure in 
there that allows to preserve those Heritage Areas. We just 
don't think we need to have the kind of legislation that's 
proposed, and reasonable people can disagree on that, but as an 
interim measure I would invite serious discussion and hopefully 
memorialization of that, of a Memorandum of Understanding, for 
a recognition by survey method of those areas for heritage 
designation.
    I think within the bill itself, and I would point to 
section 105, there is not a clear delineation of what the 
relationship is between the Heritage Council, that is proposed, 
and the existing Resource Advisory Committee or the existing 
plans that have gone through the FLPMA process that is our 
organic Act.
    We also don't believe that the bill was clear on how the 
two councils created under the Act would use or be obligated to 
use either NEPA process or FLPMA, and until there is clarity on 
that I think we need to be very cautious in this area.
    I also think we are trying to, in some senses, back door 
the problem of the 2477 roads. On the map it says, ``minor 
roads.'' Some of those roads are really river bottoms, and they 
may have been used as jeep trails, but I think the definition 
of a road is quite clear, and obviously that matter is being 
litigated, and I don't think we should by passing legislation 
attempt to--without clearly identifying the effort--to amend 
the law as to what a definition of a road is. And so we would 
respectfully request that the designation ``minor roads'' be 
taken off the map.
    Let me try to use an analogy. My grandmother was a school 
teacher in Emery County, and she is the one that taught me how 
to make ice cream; and I remember as a kid always sitting there 
turning the handle and putting more salt on it because that was 
going to make it freeze up a little quicker.
    And I would suggest that this legislation is a great 
formula for old-style, heavy cholesterol ice cream. I think we 
have decided for health reasons that perhaps old-style ice 
cream isn't always the healthiest thing. It certainly may taste 
the best, but I think frozen yogurt is a national standard, and 
I think we are obligated to stick with the national standard 
unless we choose at a national level to change it.
    And so, with all due respect, I come down on the side of 
frozen yogurt, and my friends from Emery County are proposed 
old-fashioned ice cream; and you are all are going to have to 
decide, and it's certainly within your power, under Article 1 
of the Constitution, to amend it; but if you are going to set a 
national standard of ice cream, let's call it ``ice cream.'' 
Let's not try to kid ourselves and say that we are really are 
serving frozen yogurt when it's not frozen yogurt.
    So that may be an abstraction, but I think people of Utah 
will understand it, and I would be open to any questions you 
might have.
    [The prepared statement of Mr. Shea may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much for your testimony.
    The gentleman from American Samoa, for a question to the 
panel.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I have been sitting here listening to the various 
testimonies, and without question, there has been a lot of 
issues brought forth for the Subcommittee's consideration, and 
a lot of times I think the members of the Committee are 
bothered by the fact that sometimes there are friends from 
downtown at the Bureau of Land Management who tend to dictate 
things from Washington, but never really have been out there in 
the western country to find out what it means to have cow 
manure under your boots or something of that sort.
    And I'd like to ask Mr. Shea, as a native Utahan, you are 
quite familiar with this area that is being considered in this 
proposed legislation?
    Mr. Shea. I should also recognize that at one point in my 
legal career I represented Carbon County, and they sued Emery 
County over coal royalty disputes, and it was a sort of 
Hatfield and McCoy dispute, and it's a sign of the changing 
times that Mike Dmitrich, a known Utah Democrat from Carbon 
County, is now representing Emery County.
    Mr. Faleomavaega. Mr. Shea, I notice in your statement that 
you made an interesting observation about the proposed 
legislation, that basically the provisions and the concept 
underlining the proposed legislation is in reference to how we 
deal with wilderness areas among the eastern seaboard States, 
where privately owned lands are predominant, and the futures of 
how we do this federally in terms of resolving some of the 
problems.
    And you are suggesting in your statement here that the 
basic rudiments of this legislation really touch on the 
concerns of private landowners without touching on the fact 
that major portions of the State is federally owned land. And I 
think we go back to this same issue that I know that our good 
chairman has been very concerned about is the fact that so many 
of our western States are owned practically by the Federal 
Government, as opposed to so many of our eastern States who 
don't have this problem of Federal ownership.
    And I noticed also in your statement that when it comes to 
federally owned lands, you are talking about all of America 
versus the State of Utah. And our good friends from Utah are 
saying, ``Look, the place is in our State. Why can't we have an 
approach where there is a balanced approach to development as 
well as preserving the environment?'' I think this is basically 
where we are at.
    And my good friend Mr. Cannon proposes, hopefully, a 
balanced approach. I noticed that Senator Bennett commented 
earlier that the provisions to this bill is in compliance in 
his opinion--in compliance with the provisions of the 
Wilderness Act of 1964. Would you care to comment on that?
    Mr. Shea. I respectfully disagree. Again, I think what we 
are trying to do in designating some portions of it as semi-
primitive and then making exceptions as to mechanical or 
mechanized use of the wilderness area, we are inadvertently or 
indirectly amending the 1964 Act. So I would respectfully 
disagree.
    Mr. Faleomavaega. I also noted in your statement that you 
did list several of the current Federal enactments: the 
Archeological Resources Protection Act, the Clean Air Act, the 
Endangered Species Act, the NEPA, the FLPMA, the Environmental 
Impact Statements, whatever else that is thrown in there.
    Now I noticed Mr. Cannon's bill does note those Federal 
laws, and in your statement you suggest that it doesn't put 
enough teeth really in saying whether or not these Federal laws 
can fully apply to the proposed bill.
    Am I wrong in----
    Mr. Shea. No, you are correct in that. I think, quite 
frankly, that's probably one of the most difficult problems 
Congress faces today is finding ways with new legislation, like 
Mr. Cannon's, as to how it relates to past legislation. And 
that's why I said I really felt my testimony was a fairly 
conservative statement, because it does seem to me a very 
important, conservative principle that you don't invent 
something entirely new. It has a relationship to what preceded 
it, and in this bill that's unclear.
    Mr. Faleomavaega. Now, as I recall, three or four years ago 
I personally attended, along with my good friend from New York, 
with Chairman Hansen--we had a field hearing in Salt Lake City 
on the proposed rule in this bill that the chairman then 
introduced. And I was under the clear impression that the 
Bureau of Land Management is supposedly working very closely 
with the various factions in Utah, politically, socially, 
economically.
    And where are we? I mean, why the continuation of the 
problems that we are faced with? This is about the fifth bill 
that is being introduced now in trying to resolve this impasse. 
In your honest opinion, is the Bureau of Land Management, with 
all its resources, sincerely trying to resolve this with the 
leaders of Utah?
    Mr. Shea. I believe it is. I think one of the frank 
problems we have in Utah is that when people indicate that 
everybody has been invited to the table, that may be an 
accurate statement as to a portion of the meal, but they're 
certainly not there for the preparation of the meal.
    And I think it's important to recognize, from the BLM's 
perspective, that if you are going to have a guest, they have a 
right, I believe, under the Federal Constitution, to 
participate not only in the dessert or the main course, but 
also in the preparation. And I think it's in the preparation 
where there has been an absence of representation.
    Mr. Faleomavaega. I also noticed that you commented about 
the two management plans in place by the Bureau of Land 
Management with its current efforts to deal or address these 
two basic areas, the San Rafael Swell. May I ask you: Was there 
an Indian name in place before the Spaniards came into this 
place?
    Mr. Shea. Undoubtedly there was. Unfortunately, at least 
the pre-European entry into North America name was never 
captured, so undoubtedly the natives at the time had a term for 
it, but I don't know that we in the modern era know what that 
term was.
    Mr. Faleomavaega. Mr. Chairman, do you think there will be 
a problem that we can introduce a bill to change the name San 
Rafael Swell to the real true Native American name that it 
should have designated? I am just curious about that.
    Mr. Chairman, I know my time is up, and I'll wait for 
another round. Thank you.
    Mr. Hansen. Gentlemen, thank you.
    The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    You know, I can't help looking at this group and being 
struck by a fact. On the wall in my office somebody has posted 
a joke that appeared in one of the offbeat Utah papers that had 
a sign saying, ``Entering Utah. Next Democrat 436 miles.'' And 
yet, three-fifths of this panel is Democrats, and maybe the 
most remarkable thing is I think we can both characterize 
everyone on this panel as our friends. It's an interesting 
fact.
    I have to apologize, Randy, about infecting people with San 
Rafael because that's my problem, and it's not that I don't 
know that you say ``San Rafael,'' but having spoken Spanish for 
some period of my life, I just fall into that pattern. It 
reminds of where my daughter is going to school in southern 
Virginia, at a town where most westerners would pronounce it 
``Buena Vista'' but, you know, when two vowels go walking, the 
first one does the talking. In Virginia, at least, they call it 
``Buna Vista'' down there. The town is famous because that's 
where statewide apparently campaigns in Virginia begin with 
regularity.
    Let me begin by commending the panel. I appreciate the 
efforts that have gone in. I would like to point out that ice 
cream is not yogurt. They are two different things, and you can 
enjoy them both, if you like yogurt.
    [Laughter.]
    Let me begin by asking some questions, and there's one 
other thing I wanted to say just as a matter of preparatory 
comment. I believe it was the Deseret News recently, Pat, you 
talked about dominion and stewardship; and frankly, that is 
what I would--you also referred to yourself as a 
conservationist, which is something I--I view myself as that--
and frankly, I believe that if we can move forward in the 
context of weighing the concepts inherent in those three words: 
this is, dominion, stewardship and conservationist; I think we 
can make some progress.
    And frankly, I appreciate the clarity of your response to 
the bill and hope that we can have a continuing dialogue. You 
know, one of the things that just concerns me is the continued 
reference to the fact that not everyone was invited to 
participate in this process. I am not sure that if we asked the 
county commissioners who were reaching out to people or you, 
Mr. Chairman--I am inclined to ask you why you think people 
weren't involved, because I know of many, many outreach 
attempts to everyone that has an interest down there.
    I am not sure that all of them decided they wanted to come 
to the full dinner or even the preparation, but why is it you 
think that people were not involved in this discussion or 
involved in only a limited way?
    Mr. Shea. Certainly, on my time in Utah, most recently when 
we were in Carbon and Emery County, I had discussions with 
people, particularly from the conservation community who were 
not part of the preparation, didn't know about the preparation. 
At a point at which it had been formulated, they were then 
invited to make comment and, quite frankly, didn't feel they 
were welcome at the table, but were going through somewhat of a 
formalistic ``now is your 5 minutes to make a statement on 
it,'' and then, ``thank you very much.''
    Now I want to quickly add, and I specifically want to 
address the three county commissioners, I think there's a real 
potential for a continued reaching-out process. And I think 
Governor Leavitt and the Utah delegation have made an effort in 
that direction, and I don't think we're back in 1992 and 1994 
or 1996. I think we are making some progress, but there needs 
to be a chance for the Southern Utah Wilderness Alliance, for 
the Sierra Club, for other folks who, quite frankly, a few 
years ago were not entirely welcome in the area, to be engaged 
in a discussion on this.
    Mr. Cannon. Are you familiar with the attempts by the 
Commission and by me to involve those two particular groups 
that you've referenced?
    Mr. Hansen. Could I ask the gentleman to suspend? Could I 
ask unanimous consent that the Governor of the State of Utah be 
allowed to sit on the dais? Is there objection? Hearing none, 
so ordered.
    Back to the gentleman.
    Mr. Cannon. I think I missed my time again, but are you 
referring particularly to the SUWA and Sierra Clubs, and are 
you familiar with our attempts--my attempts and the county 
commissioners' attempts--to draw them into the discussion?
    Mr. Shea. Congressman, as we were bouncing along the road 
to go out to the Swell, you described for me the details that 
you had had as an outreach, and I certainly then and now 
commend you for that effort. All I am saying is that as the 
process was initially being formulated, there needed to have 
been more participation than there was.
    Mr. Cannon. Let me, at the end of my time, just ask--read a 
quote and ask--it may not be our fault that they were not at 
the table. SUWA ran an article in the May 30, 1994 issue of 
High Country News which stated that, ``SUWA is unwilling to 
negotiate the issues, and the SUWA steers clear of consensus.'' 
Moreover, the ad encourages the use of lawsuits over consensus-
building or advisory committees, yet even states that ``if this 
allows our critics to label us as extremists, then we are 
extremists.''
    I mean, is it possible that we are never going to be able 
to draw the Southern Utah Wilderness Alliance into this 
discussion?
    Mr. Shea. It's certainly possible. I don't think it's 
likely.
    Mr. Cannon. In your mind will that be the end of the 
discussion? In other words, can this one group hold up any 
progress any progress in public lands in Utah?
    Mr. Shea. No.
    Mr. Cannon. Thank you, and I do have some other questions 
on the next round.
    Mr. Hansen. We'll have another round. I'll deviate from the 
questions at this time, and we'll call upon the Governor of the 
State of Utah to give his presentation.

 STATEMENT OF HON. MICHAEL O. LEAVITT, GOVERNOR, STATE OF UTAH

    Governor Leavitt. Thank you, Mr. Chairman. My purpose today 
is to speak in support of the San Rafael National Heritage and 
Conservation Act. This is consistent with what I have believe 
was an important process question for us, and that we have been 
talking about these issues related to public lands and 
wilderness now for more than 20 years, and we are making very 
little progress.
    I have called upon the citizens of our State to recognize 
that the most important thing that we can begin to do is to 
begin to agree on what we can agree on, and there are some 
important areas on which I think we can agree.
    I have been advocating the idea of using an incremental 
approach. There are large tracts of wilderness that I believe 
everyone agrees upon, and I would very much hope that we could 
begin to make wilderness. This would not be all the wilderness 
that is necessary. There is still a broad debate on how much 
and where it should be, but there is at least 250,000 acres on 
the table here from a community-up effort that's being offered 
as agreement, and it's my clear view that we should continue 
forward.
    There are some other very good ideas in this initiative 
that I am impressed with. The whole idea of being able to 
create the reserve for the bighorn sheep is a very exciting 
idea. I've got a prepared statement. In the interest of time, 
I'd just like to submit that and I'd like to respond to any 
questions that you would like to direct to me, but my purpose 
is to be here today to express my enthusiastic support for 
moving forward on things on which we can agree.
    There are some very good innovations here that we should be 
taking very seriously.
    [The prepared statement of Governor Leavitt may be found at 
end of hearing.]
    Mr. Hansen. Without object, the entire testimony will be 
included in the record.
    I'd ask the members of the Committee, as they direct their 
questions, the Governor is willing to respond to questions as 
well as the panel which is before us at this time.
    I do appreciate your opening statement, Governor, and 
basically I feel that the legislation that has been put forth 
by Representative Cannon basically fills the need that you were 
talking about years ago as far as an incremental approach to 
this probelm. This is a step into it.
    It does not resolve all of the wilderness areas on BLM. It 
doesn't even come close, but it starts the process moving in a 
very creative way, by the people of Emery County and the good 
work of Senator Mike Dmitrich in the Senate and the House. So I 
really think we are on the right track at this particular 
point.
    Of course, here we are to work out the details and see if 
we can come up with something that would be constructive. We'll 
have another round because I understand Congressman Cannon 
wants another round, and we'll now turn to our friend from New 
York, Mr. Hinchey, for any questions he may have for the 
Governor or the panel.
    Mr. Hinchey. Thank you very much, Mr. Chairman. I would 
like to join you in welcoming Governor Leavitt. It's such a 
pleasure to see you once again, sir. It's always a pleasure to 
have you here with us.
    I have no particular questions to pose to the Governor at 
this time, Mr. Chairman. I do have an opening statement that I 
would like to make at whatever time you deem that to be 
appropriate.
    Mr. Hansen. The gentleman is recognized for his opening 
statement.

   STATEMENT OF HON. MAURICE D. HINCHEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Hinchey. Thank you very much, Mr. Chairman. I'd like to 
begin by saying that this bill demonstrates that there are some 
things I think on which we can all agree. We can agree that the 
lands covered by this bill are worthy of protection for their 
natural characteristics, not for their exploitive value.
    We can agree that their economic future lies with the 
uniqueness of the land and its importance to the Nation, and we 
can agree that they are not ordinary places, not simply 
leftover lands deserving of obscurity.
    Perhaps most importantly the very basis of this hearing is 
the recognition that these are Federal lands and therefore 
owned by all the American people and lands that all the 
American people have a legal and financial interest in and that 
they should have----
    Mr. Hansen. Could I ask the gentleman to briefly suspend? I 
think we have a group of students who are interested in 
watching this. Why don't you youngsters come up and just use 
this bottom tier here, if you would, and we'd be just pleased 
that you could join us for a few moments.
    I appreciate the gentleman from New York's courtesy in 
suspending his statement at this time.
    Mr. Hinchey. Certainly.
    Mr. Hansen. Just walk all the way around and we'll probably 
get most of you on here. If you would like to sit down in those 
chairs, we'll take as many as we can. Now you'll all be graded 
on this, so take good notes, will you?
    [Laughter.]
    Thank you, gentleman from New York, for suspending. We'll 
turn the time back to you, sir.
    Mr. Hinchey. Thank you very much, Mr. Chairman. I was 
saying that these are lands in which all the people of our 
country have a deep legal and financial interest, and they are 
lands in which, as they come to know about them, I believe 
we'll have an even deeper interest in as well.
    The premise of the bill that we have before us, which I 
think is a very creative piece of legislation, is that these 
lands are deserving of a special status and distinction in the 
national arena, worthy of the attention of all Americans, and I 
certainly very strongly agree with that idea.
    However, that brings me to my first concern about the bill. 
We've been hearing quite a bit in the Committee in the past two 
years about the importance of consultation on public land 
issues. Yet the bill was apparently put together very quietly 
and developed as if the lands were only of local interest in 
Emery County.
    The owners of the lands were not consulted. The bill was 
introduced just as the House was going into recess three weeks 
ago. Yet markup has already been scheduled. It would be hard 
for me to think of a bill as complex as this that was rushed 
through the Subcommittee process as quickly as this one has.
    Nevertheless, I am glad that various people will be here 
today to comment on the broader national interest in these 
lands. I will keep my own comments on that subject.
    First, Mr. Chairman, you know of my strong interest in 
Heritage Areas, and I am pleased to see the idea being applied 
in the West as it was with Cache La Podre. It is a further 
demonstration that the interests of the East and the West in 
such programs are not as different as some would say they are.
    Throughout our long discussions of Heritage Areas, both 
before you began chairing the Subcommittee and since, Mr. 
Chairman, you have rightly emphasized that Heritage Area 
proposals must fit certain criteria, such as prior study by the 
National Park Service, and that a Heritage Area designation 
must serve a national interest and not simply the local, 
economic interest. I hope consideration will be given to how 
those standards apply in this particular case.
    Secondly, I am concerned about some of the terms of the 
special management areas proposed under the bill. I know, for 
example, that very little is said about how the ``National 
Conservation Area''--that phrase I put in quotes--will be 
managed, only that it will be managed by an advisory committee 
whose membership will be almost exclusively composed of Utah 
residents.
    Fond as I am of the many friends that I have made in Utah 
over the last several years, I must say again that these are 
lands owned by all the people and that all the people will be 
footing the bills, but they will have little representation on 
this committee under the provisions of this legislation.
    I am concerned about the Bighorn Sheep Management Area. I 
wonder whether it makes sense to manage an area for the 
protection of a single species. My broader concerns about these 
areas concern their purposes.
    The first purpose stated for the conservation area is to 
concern the resources for future generations, and again, of 
course, we can agree on that; but it's a broad statement. What 
are the resources involved? Is there a conservation for the 
future compatible with the other stated purposes, such as ORV 
use for example?
    As you would probably expect, I am leading up to my 
concerns about how the bill treats wilderness. It states 
several purposes that seem to be the same purposes as 
wilderness designation, but it severely restricts such 
designation. By my calculations, it would designate even less 
area as wilderness than the bill you withdrew from 
consideration over two years ago, Mr. Chairman.
    It would end protection for 140,000 acres that are 
currently Wilderness Study Areas, and I think that is a very 
important consideration indeed. Its provisions on road claims 
would effectively foreclose wilderness designations on much of 
the area in question which in my judgment would defeat the 
goals of conservation.
    In the past two years I have heard you and others praise 
wilderness, and I have heard Governor Leavitt praise 
wilderness, but it still seems that the goal is to reduce the 
supply of this precious commodity to the smallest number 
possible. As you know, I believe we have too small a supply of 
wilderness lands in their natural state as it is, and I believe 
we should make the strongest effort possible to preserve the 
wilderness we have.
    I have spent 18 years working to protect the remaining 
wilderness in my home State, and I am committed to protecting 
the wilderness that we all share ownership of, wherever it may 
exist across the country. I believe a large percentage of the 
lands covered by this bill are eligible for wilderness 
designation and should be protected as wilderness, instead of 
trying to develop various new kinds of land management 
categories that fall short of wilderness designation. I realize 
full well that many people fear the word ``wilderness'' and 
resist designation because of those fears.
    The same was true when we were designating wilderness in 
New York a century ago, but you might take the opportunity to 
put those fears to rest by sharing all the eloquent comments 
that you have made about the value of wilderness during our 
discussions of your eastern wilderness with the people of Emery 
County. That might help to bring us closer to a resolution on 
the future of these lands and help to educate the whole country 
on why these lands truly are worthy of national interest.
    And although I think the bill is an interesting and 
creative exercise, particularly in the way that it seeks to 
employ the designation of national Heritage Areas; I think that 
unfortunately it falls far short of what we ought to be doing 
as a Committee and as a Congress with regard to exercising and 
expressing our deep respect and appreciation of the uniqueness 
of this particular part of our country.
    I thank you, Mr. Chairman, for allowing me that 
opportunity.
    Mr. Hansen. Thank you. The gentleman from Minnesota, is 
recognized for questions for the panel, opening statement and 
questions to the Governor.
    Mr. Vento. Well, thanks, Mr. Chairman. I regret that I was 
not here earlier to begin the hearing, but I had other 
commitments. I appreciate and acknowledge the presence of the 
Governor and the work that has been done on this proposal. I am 
not very familiar with it, but I understand that the management 
entity that's included in the bill in terms of management of 
the national lands is such that it does not have significant 
representation or at least majority representation by the 
Department of Interior at the BLM. Director Shea is here. I 
acknowledge his presence, and that's a concern. Is it not, 
Director Shea?
    Mr. Shea. You are correct.
    Mr. Vento. I think the--you know, the idea of--in terms of 
dealing with wilderness measures in the past, we have in fact 
tried to have special I guess for the Forest Service to have 
some national recreation areas and deal with these in a 
different way in terms of trying to provide or accord some 
protection in addition to the wilderness protection; and I 
think that his bill tries to mix that with the BLM in this BLM 
area and doesn't embrace the entire State.
    This only addresses what portion of the State and Utah, 
Governor, is this about--this I know is three counties--is this 
about a quarter of the issue at hand in terms of the 20 million 
acres of wilderness the BLM that lands that are present?
    Governor Leavitt. I can't give you an exact percentage. It 
may be even be a smaller percentage than that.
    Mr. Vento. I am just trying to get an idea----
    Governor Leavitt. The important thing is it's progress.
    Mr. Vento. Director Shea, has the BLM done some studies 
with regards to the National Conservation Area or with regards 
to a Heritage Area in this, which of course is an entirely 
different entity than wilderness? I know there have been some 
wilderness studies, but has there been any analysis or any type 
of formal study of this process?
    Mr. Shea. We have two plans in place, as I mentioned 
earlier: the San Rafael Plan and the Price Plan, but we were 
not involved in the formulation of this legislation, and one of 
the things I suggested, particularly on the heritage side, is I 
do think that there is a great deal of administrative 
flexibility to do a survey between BLM and the people of Emery 
County and Carbon County to look at the heritage side.
    On the conservation side, I think you're absolutely correct 
that we have a problem with trying to say this is wilderness 
but it's not quite wilderness under the 1964 definition, and my 
earlier statement was that I think Congress has the power to 
legislate whatever way they want, but for purposes of clarity 
if it in fact is wilderness area; they ought to comply with the 
1964 law or amend it specifically.
    Mr. Vento. The issue here of course is that there has 
been--do we have any ACECs? Is there any other land 
designations in these areas that are already present or not?
    Mr. Shea. There is one in the near area. We are proposing 
than an NCA is part of this bill. The original proposal was for 
890,000, and this covers 630,000.
    Mr. Vento. Well, I think that, Mr. Chairman, most of the 
time we would try to get some analysis I know on the formal 
bill that we had with Heritage Areas we actually had had some 
provision that provided for some money to try and get some 
parameters around the type of Heritage Areas that we are 
talking about.
    Of course, that addresses, as the Director has pointed out, 
areas that are largely private land. How much private land is 
involved in this entire complex that we are talking about, this 
million acres?
    Mr. Shea. There is none in this--well, it's 630,000 acres.
    Mr. Vento. There is no private land at all?
    Mr. Shea. There are school trust lands and State trust 
lands, but there are no private lands.
    Mr. Vento. Currently, the management entity that--the idea 
of putting that in place was because there was substantial 
cross ownership of land. Is there a significant amount of State 
land in here?
    Mr. Shea. Not a significant amount, but there is some. I 
did point out in my testimony that the conservation areas were 
traditionally where the predominant nature of the land was 
private and that this was unusual here.
    Mr. Vento. Now I noticed that, but I was just wondering 
what the amounts were that we're trying to address. So I mean, 
the issue, Mr. Chairman, is, you know, not only that, but I 
understand that this anticipates a trade out of the school 
sections, this legislation does, so then it would be 
practically exclusively national land. Is that correct?
    Mr. Shea. Yes. If you could direct your attention to the 
map over there, the white portions of the wilderness areas, 
both the dark green and the light blue, as I understand it, are 
either State trust lands or school trust lands, but in the 
exchange process, which in my reading of the bill is not clear 
as to what process we would use for that exchange, then it 
would become solely Federal.
    Mr. Vento. Let me just conclude by saying, Mr. Chairman, 
that I'll study the bill more carefully, but I think that if is 
a start of a negotiating position I guess it's fine. In terms 
of how we are going to deal with--in other words, segmenting 
and trying to deal with issues that we can deal with and agree 
upon, but obviously there are a lot of changes from what is a 
Heritage Area and what are National Conservation Areas.
    I understand that the conservation area is all Federal 
except for the State trust lands, and the Heritage Area 
encompasses all Emery and Carbon Counties and includes private 
lands as well. So, I don't know how we can sort through it, but 
if the Heritage or Conservation Areas can help in terms of--
obviously, your bottom line is hard relief.
    Mr. Hansen. I think it's a little sad that the two 
gentlemen from Minnesota and New York--I know you are very 
busy, as we all are, but you've missed some great testimony 
explaining many of the questions that you've brought up from 
this panel and also from Senator Bennett and Senator Dmitrich.
    Let me point out, this is a very unique approach. This is 
one that will take you to an historic area, a legendary area, 
and turn it in to a way to handle this for its best protection.
    Questions come up by many of you as to how many acres we 
are putting in this. Let me point out, if you take wilderness, 
semi-primitive, bighorn sheep, ACEC, and other areas under 
protection, this H.R. 3625 comes to a total of 987,651 acres. 
Compare that to BLM's WSA, some 497,940, or what BLM 
recommended. What they recommended at one time that we do was 
473,000. Now take H.R. 1500, that our former friend from Utah 
will be talking about, of 1,173,494. So they're very 
comparable, and the issue would be something they call Sid's 
Mountain--Sid's Mountain in this area where wisely I think 
these folks are trying to determine a way to propagate the 
bighorn sheep.
    So I can't imagine anyone saying, because no one really 
here can give us a good definition of wilderness anyway, why 
wilderness is more important when you are taking an area, 
making it kind of a quasi-wilderness and turning it into 
something where there would be areas for bighorn sheep which 
would require sometimes an entrance or helicopters and what 
these folks call ``guzzlers,'' which is kind of an evaporation 
process, so they can have some water.
    Mr. Vento. Well, Mr. Chairman, I didn't even mention the 
size of the wilderness. I was just talking about the management 
structure----
    Mr. Hansen. Surely. I understand.
    Mr. Vento. [continuing] proposed and how much land there 
was. Obviously, we can disagree about how much ought to be 
declared wilderness or the definition of the wilderness, but 
the issue is whether or not--you know, how it was going to 
managed is obviously important.
    The point is we are taking a million acres and taking the 
Federal Government completely out of the management of it, and 
the guidance is going to be completely the legislation. It 
becomes very important. In fact, you have hard release. You 
have other factors involved. I guess I did mention them, that 
tangentially are referred to it as wilderness, but six out of 
the eight wilderness areas designated by the bill have less 
acreage than was included in your initial bill, as an example.
    So there are some changes, and obviously, I understand that 
this mix--I am willing to look at mix in terms of conservation 
areas. It's a way to an end, but the question is, where do we--
you know, I think in terms of how it's going to be managed and 
whether or not there will be future opportunities to readdress 
the question. I understand you want some certainty.
    Mr. Hansen. I appreciate the gentleman's comment. I'll 
recognize myself for 5 minutes now.
    Mr. Vento. Well, that's all I have----
    Mr. Hansen. Let me, if you'll give me 5 minutes, let me 
point out that I think the gentleman from Minnesota said it 
correctly. It is a mix. What we are talking about here is a 
very creative, innovative mix. That's what we are looking at 
and how we can come up with these things.
    I think all of the issues that were raised by Director Shea 
and others are pretty legitimate issues. I would like to 
respond some of them, if I may.
    Director Shea pointed out the idea that this doesn't really 
follow the wilderness criteria for the 1964 Act. With my friend 
from Minnesota, we've labored through many wilderness Acts, and 
I don't mean to put the Director on the spot, but I really 
don't think you can name a single wilderness area that we've 
worked on that doesn't deviate from the 1964 Act. As you aptly 
pointed out, Congress has the prerogative to make those 
changes.
    Go to the California Desert Protection Act, which is 
probably the single biggest wilderness in the Lower 48 since 
the Utah 1984 Act, both of those deviated. The one we did on 
the Arizona strip deviated. The one we did in Wyoming that Dick 
Cheney carried, that deviated. They all deviate because I don't 
how we can practically make it that we don't see a deviation.
    Director Shea pointed out that the boards were not 
represented. I would like to point out that we've done that all 
over America. Every Park Service I've worked with, and as you 
know I work with all 374 units of the Park Service; every one 
of them deviates somewhere, and every one of them has an 
advisory council.
    So, my friend from Minnesota pointed out that this one 
would be handled entirely by the local folks. It doesn't have 
to be that way. That's not set in stone. I think, and I agree 
with you, we could change that around. We could put SUWA, the 
Sierra Club, and the Cattlemen's Association on them, for all I 
care. We would come up with an advisory council that could 
work. I don't see where we'd have any problems with that.
    The other issue that Director Shea brought up, if I may 
look to an answer we've come up to, is the concern about 
applying a Heritage Area concept to public lands. I don't know 
if that's accurate. First, there is currently operating a 
Heritage Area in the Four Corners area. Although not federally 
recognized, it does cover almost exclusively public lands and 
the local governments from four states that help manage the 
Heritage Area, and they do a great job.
    Moreover, we currently have 13 federally recognized 
Heritage Areas in this country, and all of them involved the 
participation of the Department of Interior and are structured 
almost identically to what these men right here came up with--
almost identically. So I thought, when I first looked at this, 
that these county commissioners, Senator Dmitrich, and the 
people that worked on this had followed that as their skeleton. 
Maybe they fleshed it out a little differently, but it looked 
to me like they followed it identically.
    So I have a hard time buying that idea--the local and State 
government could do a great job on their own. Now they're kind 
of just reaching to BLM for a viewpoint.
    To say that there wasn't participation in this thing, I 
mean quite a few months ago these men asked me to sit down 
there in Ruby's Inn and look at this. I understand they gave 
the same thing to some of our environmental groups.
    As my friend from the third district points out, a lot of 
these groups have elected not to participate. Over my 18 years 
in Congress, most of them would. In 1984 they did, but since 
that time, and Mr. Cannon has pointed out, some have agreed 
they don't want to participate. In fact, here, as it says right 
here in one of these groups, ``while one advocacy group steers 
clear of consensus efforts.''
    I would ask that this be included in the record. Any 
objections? So ordered. Thank you.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. And this is a plan of how to get people out of 
the area and direct them.
    Also, on the order of 2477 roads, I don't see where this 
circumvents this at all. These are called minor roads for a 
reason, and they purposefully avoid RS 2477 fights. The 
assertion that was in the testimony, I can't go along with 
that.
    If the administration will not support any wilderness 
designation that includes roads and wilderness areas--well, I 
won't go into that because I see my time is going to end in a 
hurry, and I know you folks have some other questions.
    But I would like to, with your permission, Director Shea, I 
would like to give you some questions to followup on this, if I 
could, and I would appreciate a response as rapidly as we 
could, because my friend from New York is right, we would like 
to move this legislation.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. It's not as if we did this in the dead of the 
night, I mean this is kind of a repeat of what we've done for 
years and years around here. You can pick up on the 1984 
wilderness bill, the 1.4 that the legislature of the State of 
Utah came up with, the 2.1 that Enid Green Waldhotz, or Green 
now, came up with the other pieces of legislation.
    This is a kind of a repeat of those, but an extremely 
creative idea that is brought about by the people from the area 
of Carbon and Emery, and I have looked at a lot of pieces of 
legislation in my years here. I have rarely seen one as 
creative or as interesting as taking this compilation of a lot 
of ideas, putting it together to protect the land and this 
truly does and is extremely close to the wildest, most extreme 
position in protection. This one comes as close as any that I 
have seen.
    We have asked for another round, and the gentleman from 
American Samoa is recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Again, I would like to offer my personal welcome to 
Governor Leavitt for his presence and certainly for his insight 
and some of the helpful suggestions that he has offered, 
hopefully, to find some solutions to some of the difficulties 
that we have with the proposed bill.
    Since we've been talking about lunches and dinners and 
yogurts and ice cream, I like both yogurt and ice cream, except 
when you eat too much, you get sick. I think I was struck by 
Governor Leavitt's earlier suggestion that we find the concept; 
and I think, Mr. Shea, you've indicated that you support the 
concept of an incremental approach to this problem that has 
been there for years and years and years.
    And I wanted to ask Mr. Shea: What would be the 
administration's position if you were to go through--and, 
again, I noticed in your statement, you support the concept 
that the proposed bill has given--what would be some of the 
areas--perhaps incrementally--and maybe we don't find a whole 
loaf or a half a loaf or a third of a loaf--but get something 
moving so that we could all agree upon and get it passed? 
Rather than trying to ask for the whole loaf, can we work 
something that is digestible or feasible for both, especially 
for these members on this side of the aisle and certainly for 
the administration?
    And I wonder if we are working on some kind of a deadline, 
that we really, truly make a sincere effort to go though some 
of these areas, that perhaps our friends from the 
administration could give some constructive suggestions on how 
we can move this legislation forward, and certainly with the 
consensual approval or support from this side of the aisle.
    Mr. Shea. No, I certainly think, and the chairman and I 
have had a number of conversations where the incremental 
approach has been a focus of those conversations. I think 
Congressman Vento's question, however, about the level of 
analysis that we've been able to do is a very valid one.
    And just to go back to Congressman Cannon's point that he 
likes ice cream but doesn't like yogurt, I, like you, like 
both, but I think we need to have enough analysis to really be 
able to say, ``Is this ice cream or is this yogurt or it some 
new blend?,'' and not to say that a new blend wouldn't work.
    I mean the chairman was very correct, that every time this 
Committee has gone through a wilderness proposal there has been 
a specific recognition of how it was going to be at variance 
with past legislation on the wilderness question. I am simply 
suggesting in its present form there is not the clear-cut 
recognition of how this is varying from those other wilderness 
proposals.
    Mr. Faleomavaega. And I want to thank the chairman 
certainly for his initiative in inviting our appropriate 
leaders from the local areas, not only the residents and 
constituencies who are directly affected by the proposed bill, 
but we certainly appreciate their testimonies this morning.
    And now after hearing from you, Mr. Shea, I sincerely hope 
that we do make a mix on this and that we do seriously apply 
Governor Leavitt's offered suggestion that perhaps by 
incremental approach that maybe we can resolve some of these 
problems.
    Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman. The gentleman from Utah, 
Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    I want also to thank the Governor for being here. And, in 
fact, if I could just take a moment to sort of indicate some of 
the origins for some of the ideas here--I mentioned earlier the 
county commissioner has done a great deal of work on this, but 
the Governor, of course, came up with the idea of an 
incremental approach, an approach to see if we could find areas 
where we agree, and that was the father in many ways of this 
idea.
    In addition, Mr. Hinchey, I want to thank you for your work 
on the National Heritage Areas because I think that's an 
important element that we're trying to build into this process 
as well.
    And I think I would be remiss if I didn't point out that my 
predecessor, Bill Horton, was a large--a big proponent, a very 
articulate proponent of National Conservation Areas. Take all 
of those ideas together and we've sort of built to get to the 
point where we are right now.
    Going back to the questions, we were talking about the 
outreach that we've done. I'd like to point out that I spent 
time speaking with Ted Wilson about this project. Ted is a 
member of the board of directors of the Southern Utah 
Wilderness Alliance. I have spoken with people from the Sierra 
Club and a large group of people from the Sun-Utah Coalition, 
who visited me in my office, about how important this process 
was and how they should get involved. So I know that we've had 
other conversations; those are just some that come to mind. 
We've done some serious outreach.
    Perhaps the county commissioners would be so kind as to 
discuss how they have reached out to draw in members of various 
groups into this discussion.
    Mr. Johnson. Well, Congressman, one of the, shall I say, 
scariest aspects of getting this bill into this process has 
been that we in Emery County felt that we needed to introduce 
the concept and then build it from the ground up, and what that 
means is that we've taken a considerable amount of criticism 
because when we start talking with people about it, they say, 
``Well, you haven't mentioned this, and you haven't recognized 
that, and you haven't done this,'' but the point is we didn't 
want to do that all by ourselves in some little room.
    We wanted to come up with the concept and put it out and 
draw groups into the process and build as we go, and that's 
exactly what we are still doing. We started by introducing this 
concept to the Governor and to our delegation members, and then 
branched out to the managing agencies of the area. We have gone 
around to cities and communities and water companies, and we 
have had an open and active invitation to all the environmental 
groups to join us at the table and help us literally construct 
this bill as we went along from the ground up.
    And we are still in the process. I am a little 
uncomfortable with what has been said here about the management 
of it. I think it's clear that we want the Federal agencies to 
continue to manage these lands as they do now, but under the 
umbrella of this bill, and our boards that we are suggesting 
would be advisory boards in which the locals simply have a 
voice in defining the management, not in controlling the 
management of those areas.
    So the point is that we have invited and been open to 
having every conceivable stakeholder take a part in putting 
this puzzle together, and we still remain that way.
    Mr. Cannon. Have you reached out particularly to the 
Southern Utah Wilderness Alliance, the Sierra Club, and other 
groups like that?
    Mr. Johnson. We have, sir.
    Mr. Cannon. Can you give us just a little discussion of how 
you have done that?
    Mr. Johnson. We made specific invitations to the Southern 
Utah Wilderness Association, which, you know, basically at the 
time encompassed most of the groups that dealt in southern Utah 
lands. We have had conversations since then with specifically 
Sierra Club, as well as the Grand Canyon Trust and other 
agencies that we felt would have an interest in those lands, 
and have made specific invitations to join us in the process.
    Mr. Cannon. Thank you. Pat, you want to say something?
    Mr. Shea. Yes, I think there's a great solution here that 
Senator Dmitrich could support--is have Ted Wilson, who is 
running for the State Senate, get elected and then we can have 
another known Democrat help the Emery County people come up 
with a proposal that will work.
    Mr. Cannon. Who is Ted running against? I am debating here 
whether we could pitch in support if you'll make him the 
spokesman for the environmental consortia that----
    Mr. Shea. Well, he certainly has one of the best records 
and I think would bring a lot, and frankly, that's one of the 
things we are talking about, is getting people like Ted 
involved in this process in a more direct way.
    Mr. Johnson. We specifically asked Mr. Wilson on many 
occasions to join us, and he has expressed a considerable 
amount of interest in this process.
    Mr. Cannon. Just two quick things: You mentioned a news 
article with some constitutional questions. Could you have 
someone put together that in a memo, so that we can integrate 
that, those concerns into the bill?
    Mr. Shea. Certainly.
    Mr. Cannon. And second, one of the things that I'd 
appreciate is, if you would take a look at the map or have your 
people do that and identify those minor roads which you don't 
feel arrive at even that level, we'd appreciate being able to 
look at those in particular as well.
    Mr. Shea. We certainly will do that, and I would like, and 
have been asking the staff to get prepared, to have some 
Memorandum of Understanding with Emery and Carbon County to do 
a more systematic survey of the Heritage Areas because I think 
many of these would qualify, and there may be some additional 
ones.
    Mr. Hansen. The gentleman's time is up. We've got two other 
panels to go, so I am going to hold my two colleagues to 5 
minutes, if you would, please, and then we'll move to the next 
panel. The gentleman from New York, Mr. Hinchey.
    Mr. Hinchey. I'll be very, very brief. I just want to say 
again that I very much appreciate the constructive atmosphere 
in which this legislation is being proposed. I think it offers 
an opportunity for us to look at this area again very, very 
carefully and closely.
    My basic opposition, my basic concern about this particular 
issue is simply this: Beyond its creativity, beyond the use of 
Heritage Areas and beyond the constructive spirit in which I 
think it is offered, my concern is simply this: that if this 
bill were enacted, there would be 140,000 acres which are now 
in Wilderness Study Areas which would no longer be afforded 
that kind of protection.
    I think that the area covered by this legislation contains 
within it large sections which ought to be designated as 
wilderness, and in that sense I think the legislation falls far 
short.
    Mr. Hansen. Thank you. The gentleman from Minnesota is 
recognized for 5 minutes.
    Mr. Vento. Thanks, Mr. Chairman.
    It's fine to--and in looking at this, obviously, in the 
wilderness areas that are designated not to--obviously, 
recognizing there's a different mixture of wilderness and 
national conservation and the Heritage Area designation, one of 
the things that obviously is a little confusing is that you've 
got stacked on top of one another, on top of national land, I 
might say, different designations, and I deal with that all the 
time.
    That obviously means that we're talking about in each case 
different pancakes in this stack in terms of how it affects 
what happens with the management of the land in this instance. 
And I haven't looked at this as thoroughly, obviously, and 
studied it as carefully as I should, I admit, but in terms of 
the wilderness, you've carried over all of the many limitations 
which are unusual.
    And I mean, I grant you that in each wilderness action that 
we've done, a statewide wilderness plan for Wyoming or for the 
Forest Service in Utah, for that matter, we've had differences, 
but you have a long list of changes here that engender 
problems, including the county land de-classification to RS 
2477-like protection. Anyway, it engenders that whole issue.
    And I would just suggest that if you want to solve a 
problem, the best way is to try to not solve all of them. You 
want to deal with the issue. Don't try and solve all of these 
problems in wilderness in this particular issue--besides the 
hard and soft language or whatever unique language you have 
here.
    As I look down the list, there are quite a few in terms 
of--some are less controversial than others to be sure--but, 
you know, just like the mandated Federal purchase of land, I am 
not objecting to that so much. I think I could, but, I mean, 
some of the others in terms of including language on grazing 
when it isn't really necessary, I don't that there's any risk 
to this.
    You know, are you concerned about communication towers in 
wilderness? I mean, I think you go through all of this list 
because I think that complicates the matters. Now, on the 
various--you know, you referred to this as advisory in terms of 
the Heritage Area group, and it is up to the Secretary to put 
them in. This management entity is given a lot of 
responsibility, and in fact, of course, they have to come up 
with some of their own local money.
    And, you know, I think looking at what the makeup of that 
is in terms of the plan, there should be a greater 
representation, because this is national land, of the public 
land managers on it. Whether we could come up with a model here 
for looking at something in the West for a Heritage Area--I 
mean, we didn't have to do it in Cache La Podre, as was pointed 
out here.
    That Heritage Area went--because it was a lot of private 
land and public or State land involved in it, so it's a 
different type of entity, but we might want to be looking at 
the makeup of that and whatever other special areas in terms 
of, you know, it's fine to have the bighorn sheep area, but I 
don't know what the effect of the bighorn sheep in terms of 
trying to propagate that many in that area would be. But I 
think we certainly would be willing to--I would be willing to 
look at it, work on it, and try to come to some conclusion that 
would accomplish your goal.
    But, in any case, with that said, I just want to point out 
the reason that you were talking about wilderness and talking 
about the other issues is because this bill touches on and 
engenders a lot of new proposals in terms of Conservation Area, 
Heritage Area, wilderness, and other requirements. And I think 
if you want to make--I think we've got to make the bill a 
little less controversial and follow more broadly the 
Wilderness Act with regards to wilderness areas.
    So, that being said, Mr. Chairman, I understand that you 
want to move along, and so I would yield back the time or yield 
my time, if you want the time.
    Mr. Hansen. Well, I thank the gentleman from Minnesota.
    Just let me say this on conclusion: I would hope that the 
folks, especially members of the Committee, would take it upon 
yourself to travel to this area. I think you will find this is 
probably one of the most unique areas I've ever encountered, as 
I have gone around the United States looking at these areas.
    The gentleman from New York brings up a very interesting 
concept. Does it really fit? We're taking away some Wilderness 
Study Areas. Basically, we are really not. If you look at it, I 
think if you'd go out on the ground, you'd see that some of 
these would be semi-primitive areas. Some of these would be 
used for areas where they would probably have as much 
protection as a National Park has, which I think would be quite 
a unique thing.
    Also, this is an area of history that's unbelievable. I 
mean, there's old mines on there. There's--well, Butch Cassidy 
probably shot it out with a few U.S. Marshals in that area. 
It's hard when you're talking Heritage Areas to say they all 
fit. That's why a Heritage Area is a Heritage Area.
    One of them was so unique that something happened on the 
East Coast during the West--so I think before we freeze 
ourselves into cement on this by any means, it would be well 
for this Committee to take a weekend and come out and look at 
it, spend some time on it, see why we want to make Sid's 
Mountain an area for sheep. Let's keep an open mind on this. I 
think if we'd go, we'd do very well.
    I appreciate so much the commissioners, Senator Dmitrich, 
Director Shea coming here. It's been very interesting and 
provocative testimony. I appreciate your being here. We'll 
excuse you at this time. We welcome you to stay and listen to 
the rest of the testimony that will be brought up in this 
hearing. Thank you so much.
    Mr. Wilson. Mr. Chairman, may I just say one comment here? 
Mr. Chairman?
    Mr. Hansen. Excuse me. Commissioner Wilson.
    Mr. Wilson. I would at this time just like to extend an 
invitation to you and your Committee members to come to Emery 
County. We would be very happy to host you on a tour of the San 
Rafael Swell and any areas, heritage sites, and so on, that you 
might find of interest. We would love to have you come.
    Mr. Hansen. We'll probably take you up on that invitation 
and appreciate your kindness and generosity. Thank you so much.
    Our next panel would be Wilson Martin, program manager, 
Utah Department of Community and Economic Development, and 
Donald Keith Peay, Utah Chapter of the Foundation for North 
American Wild Sheep.
    I want to tell you that Mr. Peay is truly an expert on wild 
sheep, and this will give you some good insight on what we are 
talking about.
    Mr. Peay, we'll turn to you and this man has put in 
literally hundreds of hours in propagation of wild sheep and 
other wildlife. So we'll turn the time to you, sir.

STATEMENT OF DONALD KEITH PEAY, UTAH CHAPTER OF THE FOUNDATION 
                 FOR NORTH AMERICAN WILD SHEEP

    Mr. Peay. I appreciate the chance to speak before this 
Committee. I am not a biologist. I am an engineer by training 
and degree, but I have spent the last 10 years of my life 
involved in wildlife preservation. I would also say, just as 
Congressman Vento knows, that money from wild sheep advocates 
in Minnesota and the East Coast and New York have also 
contributed to our efforts in the San Rafael.
    I have a written testimony which has been submitted. I am 
going to deviate from that because a lot of the issues have 
been covered. I specifically want to talk a little bit about 
bighorn sheep, since that seems to be a focus, and some of the 
technical details about management and propagation of those 
species.
    I may just add that it seems like the 1964 Wilderness Act 
concept predates ecosystem management, and we found in the West 
with wildlife populations that you may set wilderness in one 
area where the animals live in the summer, but if you didn't 
protect where they go in the winter, it didn't do any good. 
Yellowstone and the bison issue is a classic example of some of 
the shortcomings of the 1964 Wilderness Act or National Park 
Act or any other Act.
    And that's why we as wildlife advocates are so enthused 
about this concept which we think is ecosystem management for 
bighorn sheep in the San Rafael. It encompasses the winter 
range, the summer range, and all the management attributes 
required.
    Just briefly, our organization has spent over 300,000 
private dollars and restrained bighorn to this area. There were 
conflicts with ranching interests. We worked those out in a 
win-win fashion. And I want to just state that the use of 
helicopters, water development, and other management tools is 
the reason why these species exist.
    They were extirpated by 1950. Their first reintroduction 
took place in 1979. By 1991, the herds have done so well with 
the current management and process that the San Rafael is now a 
court area where they can use bighorn to reintroduce into other 
indigenous parts of the State of Utah.
    I would also like to point out--I was reading an article in 
the San Diego Tribune recently where in California they'd taken 
a completely no hands-on management by man, and because of that 
approach, they are going to have to list bighorn as threatened 
and endangered species in California.
    Having said that, I think that's why this area, this 
concept, this proposal of the National Heritage Area is so 
important, is because it allows for management tools to 
preserve what most people consider the indicator species for 
wilderness: bighorn sheep.
    I would also just like to touch briefly that on our local 
TV station there is a report just on April the 14th that the 
Washington, DC-based conservation groups were saying that, 
``wildlife populations were being devastated by congressional 
cutbacks.''
    I'd prepared in the record two maps, prepared by 
professional wildlife biologists in Utah, that show sheep 
populations in Utah 1972 versus 1997. They're infinitely more 
abundant, more dispersed in different areas. So I would suggest 
that some people out in DC come out West and find out the true 
facts, not only on Bighorns, but elk, antelope, bear, cougar, 
hawks, eagles, mountain goats, and many other species.
    Let me just emphasize to the Committee: Having personally 
been involved in the restoration of bighorn along the 
Desolation Canyon Area in 1994 and 1995, we used helicopters. 
We touched down on the ground for a matter of 5 minutes to 
release the Rocky Mountain bighorns into this area. Had we not 
been able to use helicopters, it would have been a 2-day horse 
ride, and how do you transport bighorn sheep for two days on 
horseback?
    So, once again, the use of helicopters is critical. There 
are water developments in this Elliott Mountain Bighorn Area 
that the BLM has already been involved with us in installing, 
and we need to continue to have these if, in fact, the American 
people want to have bighorn sheep as part of the San Rafael 
National Heritage Area.
    In summary, I would just like to say, to the American 
people, that we out West are committed to preserving wild 
places and wild things, and we think this is a great way to do 
it, through this Act. Thank you.
    [The prepared statement of Mr. Peay may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Peay.
    Mr. Martin, we will recognize you for 5 minutes, sir.

STATEMENT OF WILSON MARTIN, PROGRAM MANAGER, UTAH DEPARTMENT OF 
               COMMUNITY AND ECONOMIC DEVELOPMENT

    Mr. Martin. Yes, Mr. Chairman. It's good to be here. I 
wanted to present to you a poster. We in Utah, of course, value 
our history and heritage, and History and Heritage Week is 
coming up May 2 through May 9. And we have a poster for you and 
other members of the Committee, and we are really proud of our 
history and heritage. We have a poster competition among school 
kids and also professionals every year that demonstrate our 
interests.
    Mr. Chairman, I also serve as a founding member of the Four 
Corners Heritage Council and also deputy State historic 
preservation officer for the State of Utah. Some two years ago, 
I met with this Committee regarding some changes in the 
National Historic Preservation Act regarding the Advisory 
Council on Historic Preservation.
    We had some discussion similar to this, and I have 
submitted my testimony. I am going to deviate a little bit from 
it. We had some discussion much like this about compromises and 
finding new ground. And Mr. Chairman, this Committee led, I 
think, a very good discussion in finding new ground and 
compromising, using new tools, and we found some streamlining 
in the new Advisory Council regulations which are about to be 
enacted.
    In that testimony two years ago I talked about the need in 
Utah to develop Heritage Areas, and in that discussion I talked 
about the Four Corners Heritage Council and also the Sanpete 
Regional Heritage Tourism Council, both State initiatives that 
partner with Federal agencies.
    Now I am here to talk about the San Rafael Western Heritage 
Area. This area has some of the most important historic and 
archeological resources in the Nation. There are hundreds of 
sites that are either listed as eligible for the National 
Register that have already been identified. In a town of Helper 
alone 50 national register sites are already on the National 
Register. Those sites are part of the history of that railroad 
industry and also the mining history of that community.
    We also have the Hiawatha and Kenilworth and Scofield and 
Sunnyside. All have historic sites listed on the National 
Register as historic places. Price has numerous historic 
buildings listed on the National Register.
    So it also includes private land and public land in a 
National Heritage Area designation. There is Nine Mile Canyon 
which has pioneer homesteads, rock art sites, an old town site 
of Harper, Flying Diamond Ranch in the area. We have Buckhorn 
Wash Rock Art site listed on the National Register of Historic 
Places--Temple Mountain Wash, Black Dragon Canyon pictographs, 
all listed.
    The National Register also includes sites further out in 
the community, both on the National Register in Federal lands 
and also on private lands. There is not only historic and 
archeological sites, but there are organizational structures 
that are in the area already to help support this National 
Heritage designation. Three certified local governments, 
certified under the National Park Service Preservation Act, are 
currently in place. One Main Street town is also in place in 
the town of Helper.
    The Castle Country Travel Council has also been a long-term 
supporter of the heritage of this region. The College of 
Eastern Utah has supported the Heritage Region concept through 
the expansion of their museum. The San Rafael Swell has the 
resources, the people, and the organizations for the 
development of a heritage area management plan which could 
assist in conserving this important Heritage Area establish and 
maintain interpretive exhibits, develop recreational 
opportunities and increased public awareness and appreciation 
of the natural, historic, and cultural resources of this 
region.
    Not only that, but the economic development, the key 
outcome can be realized. This Heritage Area, developed in 
partnership with business, local, State and Federal partners, 
has an excellent opportunity for success; most importantly, as 
a partnership for economic development which has at its core 
the sustaining of the heritage that will feed it.
    We in Utah call this the development of a heritage 
industry, a partnership between private and public sector to 
achieve the economic success through the preservation of our 
heritage. We strongly support the proposed legislation to 
create the San Rafael Western Heritage Area. Heritage Areas 
protect the resources as well as enhance those resources for 
the visitor.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Martin may be found at end 
of hearing.]
    Mr. Hansen. Thank you. I appreciate the excellent testimony 
from both of you.
    Before we proceed, the gentleman from New York has 
mentioned that our former colleague, Wayne Owens, has a plane 
to catch. Wayne, why don't you come up and we'll take your 
testimony now so we don't hold you up.

  STATEMENT OF HON. WAYNE OWENS, PRESIDENT, CENTER FOR MIDDLE 
 EAST PEACE, TESTIFYING ON BEHALF OF SOUTHERN UTAH WILDERNESS 
                            ALLIANCE

    Mr. Owens. Thank you very much, Mr. Chairman. It's even 
less important than an airplane, it is a meeting with members 
of the other body which presses me. Not that significant when 
you are sitting over here, of course.
    I appreciate this opportunity. I want to clarify for the 
record that Director Shea and I had lunch together two weeks 
ago in a favorite French restaurant and resolved to go on diets 
and, hence, his preoccupation this morning with the difference 
between yogurt and ice cream, just for the Committee's 
information.
    It's a pleasure to join you this morning. My interest in 
wilderness goes back many years to the time when I used to run 
cows down the Escalante. I grew up in that wild country around 
Panguitch and fell in love with those Red Mountains. And even 
when I was chasing wild cows in the summer, and you couldn't 
find any water to drink except putrid water, and in the winter 
when you had to melt it down, and it was freezing, I could 
never lose the love that I had acquired for those beautiful red 
rocks. And though I cursed the cows periodically, I never 
cursed the mountains.
    I was not like Ebenezer Bryce, the old Utah cattleman who 
ran sheep and cows in that country which now bears his name as 
a National Park. When he was told by visitors who praised the 
beautiful place in which he had to run his cows, he often 
replied that he was not so impressed by the beauty as he was by 
the fact that it was ``one hell of a place to lose a cow.'' But 
I think it's the mountains that are important and the red 
rocks.
    This is a tough issue, as Director Shea has spoken of, in 
the temperament in southern Utah, this place from which I come. 
I have found over the years that it's very difficult to talk 
about the issues of wilderness in peace and with 
straightforward discussion about these issues. Support for 
wilderness in that area is not only very sparse but supporters 
are often accused of having improper family backgrounds, 
illegitimacy in your family background. This is a very, very 
tough issue in this special place.
    When I sat on the other side of this dais with you, 9 years 
ago, Mr. Chairman, I introduced H.R. 1500 for the first time, 
because of this great love that I have for these red rocks and 
for my belief that their highest and greatest value in most 
instances is to preserve them for future generations. I wanted 
to protect them when I came into the opportunity of service on 
behalf of the State, and hence, it became a major 
preoccupation. And I want to say how much I appreciate the 
gentleman from New York, Mr. Hinchey, for carrying on by 
introducing that legislation and forcing a discussion of those 
important issues on a periodic basis.
    And so I am here today to respectfully speak against H.R. 
3625, and I do so for the same reasons that I spoke against and 
worked against the Utah delegation's wilderness bill in the 
last Congress. Like that bill, H.R. 3625 is not a wilderness 
preservation bill; it is a wilderness development bill.
    From the point of view of one of those who believe that 
most of this land's highest value, most of this wilderness' 
value--highest and best use--in every sense of that term, 
including economic--is its preservation in wilderness, this is 
simply a bad bill. It eliminates from protection over 140,000 
acres of Wilderness Study Area in Emery and Carbon County, 
areas that have been protected for two decades against man's 
exploitation, and it eliminates from consideration over 650,000 
acres of wilderness which H.R. 1500 seeks to preserve.
    It dignifies with legal protection RS 2477 rights-of-way, 
calling them roads, and thereby permitting local development in 
some of the most pristine areas. So I can say that, yes, it 
designates some wilderness, but at the same time it creates 
serious management problems. I submit for the record, if I 
might, Mr. Chairman, a detailed explanation of how I think, in 
specificity, that the bill is very detrimental to the national 
and the State interests.
    Other than that, I don't have any strong feelings, Mr. 
Chairman.
    [Laughter.]
    I would be happy to try to respond to questions.
    May I also say for the record that I represent also the 
Sierra Club or, as some folks down in our country say, Mr. 
Chairman, ``the Sahara Club,'' today in my testimony, as well 
as the Southern Utah Wilderness Alliance, on whose board I 
serve.
    [The prepared statement of Mr. Owens may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much.
    The gentleman from American Samoa, questions for this 
panel?
    Mr. Faleomavaega. Mr. Chairman, I don't have any questions. 
I wanted to thank the members of the panel and certainly offer 
my personal welcome to our former colleague, Congressman Wayne 
Owens, for his appearance and providing us with his testimony 
on this legislation. Thank you.
    Mr. Hansen. The gentleman from Utah.
    Mr. Cannon. Thank you very much, Mr. Chairman.
    Let me just begin by thanking the members of the panel for 
your great testimony, and you, Don, for your incredible work in 
preserving bighorn sheep in Utah and elsewhere.
    Mr. Owens, I think you were here when I read a quote to 
Director Shea about an ad that SUWA ran on May 30, 1994 in the 
High Country News talking about SUWA's unwillingness to 
negotiate. SUWA steers clear of consensus. The ad encourages 
the use of the lawsuits over consensus-building with the 
advisory committees; yet, even states that, ``if this allows 
our critics to label us as extremists, then we are 
extremists.''
    Is it still the position of SUWA to not enter into 
deliberations that might lead to consensus or agreements?
    Mr. Owens. I think, Mr. Cannon, you and I had a 
conversation yesterday and agreed to have lunch--for the 
benefit of the chairman of the Ethics Committee, each paying 
his own way--to discuss these issues, and I am delighted to 
visit with you about them.
    I think there are several reasons that it is very difficult 
for an advocacy organization like the Southern Utah Wilderness 
Alliance to enter into these kinds of negotiations. To begin 
with, the decisionmakers are all basically of one view, and 
it's about as adverse from that of the goals of the Southern 
Utah Wilderness as it can be.
    Secondly, Mr. Scott Groene, our issues director, did, I 
think, make some genuine efforts to discuss these issues. He 
used to be my administrative assistant, and is very familiar 
with the legislative process here, and found that the concepts 
simply were very different than any that we could in any sense 
feel conscientious about or considered appropriate, and he 
simply found no willingness to talk about true preservation of 
wilderness.
    The third point is that, when you look at your map and as 
you read your bill you see how much real wilderness is released 
for development and how even the small areas which are 
preserved under the title ``wilderness,'' as the gentleman from 
Minnesota spelled out so well, are not preserved as wilderness 
in fact. Many are crossed with so many RS 2477 ``ways'', which 
the bill calls ``roads,'' that even the small areas of 
designated wilderness are not preserved as such. Turning over 
control of much of the management of those areas to local 
consumptive users--that doesn't give us a lot of confidence 
that you really want to preserve any as wilderness, to be 
honest with you.
    But I am happy--though I don't do it officially, I am only 
a member of the board--I welcome the opportunity which you 
offered me yesterday to visit about it.
    Mr. Cannon. Thank you. I should point out, though, we have 
some sharp disagreements here. I would hope you would consider 
our relationship one of friendship. You educated me in the 
process that we are now involved in here, frankly, back in law 
school.
    So I appreciate that and the history of that, but the 
distinction is sharp, and I guess what I have heard you just 
say is that basically there is no interest on the part of SUWA 
of coming off the clear, clean concept of a large amount of the 
wilderness, even though I think there's some compelling reasons 
to do that--for instance, either the RS 2477 rights-of-way 
exist or they don't, and in this plan it seems to me that we're 
dealing with those with some clarity and some openness rather 
than the very difficult, complicated, legalistic way that we've 
been treating them in the past, and we do it in a way that 
allows people access to some of the areas that I think are 
beautiful, wonderful, breath-taking.
    It's interesting that we can come from the same experience, 
although I did not run cattle in that area. We did sort of grow 
up in the same general area to some degree and did not, again, 
suffer those hardships. We come to a very different conclusion 
about how that area should be used.
    Is it not a matter of concern to the Southern Utah 
Wilderness Alliance that those RS 2477 right-of-ways may 
ultimately be proved to be real right-of-ways, giving the 
counties what I think are terrific defenses against the 
relatively extreme position of purely wilderness at 5.7 or more 
million acres?
    Mr. Owens. We are fighting those issues, dealing with RS 
2477 rights-of-ways and roads, and are very much concerned 
about the implications of that fight. We just don't think you 
deal with them very well in this legislation, with, of course, 
all respect.
    Mr. Cannon. Mr. Chairman, may I ask unanimous consent for 
just another couple of minutes, and I think I can finish up?
    Mr. Hansen. It is recognized. Is there an objection? 
Hearing none, two more minutes.
    Mr. Cannon. I thank you. I will only have two more 
questions.
    Let me just ask one about the Wilderness Study Areas first 
and get your view on that and then come back to roads. When 
this debate was going on, and we established Wilderness Study 
Areas, it was sort of a covenant between the government and the 
people that this was only a study. Granted, that gave dramatic 
control or limited access to those areas pretty much. Do you 
feel like people in areas where there are Wilderness Study 
Areas need to be thinking that these things as absolutely 
permanent until you get your way or is there some way that they 
have a right maybe in future legislation to sunset the study 
areas?
    Mr. Owens. First, an indirect answer to your question and 
then a more direct: I am finding that more and more people who 
live in many of those areas are understanding or coming to 
believe that the highest and best use of that land is in its 
preservation. As so much of these beautiful red rocks, wild 
countries disappear to development, more and more of the people 
who live in that area are more and more anxious, I think, that 
more be protected.
    In direct response to your question, at some point I expect 
the Congress will deal with these issues. I don't believe they 
should be dealt with piecemeal, as your legislation proposes to 
do. I honestly think that the congressional process is such 
that we'll probably only have one real good shot at a 
wilderness bill, and it should be statewide, where you can give 
and take.
    And I do propose to support, Congressman Cannon, and you 
know I do, and Mr. Hansen knows I will support the give-and-
take in the legislative process. But it ought not to be picked 
off one piece at a time, one area at a time, where in fact 
there is very little give and almost all take.
    Mr. Hansen. Will the gentleman yield?
    Mr. Cannon. Yes.
    Mr. Hansen. Let me ask you, Mr. Owens, would you commit a 
member of SUWA's staff to work with our staff and others in 
working on this bill?
    Mr. Owens. Yes, we'll help you, Mr. Chairman.
    Mr. Hansen. We can count on----
    Mr. Owens. I am no longer Chair, as you know. I stepped 
down a couple of months ago, but I would advocate strongly that 
we do have more staff contact. I, as a board member, and Ted 
Wilson, whose name was brought up earlier, a former 
administrative assistant of mine and a former mayor of Salt 
Lake City and now vice chairman of the board, will cooperate. I 
know he feels the same way.
    Mr. Hansen. I would appreciate if you would give us a name 
of someone we can work with; we would really appreciate that.
    Mr. Owens. Owens and Wilson to begin with, but I'll also 
get a staff member to help.
    Mr. Hansen. I thank you so very much.
    Mr. Cannon. Thank you. Let me just close by saying that I 
appreciate your being here and the clarity of your position. 
It's easier to work with positions that are clear, frankly.
    We differ. I think that the incremental approach is the way 
to solve our problems and to do it in a way that truly meets, I 
think, the larger objectives that you personally have and that 
other members of the organizations you represent have.
    And so with the commitment to the chairman, I am not going 
to go any further and just say thank you at this point, and I 
appreciate your being here.
    Mr. Owens. Thank you.
    Mr. Hansen. The gentleman from New York, Mr. Hinchey, is 
recognized for 5 minutes.
    Mr. Hinchey. Thank you very much, Mr. Chairman, and I want 
to thank the members of the panel. To former member Wayne 
Owens, I want to personally express my appreciation to him for 
his introduction of H.R. 1500, for if that had not happened, it 
would not have given me the opportunity to have introduced the 
bill during my tenure here. And I very much appreciate the 
leadership you've shown and the courage that you have shown on 
this and other issues of national importance.
    And it's a pleasure to see you and to welcome you here to 
this hearing.
    Mr. Owens. Thank you.
    Mr. Hinchey. And, by the way, Mr. Chairman, I must say 
that, reflecting on this process this morning, I think that the 
hearing itself has been very helpful because it has given us an 
opportunity to reflect more deeply and to look more deeply into 
this issue and to learn more about this land from the panel 
members that we have here before us at this moment, as well as 
those who were here just a few moments ago.
    So I think that this hearing is a very good thing, and it 
broadens and deepens our knowledge, and I think for some of us 
it broadens and deepens our commitment to the land. I would 
just observe that as former Representative Owens has said, 
that, among other things, this bill releases 140,000 acres 
which are now in the study area. I think that's correct.
    And, Wayne, I think also, if I remember correctly, that 
this legislation would result in wilderness designation for 
this particular area of more than 660,000 acres less than would 
be designated under H.R. 1500.
    Mr. Owens. That's correct. I think it's 560,000 acres. 
They're areas in addition that you and I proposed for 
wilderness in H.R. 1500, and also, it releases I think 180,000 
currently being protected as wilderness study areas.
    Mr. Hansen. Will the gentleman from New York yield?
    Mr. Owens. One-hundred-and-eighty I think is the figure; 
180,000 plus 550,000. Yes, sir. One hundred and forty thousand; 
I apologize.
    Mr. Hinchey. One hundred and forty. Yes, that's what I 
thought.
    Mr. Hansen. Excuse me.
    Mr. Hinchey. One hundred and forty, nevertheless----
    Mr. Hansen. Will the gentleman from New York yield on that 
point?
    Mr. Hinchey. Yes, sir.
    Mr. Hansen. Excuse me. I apologize for asking you to yield, 
but on areas that are protected, H.R. 3625 has 987,651 acres. 
WSA's has 497,940 acres. So, I don't know where you come up 
with 140,000. If you go strictly by the definition of 
wilderness, which is extremely nebulous, I agree with your 
premise of 140,000. If you go to protected areas--ACEC, bighorn 
mountain sheep--those under NCA protection, you are actually 
doubling the protection here.
    Excuse me. I just wanted to give you my interpretation. 
Thank you.
    Mr. Hinchey. I appreciate that, Mr. Chairman, and that's an 
important distinction, but what I am saying is that, of those 
lands now in the wilderness study category, the enactment of 
this proposal would result in 143,000 acres being released from 
wilderness study; and that would mean that 143,000 acres less--
143,000 acres of land would no longer have the protection that 
is afforded to them currently in the study mode which they are 
currently in.
    And in addition to that, if I may, and Mr. Owens has just 
clarified that for me, that H.R. 1500 in the context of the 
area under discussion at the moment, H.R. 1500 would result in 
more than 660,000 acres of land being designated as wilderness, 
more than would be designated under this particular proposal.
    So I understand what you are saying, Mr. Chairman, and I 
think that that's an important point, but I think it's 
important for us to look at it from both perspectives.
    Mr. Hansen. If the gentleman will yield for just one 
moment--it's not a major difference, but our calculations only 
have it at about 90,000, not 140,000 acres difference, but your 
point is well taken about the----
    Mr. Hinchey. OK. Well, that's something that can be 
settled. We estimate it to be 143,000 precisely, and I stick 
with that number until I am corrected.
    The other area that interests me--Mr. Peay, is it?
    Mr. Peay. Yes, sir.
    Mr. Hinchey. Yes, sir. Thank you. One of the things about 
the bill that I find discomforting is that, while it talks 
about the protection of ecological areas, its designations are 
cut more along political lines than along ecological lines. In 
some instances, for example, it cuts canyons in half and 
provides one form of protection on one side and not on the 
other, and it follows political boundaries to a great extent. 
And so, therefore, I have trouble with the legislation from a 
point of view of ecological protection in that it divides 
ecological areas.
    There is also an aspect of your testimony that troubles me 
in that regard also, and that is that you're talking about an 
area that would be set aside for the protection of the bighorn 
sheep, which I think is an admirable objective. I find no 
quarrel with that whatsoever, but I find it difficult in my own 
mind to rationalize how you can have ecological concerns about 
a particular area in the context of one species.
    How do you manage an area for the protection of one species 
and one species alone, or are you offering something else?
    Mr. Peay. It isn't just for one species. There's many other 
species, but the bighorn is kind of a flagship, because I've 
been in this wilderness debate for 20 years. Bighorn sheep is 
the indicator species, and I think it's remarkable, phenomenal, 
that a rural county commission in Utah is not trying to step up 
to the plate and say, ``These are pretty neat critters. Let's 
make them the predominant specie that we'll protect.''
    These animals could be endangered at some point in time, in 
the very short future. So now we're trying to protect them, and 
then on the other hand, we are hearing a comment we shouldn't 
do that. So I can't understand why anyone would not like this 
concept.
    Mr. Hinchey. So when you're--if I may, Mr. Chairman?
    Mr. Hansen. Go ahead.
    Mr. Hinchey. So when you are offering the idea of 
protection of the bighorn sheep in a particular area, you are 
suggesting by that, that protection for the bighorn sheep would 
also be done in a way which would afford protection for all 
other species in that area as well?
    Mr. Peay. Bighorn won't be the only animal in that area. 
This whole concept, in my opinion, looks out for all the 
species that inhabit the San Rafael but good emphasis for 
bighorn.
    Mr. Hinchey. OK. Thank you very much.
    Mr. Hansen. Thank you. Let me say that from the bills, BLM 
has in WSAs in that area 497,940 acres. That's a fact. H.R. 
3625 has 407,471 acres. The difference is 90,469. Lay that 
aside, and count what is protected.
    There seems to be some of a religious Utopia here that if 
you say, ``wilderness,'' it has a certain protection, but 
nobody finds that. Wilderness is a protected area. So is 
primitive. So is ACEC. So is NCA protection. They are all 
protected areas, as are National Parks. Add all those up and 
H.R. 3625 protects more areas than WSAs by twice; of 987,651 
acres versus 497,940 or a difference of 489,711 acres or 
additional protection under this bill.
    But, I concur, it doesn't have the term ``wilderness.'' 
Primitive and wilderness--you may recall that primitive areas, 
that's what the old view in the mountains used to be. We called 
that primitive.
    Now take the definition of primitive, take the definition 
of wilderness. They're almost twins. So, I hope we don't get 
hung up on the idea of this difference. We're actually 
protecting more ground, and that's what I think we are all 
trying to do, isn't it? That's kind of the impression that I 
got.
    Now I would like to----
    Mr. Owens. Could I respond to that briefly, Mr. Chairman?
    Mr. Hansen. Surely. Excuse me.
    Mr. Owens. Nobody disputes that there are several layers of 
protection included in this bill, and much land is protected, 
but much is opened up for development, and the ultimate 
protection of wilderness is not afforded even to the 400,000 
acres that you call wilderness in this bill because it is laced 
with roads that you recognize under RS 2477 and the management 
techniques do not permit it to rise to the level of protection 
which wilderness is.
    Wilderness is a specific level of protection, undergirded 
by law and by regulation, and it says basically you are not 
going to change the nature of this land, to the extent that man 
can protect it unless Congress itself gives permission. That's 
what we are trying to do, with wilderness designation, and 
that's the status that I would like to see in a big portion of 
this. Then the rest of it, Mr. Chairman, should be preserved 
and protected, better said in the forms and natures which you 
discussed and which do permit certain degrees of development 
and use, all of which I will support where appropriate.
    Mr. Hansen. I appreciate your comments that you brought it, 
and I don't want to get into a kicking match on what wilderness 
is, except that we all know that wilderness does allow some 
motorized areas, if existing cattlemen wanted to go in. You 
know, we get into that fight all the time around here. There is 
reason to take in wilderness. This 193,723 acres of this is 
primitive, non-motorized, giving more protection than 
wilderness does.
    Other areas you really, if you want down to be cutting and 
splitting hairs, you can say the term ``wilderness'' all you 
want, but you've actually got more protection in this bill for 
ground than the wilderness bill had in WSAs. And that is an 
argument people should look at.
    Mr. Peay, who I consider the resident expert on bighorn 
sheep--and I've known Mr. Peay for a long time--the thing that 
bothers me most on this area, how much attention with motorized 
vehicles of any type would the bighorn sheep need on Sid's 
Mountain?
    Mr. Peay. In talking with the professional wildlife 
biologists who have been deeply involved in the development of 
this plan, they are very comfortable with this whole proposal.
    And I am not sure of what you are saying, but I was just in 
a board meeting with the National Wild Sheep Foundation and one 
premiere biologist said, ``We seem to have invented this 
concept of Bighorns and people can't coexist,'' and as you've 
driven to Mojave and right there by Arches there's a resident 
population of sheep that take occupancy right by the highway, 
and so the bottom line: The plan is good for bighorns, but it 
does provide a lot more protection than just H.R. 1500, in my 
opinion, for bighorn sheep management.
    Mr. Hansen. What is a guzzler that you would need to put on 
that mountain? What does that mean?
    Mr. Peay. A guzzler, there's one there toward the 
Desolation Canyon that we actually landed a helicopter as we 
transplanted the bighorn. What it is, it's a piece of naturally 
colored tin that would be as big as this area inside of the 
desk here. It's an apron that catches the rainfall, and there's 
about a 2,000-gallon storage tank beneath the ground that's not 
visible, and then there's a little metered tube that comes out 
to a little drinker that works on a float valve like your 
toilet. So as the animals come in and drink, water is released, 
and then they go back. Without guzzlers in some of these arid 
areas, wildlife cannot live or survive or propagate.
    Mr. Hansen. I have noticed all around Utah that we have 
guzzlers on the west desert, up in the area of Yost Mountains 
and the Raft River Mountains, and we have them other places. 
I'd have a hard time believing that people don't want wildlife 
to drink. This isn't only bighorn sheep that drink out of this. 
This is everything that drinks in this particular area.
    As I see it, the basic difference between what some folks 
are arguing and this is we're talking: Do we want to have 
bighorn sheep in that area? Other than that, they're almost 
treated exactly alike.
    You've said earlier that a helicopter would touch down for 
a few minutes, 5 minutes or so, on occasion. I personally 
cannot understand why people would be against wildlife. That 
kind of concerns me just a little bit. We'll have to work that 
out in any case.
    Mr. Faleomavaega. Would the chairman yield?
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. Just one quick question to Mr. Peay: You 
are the expert on bighorn sheep, and I wanted to ask: How much 
acreage will it take to provide for one bighorn sheep? I am not 
too familiar with your--I mean they live in the mountains I 
assume, but what does it take to, you know, just to let it 
grow?
    Mr. Peay. Well, the----
    Mr. Faleomavaega. You have about 6,000. Are they an 
indigent species now? Are they an endangered species now?
    Mr. Peay. Not classified as such, but in Utah in 1972 there 
were only 500 of those animals. Through management techniques 
that are provided for in this bill, there's now about 4,000 of 
these animals.
    Mr. Faleomavaega. So I know Utah is famous for a hunting 
season, but do you allow hunting of this sheep at a certain 
time or a certain number that can be hunted, like you would a 
deer?
    Mr. Peay. Very carefully regulated hunting, and just a 
quick example--a lady wrote in the Salt Lake Tribune, ``Why 
would they allow anyone to hunt bighorn in the San Rafael?'' 
and the fact of the matter is that hunting has generated about 
$500,000 to reintroduce the bighorn. Without hunters, we would 
not have bighorn sheep in Utah.
    Mr. Faleomavaega. If I were a hunter, how much would I pay 
to shoot one bighorn?
    Mr. Peay. In the San Rafael area there are 13 permits 
available to the citizens of America through a lottery draw at 
a cost of $500. However, the State does sell one to the highest 
bidder, and in Reno this year it sold for $52,000.
    Mr. Faleomavaega. Are you aware of any other form of 
animals that are considered endangered in these wilderness 
areas that you care about just as much as you are with bighorn 
sheep?
    Mr. Peay. As we say, there are plenty of animals and plenty 
of causes. We've focused $1.6 million on bighorn sheep in Utah.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from American Samoa should 
realize, let this become an endangered species and everything 
that SUWA, this Committee, and everybody else is doing is moot. 
Immediately the whole area becomes an HCP and the whole ball 
game is over anyway. So don't let it become an endangered 
species.
    Mr. Martin, let me quickly ask you something. How do you 
envision the heritage concept working, and do you agree with 
what the administration has said? You have sat here and heard 
the----
    Mr. Martin. Yes, I heard your testimony. Yes, Mr. Chairman, 
I think that the confusion of the administration is that 
Heritage Areas generally have a mix of high propensity of 
private sector, but in the West of course that's impossible.
    Our Four Corners Heritage Council is mostly Federal land, 
and we have sitting at the table the Federal partners that sit 
at the table with appointees by the Governor and the local 
appointees; and that arrangement works very well because 
there's no power taken away from the Federal agencies under 
this concept. It's really an advisory process, and that 
advisory process I think works very well.
    So I think the structure of a Heritage Area can work very 
well, even though there's a high propensity of Federal lands. 
There is a lot of private land in this Heritage Area, and that 
consultation process I think strengthens from both sides.
    A Heritage Area doesn't take away, and I think it's an 
important point, it doesn't take away the authority of the 
Federal Government, but it provides a consultation process 
which I think strengthens the management and the protection of 
the resources both on private land and on the Federal lands 
associated with the idea.
    Mr. Hansen. Thank you for that answer.
    We'll take one more question from Congressman Cannon, and 
we'll excuse this panel and get to our last panel.
    Mr. Cannon. Mr. Owens, you mentioned this area as laced 
with roads, but you are aware, of course, that there are many 
other RS 2477s rights-of-ways or claims of rights-of-ways in 
the area in which are extinguished by this process. So, there 
is some tradeoff here. Is that something that is of concern to 
you and to SUWA?
    Mr. Owens. Well, it's a great concern as near as I can tell 
from the red lines, although my reds and greens may be a little 
confused at this distance, but it appears laced with roads even 
in the areas that you call proposed wilderness, the 400,000 
acres that you call wilderness.
    And of course it's of concern that there are a lot of RS 
2477 ways which threaten the wilderness status, and I am 
willing to look at and talk with you and staff about whether 
there is a decent tradeoff here. It doesn't appear at first 
glance, Mr. Congressman, that it is a fair tradeoff. That's 
what I am commenting on.
    Mr. Hansen. The gentleman from New York has one final 
question.
    Mr. Hinchey. Well, just briefly, Mr. Chairman, I think that 
it's quite clear that the bill does afford various levels of 
protection, but I think that protection of course is a relative 
word. And there can be higher levels of protection and lower 
levels of protection, and one of the things that I am concerned 
about is the issue of roads which has just come up.
    We heard earlier testimony today which indicated that some 
roads are designated that may not be roads even. The bottom of 
stream beds are considered as roads. So protection is a 
relative thing, and I think that the introduction of roads, 
particularly where they may not even be, just opens this up for 
a lot of criticism that otherwise might not be there.
    The one thing that mystifies me about the sheep question is 
this: We are reintroducing sheep into this area, is that 
correct?
    Mr. Peay. Yes, sir.
    Mr. Hinchey. And that, of course, assumes that the sheep 
were able to live there before, and I wonder why we need these 
guzzlers now to provide water in an area where the sheep were 
able to survive before on assumably the water that was there.
    Mr. Peay. It's for distribution purposes. It's very clear 
in Nevada and other States, where they have put in guzzlers, 
wildlife populations have been able to expand to a greater 
extent than they were, say, 100 years ago.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Hinchey. Yes.
    Mr. Faleomavaega. I just wanted to followup with a question 
to Mr. Owens again. I guess I would call you ``Mr. 
Wilderness,'' since your introduction of H.R. 1500 has caused a 
lot of discussion about this.
    Mr. Owens. Please be aware that's not a good name in parts 
of Utah.
    [Laughter.]
    Mr. Faleomavaega. I say it in----
    Mr. Owens. I wear it proudly.
    Mr. Faleomavaega. I say it with the most respectful 
consideration in what you honestly believed, what you 
considered to be in the best interest of your State and your 
constituents. And I wanted to ask, in retrospect, in terms of 
the several versions that have been proposed for the past 
several years since your introduction of H.R. 1500, do you 
honestly believe that we can work something out with the 
current proposal now before the Subcommittee?
    Mr. Owens. No.
    Mr. Faleomavaega. In areas that we can identify----
    Mr. Owens. I fear that resolution of the wilderness issue 
is many, many years away, simply because of the polarity of the 
issue and the lack of support for it in any of the political 
structure of Utah, or almost any of it, for any substantive 
preservation of wilderness.
    So the answer is, I am willing to talk, anxious to work, 
but I am very dubious, must be pessimistic with you about it. 
Wilderness, as the gentleman knows, is the highest degree of 
protection because only Congress can invade a wilderness. Not 
primitive areas, not any other areas, have that degree and that 
body of law supporting the method in which it is in fact 
protected. Therefore, wilderness is a final status or at least 
semi-final status, and that's really what makes it such a 
difficult issue for the people of Utah. They are ambivalent at 
best about how much of it should be preserved in wilderness 
status, but polls indicate that an overwhelming majority of 
Utahns want a very substantial portion of Utah preserved in 
wilderness. So the great polarity between political structure 
office holders and the people is such that I think it's a long 
distance away, the resolution of this issue.
    Mr. Faleomavaega. Thank you, Mr. Owens. I thank the 
gentleman for yielding.
    Mr. Hansen. I would respectfully disagree with my friend on 
the idea of what the highest degree of protection is. You don't 
run cattle in parks. You can't hunt in parks. Some primitive 
areas are probably more protected than others. That's where we 
get a little nit-picky there but----
    Mr. Owens. It makes me very nervous to be in disagreement 
with the chairman, of course. We very seldom have been, but on 
that one I would respectfully disagree.
    Mr. Hansen. I thought we both had agreed that we both voted 
for a gold medal for Queen Beatrix.
    [Laughter.]
    Mr. Owens. Boy, I had forgotten that vote, Mr. Chairman.
    Mr. Hansen. I am sure you had forgotten about that one vote 
we agreed on. I have great respect for my former colleague. 
He's a very intelligent man and a very good leader. With that, 
we'll dismiss, and, Wayne, hope you make your plane.
    Mr. Owens. Thank you.
    Mr. Hansen. We'll now turn to our last panel: Bill Meadows, 
president of the Wilderness Society, and it's always nice to 
have Mr. Meadows with us. He always gives us very thoughtful, 
well-reasoned testimony. And Mr. Wesley R. Curtis, director of 
the Governor's Rural Partnership Office.
    Good to see both of you gentlemen.
    Mr. Meadows, it's always nice to have you in front of us. 
We'll start with you, sir, and give you 5 minutes.

  STATEMENT OF BILL MEADOWS, PRESIDENT, THE WILDERNESS SOCIETY

     Mr. Meadows. Thank you, Mr. Chairman. I am Bill Meadows, 
president of the Wilderness Society, and it's a pleasure to be 
here with you today to discuss protection of our Nation's 
wilderness.
    I am also pleased to be here with former Representative 
Wayne Owens, a Utah native who loves the State, its public 
land, resources and wild lands. I enjoyed hearing his testimony 
and hope that mine will complement his.
    I would like to focus my remarks on H.R. 3625's national 
implications and highlight key comparisons between this bill 
and Representative Cannon's earlier bill, H.R. 1952. I believe 
that such comparisons will best explain the concerns of the 
Wilderness Society.
    In my written testimony I describe many ways in which H.R. 
3625 is an improvement over H.R. 1952, but, first, I would like 
to acknowledge the work of many in Emery, Carbon, and Sanpete 
Counties, especially the county commissioners of Emery County 
who have sought to address the important issues before us, as 
well as the efforts of Representative Cannon and Governor 
Leavitt.
    I was particularly pleased that Governor Leavitt was able 
to join the Wilderness Society at its governing council meeting 
in Springdale, Utah, this past fall, as was Representative 
Morris Hinchey. We had a good discussion on Utah wilderness in 
that context.
    I also want to express the willingness of the Wilderness 
Society to sit down and work with anyone committed to a sound 
solution of wilderness issues in Utah.
    Our concerns with the scope of H.R. 3625 are threefold: 
First, it does not address the full range of wilderness quality 
lands in Utah, as it makes wilderness designations in only two 
counties.
    Second, even those counties in which wilderness 
designations are made, H.R. 3625 actually reduces the 
protection that wilderness resources currently receive, by 
eliminating Wilderness Study Areas' protection for over 140,000 
acres. These former WSAs will no longer be managed to protect 
their wilderness values. As a result, these lands may be lost 
to development activities, including road construction and ORV 
use.
    Third, H.R. 3625 only protects some 40 percent of the 
wilderness designations contained in H.R. 1500.
    The Wilderness Society is very concerned by the wilderness 
management provisions of both these bills, Representative 
Cannon's earlier bills, H.R. 1952 and H.R. 3625. Both those 
contained non-standard and damaging wilderness management 
language affecting a variety of management issues. Such 
exceptions to standard wilderness management set a dangerous 
precedent for future wilderness legislation nationally.
    These damaging wilderness exceptions include provisions 
related to reserved wilderness water rights and water 
development. In the arid West, wilderness areas must be 
protected by the provision of water for their streams and other 
water resource lifelines. Yet the water rights provisions of 
both, H.R. 3625 and H.R. 1952, expressly deny Congressional 
reservation of the water rights sufficient to sustain these 
magnificent desert lands.
    In recent years Congress has enacted wilderness legislation 
for Arizona and California. In each of these bills, Congress 
reserved a quantity of water sufficient to maintain the 
integrity of the wilderness ecosystem. These statutes balance 
the need of water right holders with that of wilderness users 
and wildlife. H.R. 3625 does not.
    Additionally, H.R. 3625 appears to allow almost unlimited 
expansion of existing water developments, without any regard 
for the impact of such expanded developments on wilderness 
resources.
    A second concern, other road and motorized use issues. Road 
development and vehicular use constitutes one of the largest 
threats to wilderness resources in the West; yet H.R. 3625 
appears to threaten serious road and vehicular damage to 
wilderness lands through provisions related to ``fish and 
wildlife management.'' Native American cultural, grazing and 
valid existing rights are all problems. Each of these sections 
breaks with existing precedence for protection of Federal 
wilderness areas.
    Finally, with respect to wilderness management, we must 
note ways in which H.R. 3625 is worse than H.R. 1952; for 
example, in its treatment of the so-called valid existing 
rights and RS 2477 road claims. One of the most distressing 
aspects of H.R. 3625 is the control it gives to local interest 
over Federal land management.
    We are concerned that H.R. 3625 extends a new cooperation 
requirement to manage wilderness resources, to manage bighorn 
sheep management areas within the conservation area, and to 
manage semi-primitive non-motorized areas within the core 
conservation areas. Local governments and interests have a 
legitimate stake in Federal land management. It is not 
appropriate to cede management authority of Federal lands to 
local interests in the manner proposed by H.R. 3625.
    To summarize, Mr. Chairman, we must oppose H.R. 3625 
because we believe that it provides wilderness designation for 
inadequate acreage, threatens wilderness resources in Utah and 
on other BLM lands, and it releases lands currently protected 
as Wilderness Study Areas to management practices that may in 
fact degrade the wilderness values, makes non-wilderness 
Federal land designations that do not adequately protect these 
special areas and their wilderness resources, and it threatens 
to cede an inappropriate level of control over Federal, 
national lands, and wilderness management to local governments 
and interests.
    Thank you very much for the opportunity to testify today.
    [The prepared statement of Mr. Meadows may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Meadows.
    Mr. Curtis, we'll recognize you, sir, for 5 minutes.

STATEMENT OF WES CURTIS, DIRECTOR, GOVERNOR'S RURAL PARTNERSHIP 
                     OFFICE, STATE OF UTAH

    Mr. Curtis. Thank you, Mr. Chairman. I point out that I 
will be speaking primarily today as a member of the Emery 
County Public Lands Council. I am a lifelong resident of Emery 
County and member of that council. It's been pointed out today, 
and we appreciate this fact, that this is a very creative, 
innovative proposal we have before you.
    I think there's another remarkable thing about this 
proposal that needs to be mentioned. It was created without the 
help of a single attorney. We may have overlooked a few little 
wrinkles because we don't have that legal expertise, but I 
hope, as Congressman Cannon suggested in the beginning, that 
this testimony serves as a dialogue to work out some of these 
things because I think if we really look at what's being said 
here and what the motivations supposedly are for both sides, we 
are much closer than perhaps we realize.
    Let me just hit a couple of points, deviating from the 
written testimony which I have submitted. First of all, 
regarding the involvement and the inclusion of others, I don't 
want to belabor this but the involvement of many stakeholders 
and environmental groups and others is well documented in this 
article in the packet submitted by Commissioner Petersen. I 
also point out the Bureau of Lands Management has been 
participating with Emery County though a Memorandum of 
Understanding for the past two years and has worked hand in 
hand with the development of this proposal.
    I also would like to make a brief comment regarding water. 
For those who are concerned about a Federal water right on the 
San Rafael River, even if such a water right were granted and 
preempted State law in doing so, all it would likely be is a 
junior right on an over-appropriated river. We are proud to 
tell everybody here that the San Rafael River is one of only 
two rivers in the State of Utah that already a designated in-
stream flow in place. We are concerned about the water needs of 
these wilderness areas.
    And let me just say then that this bill is indeed 
environmentally sound. It's been carefully crafted to provide 
every needful protection to these lands because we knew it 
would have to withstand intense scrutiny. We've heard it said 
that this is an anti--it's not a wilderness bill; it's a 
wilderness development bill.
    We take that really as an affront because we are sensitive 
to these lands. We have a connection to these lands that goes 
beyond those who don't live there. There's been a lot said 
about that these lands reduce protection when we withdraw 
Wilderness Study Areas. I would suggest that we're not reducing 
protection; we're expanding protection on these lands.
    Wilderness proposals to this point, regardless of their 
acreages, I believe have an inherent weakness. They are one-
dimensional in their focus. They offer slice-and-dice 
protections for isolated tracts of lands, but they don't 
preserve the integrity of the whole. They focus on lands and 
acres, not on ecosystems. This bill that we have before you is 
a wilderness bill and a whole lot more. It goes beyond 
wilderness.
    This is the only proposal from any quarter that protects 
the entire San Rafael Swell. It protects the environment and 
the integrity of an entire ecosystem. This is the only proposal 
ever made that withdraws threats of oil drilling, mining and 
timbering from the entire San Rafael Swell, which I might add 
is a remarkable concession for a rural county with an economy 
based on mineral extraction.
    We've already talked about special protections and the 
needs for those regarding desert bighorn sheep. This bill is a 
protection measure in every sense of the word, and I think it's 
important, above all, that we point out that those who have 
spoken for and against this proposal really share much common 
ground and a common interest.
    We desire indeed to protect these lands and feel that we 
can do so. If there are some things we need to tweak or adjust 
with this, we're more than willing--we have always extended an 
open invitation for anyone to participate.
    In closing, let me just make one more comment that has been 
about something that has been accomplished through this process 
that no bill has been able to accomplish to this point, and 
it's an important lesson that we have learned. As we have 
proceeded through this process, which has been locally driven 
and locally initiated, we have learned a lot in engaging with 
other interests and stakeholders in the San Rafael Swell; but 
because it's been a locally initiated process there's a side 
benefit attached to this: It has led to local buy-in, local 
ownership and local pride in this proposal.
    The local residents now are part of the solution, not part 
of the problem. They are now becoming the public eyes and ears, 
watching out for abuses on these lands. This is a remarkable 
and positive shift in attitude from what we have seen in the 
past. When we began our processes of talking with other groups, 
we entered those processes with a great deal of suspicion and 
feelings of mistrust regarding other parties.
    We have learned that there is a lot of common ground. We 
invite the wilderness advocates and groups, if they feel these 
feelings of mistrust as we have, let's sit down and work these 
out. I think this is very possible and very doable, and in the 
process we can come up with something that's better than 
anything that's been on the table to this point.
    What we have here is a chance to tailor something that can 
be a perfect fit for these lands. This proposal is not 
something that was done from afar. It fits the realities of the 
land. It was done by people who understand the lands; who are 
close to them; who see its nuances, its intricacies. We invite 
others to help us improve this process if needful, but, Mr. 
Chairman, I think you have before you here is a remarkable 
proposal, and I certainly urge you to move it through the 
process and create the San Rafael Swell National Heritage and 
Conservation Areas.
    [The prepared statement of Mr. Curtis may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Curtis.
    The gentleman from American Samoa is recognized for 5 
minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I think from what Mr. Curtis has just stated to the members 
of the Subcommittee, I think while there are disagreements, but 
at least it is a starting point, and I, for one, also don't 
necessarily look at the polls as a means of saying where the 
will of the people of Utah stand on issues, depending on who is 
writing the polls and what questions are raised and how you 
take the poll.
    But I wanted to ask Mr. Curtis what his thinking is on the 
opinion expressed earlier by Mr. Owens, as he had expressed an 
earlier opinion that he thinks that the people of Utah may not 
accept the current proposal.
    Mr. Curtis. I sincerely believe, and I don't say this just 
to support our own case, I think the people of Utah want to see 
these issues resolved, and they see this as a very prudent and 
wise proposal. And in fact just this past Saturday the Salt 
Lake Tribune, which tends to be the liberal-leaning paper in 
the State of Utah, came out with an editorial that is very much 
in support of what we are doing with this proposal.
    Mr. Faleomavaega. I assume, Mr. Meadows, you have been 
working closely with Congressman Cannon's office in trying to 
have some input on behalf of the Wilderness Society and some of 
the provisions that have been proposed?
    Mr. Meadows. Well, actually, Mr. Congressman, we were not 
aware of the legislation in any detail until it was--we 
received a draft of it several weeks ago. Now we've not been 
involved in the discussions at all.
    Mr. Faleomavaega. You indicated earlier some of the similar 
expressions of concern that Mr. Shea of the Bureau of Land 
Management had expressed earlier. What do you consider to be 
the biggest priority of the problem or concern that the 
Wilderness Society has with this legislation?
    Mr. Meadows. Well, I think the main thing is the 
distinction we have on this question of protection, and we 
believe we are losing protection by looking at this in this 
various level of management prescriptions; and we are going to 
lose wilderness protection in the course of adopting that.
    I was actually very concerned with Senator Bennett's 
testimony this morning when he talked about this particular 
legislation serving as a road map for future wilderness.
    Well, that's exactly what we are concerned about, is that 
this is in fact a road map, and if in fact we're going to have 
more roads, more off-road vehicles, in these places than we've 
had before, that gives us great pause.
    Mr. Faleomavaega. The comparisons that were made in one of 
the fact sheets that was given to us--as you know, Mr. Owens' 
proposed bill requested 1.1 million acres for wilderness as 
opposed to the current bill's proposal for 407,471 acres.
    You are familiar with these counties where these two areas 
are situated?
    Mr. Meadows. I have not been to either of these counties. 
Our members are, and our board members have been there many, 
many times. We have literally thousands of members in Utah, and 
250,000 members, many of whom have spent considerable time in 
Utah. So I represent their interest as well.
    Mr. Faleomavaega. I am not one for expertise in this area, 
but there's approximately a difference of about 600,000 acres 
from what the proposed bill provides, even less than what the 
BLM is recommending.
    You are probably familiar with the fact that the chairman 
did introduce the bill a couple of years ago, and we held 
hearings on this issue, and that the BLM has been prodded to 
get moving to do some form of agreement with the parties at 
hand, and it seems that we are right back to square one again.
    Mr. Meadows. Well, you know, one of the issues is that we 
don't have as much information as we need. One of the things 
that concerns me right now about this legislation is even those 
who are proposing it and who are endorsing it and speaking in 
favor of it, talk about it as a work in progress. It's 
something that we need to do more work with. We need to bring 
more people into the discussion. We need to do more research.
    Well, let's not advance this piece of legislation 
prematurely. Let the Bureau of Land Management complete their 
reinventory. Let us learn more about the places. Let those 
wilderness advocates that we're working with very closely, who 
are on the ground day-in and day-out, actually try to document 
whether we have roads or ways or to try to take pictures of 
these places in dispute under the RS 2477 controversies. Let us 
go through that process and understand what is wilderness and 
what is not.
    Mr. Faleomavaega. There are currently two management plans, 
and I think the Bureau of Land Management is currently making 
the study. If you are aware of this, do you know how many years 
they've been doing these management studies?
    Mr. Meadows. Well, they were suspended from doing the 
reinventory just recently, and so they've been on hold. There's 
opportunity I think to re-institute that. We have to wait to 
see how the court eventually finds what happens in the judicial 
process.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from New York is recognized for 5 
minutes.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Our concern here, of course, is with the Federal lands, the 
publicly owned land, the lands that are held in trust 
essentially by the Congress and their agents for all the people 
of the country. And one of the provisions of the bill that 
concerns me, and I wonder what you would think about this, Mr. 
Meadows, is the seemingly inordinate control over Federal lands 
that is turned over to local decisionmakers. And so the Federal 
lands would no longer be controlled by Federal agencies, but 
they would be controlled to a large extent by local designees 
in some way. Could you comment on that?
    Mr. Meadows. Yes, I think the language here is instructive. 
We begin to talk in this bill about cooperation, that the BLM 
will cooperate with the local councils rather than consult, 
which is the standard. We are very concerned that the national 
interests, which I am trying to represent, that the members of 
the Wilderness Society or the Sierra Club or other 
organizations that actually have memberships from 50 States who 
are all interested in what happens on the national lands, as 
expressed here in Utah, are not going to be given adequate 
opportunity to comment.
    And the Federal agencies who have been charged with the 
good management of those lands are ceding that responsibility 
to local interests. Now we think there is a role and certainly 
we support the idea of regional--of local, regional advisory 
councils. We think those are appropriate so that local people 
who live near the land, including our members who live in Emery 
County and Carbon County, can have an opportunity to 
participate in that advisory process.
    Mr. Hinchey. Well, local advisory councils, I agree with 
you, would be a good thing, but we don't want to put the 
Federal Government in the role of an advisory council, advising 
local managers over Federal land.
    Mr. Meadows. They don't need to be in the back seat. They 
need to be in the front seat and driving the decisions with 
support from those who can offer advice from the back seat, we 
think.
    Mr. Hinchey. One of the aspects of the Federal land, one of 
the uses, legitimate uses, of these lands is grazing, and that 
grazing is, of course, overseen by the Bureau of the Land 
Management, and they do so in a way that is designed to ensure 
the integrity of the land. But if you take the BLM out of that 
process and turn over the grazing regulations to local 
authorities, then you are going to have a different criteria 
for management, it would seem to me.
    Mr. Meadows. I think that's true, although I have to, quite 
honestly, say we have conflict with the Bureau of Land 
Management over grazing issues as well. In fact, the first time 
I met with Director Shea, he asked me with whom do we have--the 
Wilderness Society--have the most conflict, and I said, 
``Well''--I knew he was asking the grazing, ranching community, 
mining--I said ``Well, do you mean other than the Bureau of 
Land Management?''
    So we do have conflict over the way our Federal agencies 
manage the land, too, but we find that there is a standard that 
we can hold them to. We can at least go talk with the local 
manager and hold them to a standard, and we're concerned about 
having that kind of--it's not just the local control; it's that 
you'll get different standards in different places, and we'll 
have, I think, a fragmented management policy for Federal 
lands.
    Mr. Hinchey. What does the legislation do with regard to 
water management? There are some aspects here that seem 
troubling with regard to the possibility of expanded water 
development issues in this region, if the provisions of this 
bill in that regard were to go forward?
    Mr. Meadows. Well, you know, I think the bill is not 
written carefully enough. There may be some way for us to--I 
was interested in Mr. Curtis' comment about guarantee. Now 
that's a plus, and I'd be glad to talk more about that, but we 
are concerned that it is sort of unlimited. There is not a 
restriction here. We are concerned there is an open door for 
just an overdevelopment of water resources within the region.
    Mr. Hinchey. Thank you.
    Mr. Curtis, I listened to your testimony very carefully and 
I'd agree that in many ways this moves the debate forward. It 
keeps our attention focused on the issue, and it has some 
creative aspects to it, this particular legislation.
    One of the things that you talked about in your testimony 
was a need to protect ecological systems and ecological 
regions, but I find in this bill that we would do something 
quite different than that in that areas are divided along 
political lines rather than in the context of ecological 
systems. And, indeed, I even see the canyons are cut in half 
and natural areas are divided in unnatural ways.
    How do we reconcile the fact of the bill and the Acts that 
it would perpetrate with the idea of protecting the ecological 
systems?
    Mr. Curtis. I appreciate the chance to respond to that. The 
only place in question where we are dividing, as you suggest, 
on political boundaries, is in what we call the Book Cliffs 
Desolation Canyon area, which is in the top righthand corner of 
the map there.
    The reason we have done that in this particular case is 
because Carbon and Emery Counties really can't dictate what's 
going to happen in the neighboring county, which is Grand 
County. However, in our minds, we feel that this is a very good 
step toward pressuring them to join with us in the process.
    We more than welcome the addition of the rest of the lands 
designated in that WSA as being included with that package, and 
whether it be done in this bill or in a separate bill, it 
doesn't matter to us, but we feel those lands are certainly 
worthy of wilderness designation and would encourage the whole 
package to be brought into it. We have no problem with that.
    Mr. Hinchey. Well, I thank you very much for that, and that 
clarifies something in my mind, but it also raises other 
questions, and they are that this again points out a weakness 
of the particular legislation, in that it seeks to deal with an 
ecological problem from the point of view of political 
boundaries, and the limitation at the end of a county line, you 
know, just isn't going to work, unfortunately.
    And when you try to have legislation that is designed to 
work within the confines of political boundaries, you obstruct 
your objective; and it may be that in the future if this 
legislation were to pass, it may be in the future that we might 
be able to interest an adjacent county into joining in or into 
participating in a meaningful way, but I don't know that that's 
true, and I wonder about the need or the efficacy, the value, 
of proceeding in this way that limits our ability to deal with 
ecological systems based upon arbitrary political boundaries.
    Mr. Curtis. What we are really focusing on, and the heart 
of the issue here is, the San Rafael Swell itself, which is 
indeed almost a self-contained ecosystem. Because of the 
geology, it is surrounded by ledges and cliffs that make it 
stand out unique and on its own, and that is really what we are 
referring to when we talk about an entire ecosystem.
    And this is the only proposal that does that. It not only 
protects the lands but also protects the wildlife. It protects 
the habitat, and I guess the question I would really like to 
pose, actually a couple of questions, with regard to this 
entire proposal: In what way does this proposal fail to protect 
the resources of the San Rafael Swell, and what specific 
threats to these lands have we failed to address? And if we can 
get clear, specific to those questions, we'd first to deal with 
those, but we think we've covered those bases.
    Mr. Hinchey. Well, I appreciate the openness with which you 
approach that, and I think that there are some clear examples 
of failures to protect important resources in the legislation; 
and I think that we would all welcome to point those out to you 
as we move forward.
    Mr. Hansen. The time of the gentleman has expired. I thank 
the gentleman from New York.
    Mr. Curtis, how do you respond to Mr. Owens' and Mr. 
Meadows' assertions regarding water rights?
    Mr. Curtis. Well, as I indicated earlier, I think there's 
an implication here that there ought to be some type of Federal 
legislation that preempts State water law, and I don't think 
that's a battle you want to get into, but with regards to water 
rights themselves, we have long said that even with the Federal 
water right there, all it would be is a paper water right. It 
wouldn't necessarily have water attached to it because the 
stream is over-appropriated.
    We have an agreement on the San Rafael in place right now 
that was worked out though Utah Power and Light with actually a 
designation established by the Division of Wildlife Resources 
that guarantees an in-stream flow on the San Rafael River. And 
these are the types of approaches that we think are much more 
meaningful, to actually provide water, not rights.
    Mr. Hansen. How do you respond to the idea regarding 
increase or decrease of off-road vehicles? Mr. Meadows made a 
big point that it would increase off-road vehicles.
    Mr. Curtis. I can tell you, from our perspective and the 
way that we have conceived this and believe this in our minds, 
that we are very concerned about off-road vehicles. It's a 
concern our local public has, and in our minds what we have put 
together here addresses that issue. The wilderness areas and 
the semi-primitive, non-motorized areas you see up there do not 
allow vehicular access.
    And, in fact, the resource management plan that is in place 
right now on the San Rafael Swell does not allow vehicles to go 
off from designated roads and trails. We view the semi-
primitive and the Desert Bighorn Sheep Management Area as being 
essentially managed for their wild qualities and being very 
similar to wilderness designation, as you pointed out earlier.
    Mr. Hansen. For some reason, if people say it's wilderness, 
it's all right. What we should do is call all these things 
``wilderness'' and do what you want on them anyway, because 
they get more protection. There's some mystique out there that 
the term ``wilderness'' gives great protection, you saw from 
our former colleague Congressman Owens. Actually, primitive 
areas, as they used to be designated in the 1930's, get more 
protection than wilderness.
    Mr. Curtis. And could I add to that, Mr. Chairman? We asked 
the regional manager, the district manager of the BLM there, 
what it would take to really enforce wilderness on the San 
Rafael Swell, and he said it would require the United States 
Army. There are too many points of entry and access.
    However, as I mentioned earlier, we're seeing something 
very significant happen here, and this is important to note. 
Our local people are buying into what we're doing here, and 
they're starting to change their attitudes dramatically. In 
fact, he indicated to us just last week, the director of the 
area there for the BLM, that abuse has declined quite a bit in 
the past year.
    And, in fact, the local off-road vehicle club has gone out 
and reclaimed some of these areas where vehicles should not 
have been. They have put up signs saying that people should not 
ride their vehicles there. They're reseeded and revegetated 
those areas. It's a whole different attitude, and that's what 
can come by working together on these types of processes.
    Mr. Hansen. It kind of goes to the area that you hear a lot 
of environmental groups say that, once this ground is gone, it 
is all that's lost. That's poppycock. I can show you areas all 
over America, and I would like to start with Promissary Ridge 
in Wyoming which was loaded with people and now has been 
reclaimed due to the efforts of Dick Cheney, and I supported--I 
carried the bill on the floor--totally reclaimed. I can show 
you areas around the Gunison in Colorado--totally reclaimed. I 
can show you areas in the California Desert Protection Act--
totally reclaimed. And all of you who are rolling your eyes, I 
would be more than happy to take you and show you those areas 
because it just happens to be fact.
    I strongly disagree with Mr. Meadows on one thing, that 
only the Federal Government can manage the land. It's not true 
at all. I hope I am not putting words in your mouth, Mr. 
Meadows. That's what I thought I heard you say. I used to be 
speaker of the Utah House, and we did exhaustive studies with 
what the State did compared to the Federal Government.
    Now you take our western States--there's an imaginary line 
nobody can see, and one side is Federal and one side is State. 
We did a study--the Utah State University did for us when I was 
Speaker of the House--saying who managed the land the best--for 
the best use, taking care of it, help, all that type of thing. 
By far, the State of Utah did a better job. The kicker was 
this: On State lands BLM cost us 75 cents an acre in those days 
and Utah cost us 23 cents an acre. So, I don't know where this 
idea comes from that all wealth, wisdom, knowledge emanates 
from here. It's not true.
    Mr. Meadows. Mr. Chairman, I mentioned that we have 
conflicts with the Bureau of Land Management. We obviously have 
conflict with the Forest Service and other land management 
agencies at the Federal level frequently. I can take you to 
places where private lands are better managed than State lands, 
or State lands better managed than public--than Federal lands. 
But I can also do the reverse.
    I think there's a lot of inconsistency. We can talk about 
anecdotes, but the concern that we have, the base concern we 
have, is that these are Federal, national lands; and our 
Federal agencies need to take the responsibility for managing 
those appropriately. You and I together need to force them to 
do that well.
    Mr. Hansen. I don't disagree with that, Mr. Meadows. I'll 
agree with that statement, and I could show you in forests, 
because I used to chair the Committee on Forests and Forest 
Health, the majority of private ground, owned privately, is in 
better shape than the public ground. And the guy who would come 
in and testify is Dr. Patrick Moore, the president of 
Greenpeace, who will come in here and say, if you really want 
to see, it was managed there.
    Now if I have a bone to pick with you folks--I really 
don't--it would be this: You folks always come in, as my 
friend, Mr. Hinchey does, and say, ``It's public land. It's 
owned by all of us.'' I don't disagree with that. What I do 
disagree is this: Because it's public ground, we sit there--say 
Kane County, Emery County, Garfield County, specifically in the 
State of Utah. Now Garfield County is 90-something percent 
owned by the Federal Government. I imagine Emery County is 
pretty high--92 percent owned by the Federal Government. So, 
hey, we all own that ground. Well, then, why don't you pay your 
share? I would think that SUWA, the Wilderness Society, the 
Sierra Club, Audubon Society, the National Conservancy Area 
would be up here demanding that Congress pay their share.
    These guys are sitting there, and they have a fire caused 
by somebody in the East who carelessly does something; they got 
to go out and fight it. They have debris just strung all over 
the place; they've got to clean it up. They have some guy go up 
on a mountain and break his leg because he doesn't know better; 
they send an ambulance out to take care of them. So they are 
sitting there and their tax base is zero almost.
    I mean the tax base of Garfield County--two Congressmen's 
salaries is more than that--and they are sitting there trying 
to take care of all that area, and my good friend, Pat 
Williams, a good Democrat from Montana, and I raised the amount 
five times to what it was, payment in lieu of taxes, and 
Congress won't--and basically when it was controlled by the 
Democrats would never do it. We are getting a little more out 
of the Republicans as far as coming up with money to pay their 
share of the ground.
    And in any business deal, if I owned a share, I ended up 
paying my share. I would hope to see you people put your money 
where your mouth is, and I say that respectfully, Mr. Meadows, 
and come out and help us out on some of those areas, so we can 
take better care of the ground.
    Mr. Meadows. Absolutely. And let me just comment on that 
briefly. I just paid my taxes last week, just as you did. A 
portion of that I hope is going to protect our lands and manage 
those lands appropriately. The Wilderness Society is part of a 
public lands funding initiative, 140 organizations, pushing 
Congress and the administration to put more money into the 
budgets for Bureau of Land Management, the National Park 
Service, Forest Service, and the Fish and Wildlife Service, to 
manage the lands that we own more effectively.
    We have been niggardly in our approach to funding those 
agencies and that's why the local government are feeling 
pressed. We do have an obligation as the National government to 
fund those agencies appropriately to manage those lands.
    Mr. Hansen. I would agree with that, and I think that's 
laudatory, what you are doing, but we got one now that just 
doesn't urge it; it's on the books; it's authorized; it has 
been paid. I would hope that everyone of your groups would come 
on and say, ``Come on, you guys are always bellyaching about 
it. Put your money where your mouth is, and give some of that 
payment in lieu of taxes,'' and you'll get a lot better care of 
your land.
    These county commissioners have to sit there and say ``What 
are we going to get this time? These guys want us to do all 
this work. They want us to clean this up. They want us to take 
care of it. They want to do all these things. All these eastern 
and western guys come and play on it; yet, they won't pay their 
share.''
    And if you are a county commissioner like these poor guys 
have to be and sit here and take that crap all the time from 
this, you would see they get really uptight. Every time I go 
visit our 29 counties and say, ``Why don't they put their money 
where their mouth is?,'' they want to tell us how to run it and 
they say ``Oh, yeah, we've got payment in lieu of taxes.''
    ``However, you are supposed to get about a quarter an acre. 
We are going to give you 3 cents an acre this time. Yes, we are 
going to screw it up. We are going in there. We are going to 
cause fires. We are going to mess it up and all that type of 
thing,'' but they don't put their money in. I get a little 
exercised over that.
    Mr. Meadows. Well----
    Mr. Hansen. Mr. Meadows, just respond and we'll go to the 
other gentleman here.
    Mr. Meadows. That's exactly the kind of place where the 
Wilderness Society and the county commissioners from Emery 
County and this Subcommittee and someone from the Budget 
Committee perhaps, subcommittee, or Interior, could sit and 
talk out a solution, and we are eager to talk about those 
issues because I think that's where we can make a difference.
    Mr. Hansen. I am looking forward to the resolution from the 
Wilderness Society, from SUWA, Sierra Club and others saying, 
``Why doesn't the government pay their share?'' Now that would 
be a very worthwhile thing for you folks to get involved in.
    The gentleman from New York.
    Mr. Hinchey. Mr. Chairman, I just want to say that I very 
much respect and agree with your advocacy on behalf of local 
people with regard to the responsibility of the Federal 
Government to pay its fair share on these Federal lands. And I 
just want to point out that you were absolutely correct in 
recognizing the leadership of Pat Williams on that and that I 
supported him and others supported him in that initiative.
    We very much agree that these are Federal lands, and the 
Federal Government has a responsibility, and we very much 
support increases in those budgets that were mentioned by Mr. 
Meadows just a few moments ago, and also the need to increase 
the payment in lieu of taxes for these lands. I very much 
support you on that.
    Mr. Hansen. Well, I am looking forward to all your support 
when that appropriation bill comes up and all the good things 
that Mr. Meadows' group is going to say about it.
    Thank you so much. We'll adjourn and this will end this 
hearing, and thanks to everyone for coming.
    [Whereupon, at 12:30 a.m., the Committee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
                    Statement of Hon. Mike Dmitrich,

    Mr. Chairman, Ranking Member, and members of the 
Subcommittee, it is with great pleasure that I address you 
today, not simply because I do not get to address such an 
august body often, but because I am addressing you on an issue 
of great importance not only to my constituents but to all of 
the American people.
    In Emery County, a county bigger than some New England 
states, lies one of the last great undiscovered national 
treasures, the San Rafael Swell. The cliffs were the shores of 
long vanished oceans. at every turn there are the signs of the 
ancient Jurassic era, through the swell passes the old Spanish 
Trail and cowboys can still be seen working, it is an area rich 
in biodiversity both plant and animal, however, like many areas 
in the west, it is rich not only in beauty, but mineral wealth, 
grazing potential, and other uses which make human life 
possible.
    For decades, the various user groups have been, almost 
literally, at war. Many groups, on all sides, have staked out 
extreme positions over which they have declared ``No 
compromise, no surrender,'' ``No quarter asked, none given.'' 
The result has been an area in managerial confusion, such a 
situation is extremely difficult for local elected officials 
and local area resource managers from the state and Federal 
agencies.
    However, not all voices have been strident and unyielding. 
Environmentalists, resource people and recreation groups, from 
both in and out of the area, have spent literally thousands of 
hours forging a plan to manage the San Rafael resource area in 
a sensible and thoughtful way. You have before you H.R. 3625, 
which is the legislative embodiment of that effort and an 
emblem of their dedication to reason and compromise. It is a 
commitment from both the citizens of Carbon and Emery counties, 
and those who don't live there but who love these lands, to 
care for them and to use them responsibly now and forever.
    There are those who can, and will, cite the specifics 
better than I, however, let me state that H.R. 3625 will create 
a 630,000 acre national conservation area from which industrial 
development will be banned but in which conventional tourism 
and livestock will be allowed. In addition, over 300,000 acres 
will be placed in wilderness or primitive designations.
    Again, I will leave the real details to others, but what I 
want to do is give you some reasons to vote for this proposal 
and not a blanket wilderness designation. For those whose 
constituencies lie east of the 100th meridian, voting for 
wilderness always seems a safe and popular vote. However, as 
all of us who answer to the voters know, what appears popular 
today can turn to voter resentment and anger tomorrow. If you 
enact, as some would have you do, a simple blanket wilderness 
designation for the San Rafael, the law of unintended 
consequences may begin to work with a vengeance.
    First of all, since wilderness precludes most kinds of game 
management techniques, such as providing salt or water 
bubblers, you may be causing grave harm the just reemerging big 
horn sheep herd. You still hear testimony on that later. It 
goes against our intuition, but some of these species cannot 
any longer survive without man's intervention. the game 
managers support this proposal.
    Often, wilderness precludes most kinds of archeological 
work which would be criminal in this area so rich in Native 
American history. It may also mandate the destruction of some 
historical sites because they are the works of ``the hand of 
man.''
    Furthermore, since the only allowed means of travel in 
wilderness areas are foot and horseback, many of the wonders of 
this area will be denied to your constituents who are elderly 
or handicapped. Those people deserve access to the lands as 
well.
    What might appear to be an easy vote has many land mines in 
it. In the end your constituents will be grateful that you took 
the thoughtful approach and did what is right for people and 
animals, for history and culture, and for their opportunities 
to enjoy the land when they hopefully journey to my state 
senate district.
    That said, let me state that I am not an opponent of 
wilderness designation. Some of the earlier proposals did have 
too little wilderness. there must be pristine and quite places 
in this ever more hectic world where a person can enjoy nature 
as God created it. Please note that an area larger than Rhode 
Island has been excluded from mineral development. I am happy 
to say that there are several wilderness designations as part 
of this overall plan, but these are designations thoughtfully 
done rather than done as a part of a cynical numbers game. 
These areas contain the type of scenic wonders the original 
sponsors of the 1964 Wilderness Act had in mind.
    Besides, I have great sympathies with endangered species. I 
am a rural Utah Democrat. Nonetheless, I have survived to 
become the senior person in the Utah legislature. I can tell 
you, this battle has been going on during the greater part of 
my 30 years of service. It is time for this battle to end. It 
is time to finally say no to the narrow interests and say yes 
to the vast majority of Americans who know in their hearts that 
there is room for us all. It is time to do the right thing--
instead of the easy thing--for the wildlife, for the people of 
Emery County, Utah and all of America. Thank you for this 
opportunity and thank you, Chairman Hansen for holding this 
hearing.
                                ------                                


              Statement of Randy G. Johnson, Commissioner

Chairman Hansen and members of the Committee,
    Thank you for the opportunity to testify before you today 
on this important bill. I have spent a great deal of time 
trying to think of what I might say to you that has not been 
said before, and which might in some small way portray how 
important I believe this new approach to public lands 
management really is.
    I believe that I should first let you know of my 
involvement in public lands matters so that you will understand 
my perspective on these issues.
    I am Chairman of the Emery County Board of Commissioners. 
Emery County is a county about the size of Connecticut which is 
92 percent state or federally owned.
    I am also Chairman of the Utah Association of Counties 
Public Lands Oversight Committee, a member of the National 
Association of Counties Public Lands Steering Committee, and 
Chairman of the Rural Public Lands County Council.
    Lastly, I am Chairman of the Board of Directors of the Utah 
Lands Foundation, the only resolution-oriented environmental 
organization in Utah.
    Consequently, public lands issues consume a great amount of 
my time. I want you to understand that I am excited to testify 
today, because I believe that what is before you is truly a 
landmark bill. H.R. 3625 has the potential to change the entire 
field of discussion, and could lead us into an era of public 
lands problem-solving if we are willing to let it.
    The challenge will be in prying ourselves loose of the 
stalemate we have created. As stated in an April 14, 1998 
Deseret News editorial: ``Perhaps a miracle--a big one at 
that--would move key players off dead center, or, more 
accurately, from the outer extremes. Beyond that, there doesn't 
appear to be much hope of exorcising the intransigence of 
wilderness advocates who are perfectly satisfied with the 
status quo. Defacto wilderness is as sacrosanct as officially 
designated wilderness. There is no incentive for wilds 
advocates at loggerheads with others to budge, which is the 
root of the stalemate.''
    I am here today to ask you for that ``big miracle.''
    I must also ask the question, if there is a general refusal 
to come to the table and look for solutions, then what kind of 
future have we defined for ourselves? Isn't it time to re-
evaluate our public lands management philosophy? I believe that 
we must ask ourselves: What kind of a war have we created--and 
who benefits?
    I assert to you that the Emery County Plan solves problems. 
It addresses the needs of all stakeholders. It works for the 
best good of the land itself. And, most importantly, it is a 
manageable plan. Surely this is a wonderful opportunity to move 
away from the stalemate described so well by the Deseret News.
    I think it is important for you to know that I consider 
myself an environmentalist. But, I am not allowed to be one 
because I do not believe that we should make wilderness of 
every possible piece of land that we can force into some 
semblance of qualification, ignoring man's impacts while making 
a crime of historic uses.
    Wilderness was meant to apply only to those exemplary lands 
which truly qualify. It was never intended as a management tool 
for all public lands. Nor should it be. Some environmentalists, 
in their eagerness to lock up the land, have made villains of 
those who mined uranium and other resources when our nation had 
a great need for those products, and have portrayed local 
elected officials as thugs and land barons. This is truly 
unfortunate, because the sustainability of those lands has been 
critical to our use of the land since the 1800's. This is 
evidenced by the fact that the beauty and wonder of this area 
has been so well preserved over the years that the entire 
nation is focused on it today.
    This is at the heart of the Emery County bill. It is our 
firm belief that natural history and human heritage are just as 
important and deserving of protection and recognition as are 
slick rocks. We also believe that the current status of 
polarization and acreage quotas is harmful--harmful to the 
land, harmful to the people who use and enjoy the land, and 
harmful to the nation. Surely our beautiful lands deserve more 
than junk science and exaggerated and manipulated statistics. 
Surely they deserve our best efforts. Certainly we are capable 
of prescribing a management philosophy that meets the needs of 
the land while assuring that we can also carefully manage the 
resources which come from the lands.
    We believe that Emery County has done just that. H.R. 3625 
is the only proposal that protects the entire San Rafael Swell. 
It is the only proposal that provides specific protection to 
one of Utah's largest herds of Bighorn Sheep. It is the only 
proposal that has started from the land upward, drawing nearly 
all stakeholders to the table. And, it is the only land 
management proposal that recognizes all the values of the land 
and works for truly manageable preservation of those values.
    The Emery County proposal is based on two principles:

          (1) Man is not an intruder in his own world; and (2) Man is 
        capable of protecting and preserving all the values of the 
        land, while carefully utilizing the basic and essential 
        resources the land provides.
    The National Heritage Area part of the plan addresses the wonderful 
blend of man and nature which is unique to the San Rafael. Here, the 
footprints of history trace themselves across the rugged beauty of the 
Swell. Dinosaur remains scatter the area, focusing at the Cleveland-
Lloyd Dinosaur Quarry, one of the largest sources of fossil remains in 
the world. There is also ample evidence of early Native American 
cultures throughout the Heritage Area, with many examples of their 
wonderful history preserved in rock art. Further, the heritage of the 
early settlers of this harsh and unforgiving land is woven into the 
area, and is every much as deserving of protection and recognition as 
the rocks surrounding them. Such treasures as Sid's Leap, Swasey's 
Cabin, and Temple Mountain are as much a part of the San Rafael Swell 
as sand and wind and deep canyon draws.
    The Heritage Area works to identify and protect these and other 
wonderful sites for the enjoyment of all who come to the San Rafael. 
Few other places in the world can provide such an ample supply of 
heritage sites. Places such as Swasey's Leap Historical site, Outlaw 
Joe Walker Trail Corridor, Hidden Splendor Historical Site, the Spanish 
Trail Corridor, Copper Globe Historical Area, Rock Art Historic 
Corridor, and many, many others. Access to these destinations will be 
accomplished by means of existing and long-used roads and trails. Most 
importantly, the ever-increasing flow of tourists will find a greatly 
enhanced visit to the San Rafael Swell, while we are able to better 
manage that flow of people and better protect the more pristine of the 
San Rafael lands.
    This wonderful blend of man and his world is the very heart and 
soul of this plan. Tracking the various footprints of natural history 
and human heritage through the San Rafael Swell gives the breath of 
life to these lands, and causes all who become hooked by the excitement 
and mystery of the area to take some share of ownership in the process 
of preservation and protection. It is a user-friendly plan, and 
everyone benefits from its manageable approach.
    The National Conservation Area works to preserve the more pristine 
areas of the San Rafael in various levels of protection as dictated by 
the land. In more than 600,000 acres, the NCA not only includes huge 
tracts of wilderness designation, but it goes well beyond wilderness in 
its protective layers. It recognizes the largest Desert Bighorn Sheep 
herd in Utah and makes provisions to manage and protect that wonderful 
resource. It also withdraws the entire San Rafael Swell from oil 
drilling, timbering, and mining.
    With our National Heritage/Conservation Area proposal, Emery County 
has created a protective blanket which actually fits the land, and 
works to recognize and preserve all the wonderful qualities of that 
land.
    Some environmentalists will say we have withdrawn protection from 
many acres. What they really mean is that we are protecting those lands 
in ways other than wilderness--ways that are just as permanent, just as 
effective, and in many cases, much more protective than wilderness.
    Another criticism of optional forms of protection is that 
wilderness is permanent, others are not. But, Mr. Chairman, we are here 
before you to seek congressional designation which would make this 
hybrid ecosystem management concept permanent, providing protection for 
the San Rafael Swell for many generations to come.
    Mr. Chairman and members of the Committee----

          if you say that the lands of the San Rafael need protecting, 
        we say, ``We agree!''
          If you say that there needs to be a ``wilderness experience'' 
        available to anyone who seeks it, we say, ``We agree!'
          if you say we should preserve some of our precious lands for 
        future generations, we say, ``We agree!''
          if you say there are some areas where no new roads should be 
        built, and no new mining should occur, we say, ``We agree!''
          But----
          if you say that wilderness is the only way to achieve these 
        things, then we say, ``We do not agree.''
    We believe that we must reevaluate our public lands management 
philosophy. We must look at the conflict we have created, and ask 
ourselves where we are going and who benefits from the continual 
contention.
    I close my testimony with the words of Thomas Jefferson, from the 
walls of the Jefferson Memorial:

          ``I am not an advocate for frequent changes in laws and 
        constitutions, but laws and institutions must go hand in hand 
        with the progress of the human mind. As that becomes more 
        developed, more enlightened, as new discoveries are made, new 
        truths discovered and manners and opinions change, with the 
        change of circumstances, institutions must advance also to keep 
        pace with the times. . . .''
    We ask you, once again, for that ``Big miracle.'' Let us move to a 
new, hybrid form of manageable protection. Let us accomplish the 
purposes of the San Rafael Swell National Heritage/Conservation Area.
    I thank you.
                                 ______
                                 

         Statement of Kent Petersen, Emery County Commissioner

    Chairman Hansen and members of the Subcommittee, my name is 
Kent Petersen. I am a member of the Emery County Commission. I 
am pleased to be able to talk to you about H.R. 3625, The San 
Rafael Swell National Heritage Area, National Conservation 
Area.
    Most of the people in Emery County live along the western 
side of the county between the mountains of the Wasatch Plateau 
on our west and the San Rafael Swell to our east. Our homes and 
our farms are in the valleys, fed by the streams which 
originate in the mountains. Our cattle spend their summers and 
get fat in these mountains. The coal for the power plants which 
provide jobs for our people are in these mountains. Even though 
much of our wealth comes from the mountains Our Hearts are in 
the San Rafael Swell. It is where we go when we want to be 
alone, and it is where we take our visitors when we want to 
show them something special. When our people come home after 
they have been away for a while, the Swell is always one of the 
first places they want to visit.
    The San Rafael Swell is a land of scenic beauty, but it is 
much more than this. It has a unique history and heritage. Many 
of the dinosaur skeletons on display throughout the world come 
from the Cleveland Lloyd Quarry operated by the BLM on the 
northern edge of the Swell. Rock art, and other remnants of the 
early Native Americans, abounds throughout the Swell. Butch 
Cassidy and the Robbers Roost gang frequented the Swell and 
used it as a getaway route after more than one robbery. Cowboys 
have managed their livestock on the swell from the early 1870's 
until today. They also named most of the landmarks and places 
of interest. These are only a part of the history and heritage 
we will be protecting and promoting with the San Rafael Swell 
National Heritage Area.
    We know these are public lands belonging to the people of 
the United States. We support the right of the people all 
around this country to be able to visit these lands, and to 
have a say in the management of them. We feel very strongly, 
however, that those of us who live next to these lands, and who 
have spent our lifetimes on or near them, must have a large say 
in how these lands are managed.
    Decisions and solutions dropped down from on high, without 
input from local citizens are very disruptive. They require a 
strong police presence to force people to follow new rules 
which often make no sense. Solutions that are sensible, and 
have a strong local support, police themselves.
    This is a plan developed at the local level with strong 
consideration of national interests. It will protect some very 
important lands. It will protect and manage the wildlife who 
live on these lands. It will manage the people who visit and 
use these lands. And it will protect the heritage and the 
history of those who have called these lands home.
    The citizens of Emery County have a long history of caring 
for the land. In the late 1890's and early 1900's a person 
could tell the location, from the valley floor, of the sheep 
and cattle herds on the mountains by the clouds of dust they 
kicked up from the severely over grazed land. Large herds of 
cattle from the area, and from outside the area, even from 
outside of the state, were grazing uncontrolledly on the public 
lands. Local citizens petitioned the government for the 
establishment of the Manti National Forest. Through cooperative 
efforts of the local ranchers and the Forest Service the lands 
have recovered and are once again very productive.
    In 1992 Project 2000, A Coalition for Utah's Future, a 
broad based public interest organization, decided to try to 
resolve the Utah Wilderness issue. Emery County volunteered to 
be the pilot county for this effort. We met with a widely 
diverse group of stakeholders to see if we could come to a 
consensus resolution.
    The stakeholders included members of state and national 
environmental groups, oil, gas, mining and utility interests, 
OHV users, ranchers, local government, state and Federal land 
management agencies, and local citizens. We met for about two 
years. We did not reach a consensus resolution because in 1995 
the debate changed to focus on H.R. 1745, the Utah wilderness 
bill. The two sides became polarized and it was impossible to 
work for consensus.
    These discussions, however, provided the impetus for the 
development of H.R. 3625, The San Rafael Swell National 
Heritage and Conservation Act. They also led to the formation 
of the Emery County Public Lands Council. It is a broad-based 
group of local citizens who meet on a regular basis to discuss, 
and resolve, public land issues. We have signed Memoranda of 
Understanding (MOU's) with the BLM, Forest Service, and State 
Agencies. We decided if we were going to have a say in our 
destiny we would have to become proactive and seek workable 
solutions.
    While meeting with Project 2000, The Coalition for Utah's 
Future we found that our goals for the land were not all that 
different from most members of the environmental community. We 
all wanted the San Rafael to remain forever as it is today. The 
differences were in how we were to accomplish this goal.
    At a public meeting in Castle Dale, Montell Seely, a local 
sheep rancher and historian, and George Nickas, a member of the 
Utah Wilderness Association, described very similar visions for 
Sid's Mountain, a key portion of the Desert Bighorn Sheep 
Management Area in H.R. 3625. They differed only in the methods 
for accomplishing their vision. George, the environmentalist 
thought it should be made a part of a large wilderness area. 
Montell said that it should always remain wild and that its 
location would ensure that it would. H.R. 3625 will satisfy 
both their visions.
    We determined that we all wanted the land protected. We 
also found that wilderness was only one method of land 
protection and is often not the best method. It is, in fact, a 
non management tool. We studied various protection methods and 
determined that a National Conservation Area (NCA) with various 
protection schemes inside the boundary would be the most 
effective method for managing the San Rafael Swell. The 
addition of the National Heritage Area will protect and manage 
various heritage and historical sites within the NCA and 
throughout Carbon and Emery Counties.
    The National Conservation Area provides protection for 
630,000 acres. Inside of this area are wilderness areas, semi-
primitive nonmotorized areas, an area of critical environmental 
concern (ACEC) to protect the view from the Interstate 70, and 
the Desert Bighorn Sheep Management Area. There are also 
wilderness areas and semi-primitive nonmotorized areas outside 
of the NCA in Carbon and Emery Counties.
    The Desert Bighorn Sheep Management Area provides 
protection for the sheep while allowing the Utah Division of 
Wildlife Resources to use all the tools it needs to keep the 
herd viable. The Desert Bighorn Sheep is very susceptible to 
disease, and over population is the greatest threat to a herd. 
Careful management is necessary to keep the herd healthy. The 
management area will also provide for watchable wildlife areas, 
scientific study of the sheep, and educational opportunities 
for the public.
    The semi-primitive, nonmotorized areas provide the ideal 
management conditions for several areas in the San Rafael 
Swell. They provide for wilderness recreation and isolation 
away from the usual human activities while recognizing the 
existence of man made features such as existing roads.
    Most of the areas on the San Rafael Swell listed in H.R. 
1500 are protected within the NCA either as wilderness, or 
semi-primitive, nonmotorized areas. Additional areas are 
protected within the NCA and as semi-primitive nonmotorized 
areas outside of the NCA boundaries. These designations protect 
the land while recognizing valid existing rights.
    The visual ACEC provides protection for the unique visual 
corridor along I-70, a major transcontinental highway. 
Thousands of travelers drive across the San Rafael Swell daily. 
Their view will be protected and we will develop methods for 
informing them about what they are seeing.
    I am sure that after careful study you will agree that H.R. 
3625 is the ideal management tool for the San Rafael Swell and 
for all of Emery and Carbon Counties in Utah. Maybe it will be 
the model for a new way to resolve public land disputes in the 
west.
    Thanks to you for giving me the opportunity to testify, and 
thanks to Chairman Hansen for holding this hearing.
                                ------                                


        Statement of Bevan K. Wilson, Emery County Commissioner

    Chairman Hansen, Ranking Member, and members of the 
Subcommittee: I come before you today as an Emery County 
Commissioner and as a native son of Emery County. I appreciate 
the opportunity to testify on a matter that is of vital 
importance to all of us.
    During the debate on the 1996 Utah Wilderness Bill, Senator 
Bill Bradley raised a question that is central to my discussion 
today. Senator Bradley asked ``How do we achieve a balanced, 
reasonable plan for conserving America's natural heritage while 
providing opportunities for economic growth and development 
across our public lands?'' That is a question that we in Emery 
County have been pondering for over a decade.
    The ten thousand citizens of Emery County live on tiny 
islands of private land surrounded by a sea of public land. 
Nine of every ten acres are owned and controlled by government, 
either Federal or state. These lands not only surround us; they 
sustain us. Water is our most limited and precious natural 
resource. Every drop of water we use comes from public land. 
Ranching is our dominant agricultural enterprise. Much of the 
forage for our livestock comes from BLM or Forest Service land. 
Emery County is the number-one coal producing county in Utah. 
Most of our coal comes from Federal coal leases. Public land 
has always provided most of our recreational opportunities, and 
our growing tourism industry is inseparably tied to those 
lands. Huntington native Edward Geary has written that these 
lands ``. . . form the proper edge of the sky.'' In a very real 
sense these lands define our cultural and economic horizons as 
well.
    Public land issues have always been important to us, but 
they assumed a new importance during the BLM wilderness 
inventory process. Hundreds of local citizens attended public 
hearings and offered comments on the wilderness EIS. At about 
that time Emery County developed an Economic Development 
Council and hired Scott Truman as its first director. Much of 
Scott's time was occupied with public land issues. In the mid-
eighties Scott and others proposed the creation of a National 
Park on the San Rafael Swell. That concept was abandoned 
because of local opposition. Some viewed a National Park as a 
single-use designation that would not address other national 
and local needs. Others simply did not want to see that level 
of tourism development on the Swell.
    Since that time public land issues have occupied most of 
the County Commission's time. Others will detail the process 
that led to the introduction of H.R. 3625. Suffice it to say, 
the Commissioners and Public Lands Council met with numerous 
stakeholder groups, listened to hours of testimony, held dozens 
of meetings, and considered every conceivable land protection 
strategy before developing our proposal. I wish to make it 
clear that H.R. 3625 is our proposal. We are deeply indebted to 
the Utah Congressional Delegation for helping us express our 
wishes in legislative language.
    What does H.R. 3625 do? First, it protects public land. It 
bans mining, logging, tar sands development and oil and gas 
exploration on approximately one million acres. Some would have 
you believe that this bill somehow lessens existing 
protections. It does not. It protects lands now identified by 
the BLM as wilderness study areas. It protects lands in the 
center of the San Rafael Swell that are not identified as 
wilderness study areas. It provides specific protection to the 
Sids Mountain area, which is home to one of Utah's largest 
Bighorn Sheep herds.
    Second, H.R. 3625 sets the stage for a tourist industry 
that respects the environment and local culture. It does this 
by blending a National Heritage Area with a carefully selected 
mix of protective measures, including wilderness. Some paint 
tourism as the answer to all of Southern Utah's environmental 
and economic problems, and wilderness as the ultimate tourist 
attraction. I know something of tourism. For ten years I 
operated a trading post on Route 66 in Flagstaff, Arizona. My 
customers included native Hopis and Navajos, as well as 
tourists on route to the Grand Canyon, Sunset Crater, and the 
Petrified Forest. During those ten years I learned about 
tourism's seasonal booms and busts. The year was divided into 
``the season'' and the ``off season.'' If you didn't do well 
during ``the season,'' the ``off-season'' got mighty long. I 
learned that the whole family had to work to make a living on 
tourism wages. We all worked long hours to make ends meet. I 
learned about the need to diversify. I was involved in the 
operation of a wholesale oil and gas distributorship, a truck-
stop and trading post. I bought and sold livestock. 
Additionally, I operated a wholesale ice company, steak house 
and other businesses.
    I have no doubt that tourism will assume a growing 
importance in Emery County's economy. Emery County is 
relatively close to Utah's population centers. A visitor from 
Salt Lake City can spend his entire vacation in Emery County 
without even having to purchase fuel locally. If we base our 
tourism industry on traditional ``windshield'' tourism, we will 
have to attract a huge number of visitors, because per capita 
spending will be so low. We don't want to do that. That type of 
tourism would severely impact our public lands and compromise 
our cherished rural lifestyle. We hope to develop ``value-
added'' tourism which will provide an enhanced experience to a 
smaller number of visitors. A National Heritage Area is a 
natural fit for that type of tourism. Protective designations 
such as the Bighorn Sheep Management Area also provide 
opportunities for sustainable tourism.
    The Bighorn Sheep Management Area was developed in 
cooperation with wildlife managers and land managers primarily 
to protect the sheep and their habitat. The Area also provides 
unique opportunities for visitors to view Bighorn Sheep. 
Wildlife watching is a growing industry. In 1991, out-of-state 
visitors spent $983,000 on wildlife-watching trips in Utah. By 
1996, that figure had grown to $1.4 million. Recently, two 
Public Lands Council members were explaining this concept to a 
National Public Radio reporter, while traveling through the 
Buckhorn Draw. As if on cue, a herd of thirteen bighorns moved 
out of a gully, up a cliff face, and paused on top of a large 
boulder. The reporter was thrilled by his first encounter with 
bighorns in the wild. Guides and outfitters will be able to 
provide that experience to others in perpetuity, if we adopt a 
plan that manages both lands and people. The Bighorn Sheep Area 
is only one example of the sustainable, value-added tourism 
opportunities created by H.R. 3625.
    I repeat Senator Bradley's question: ``How do we achieve a 
balanced, reasonable plan for conserving America's natural 
heritage while providing opportunities for economic growth and 
development across our public lands?'' I believe that H.R. 3625 
comes closer to answering that question than any proposal yet 
offered.
    Emery County's public lands and its culture are inseparably 
linked. Our lands and culture have survived the rise and demise 
of free-range grazing. They have survived the uranium boom and 
bust. They have survived the roller coaster trend of the coal 
economy. The question yet to be answered is, can they survive 
tourism and the service-based economy of the New West? Our 
challenges are great. We believe that H.R. 3625 will help us 
meet those challenges now and in the future.
    Thank you for giving me the opportunity to testify before 
you.
                                ------                                


       Statement of Pat Shea, Director, Bureau of Land Management

    Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to testify on H.R. 3625, the San Rafael Swell 
National Heritage and Conservation Act. Though Representative 
Cannon's bill is predicated upon the local community's genuine 
concern for the preservation, conservation and interpretation 
of very significant heritage resources present in the San 
Rafael Swell and its surrounding region, there are numerous 
problems with the bill's approach to these issues which require 
us to oppose it today. And although the bill seeks a goal we 
support--to encourage and facilitate a collaborative approach 
among Federal land managers, local governments, agencies, and 
other concerned organizations to protect certain heritage and 
natural resource values within the area--we have some 
alternative suggestions on how to accomplish that goal. The San 
Rafael Swell region is being ``discovered'' and all of us must 
acknowledge and deal with the impacts, both positive and 
negative, of that fact. The Bureau of Land Management (BLM) has 
the largest land holding in the area and has two land use 
management plans in place to provide management direction to 
these lands--the San Rafael Race Management Plan. and the Price 
Resource Area Management Framework Plan. The Utah Resource 
Advisory Council (RAC), established by Secretary Babbitt, 
offers an existing mechanism to begin looking at the impacts 
and solutions to the region's growing tourism economy. The RAC 
process is based on a recognition that there should be local 
solutions to issues of public land management, but not local 
dictates. Unfortunately, H.R. 3625 employs the National 
Heritage Area model for addressing some of these issues, a 
model which has been used primarily in the eastern United 
States in areas of predominantly privately-owned lands. It is 
not a model that is well-suited to the public land management 
issues of the San Rafael Swell region.
    Finally, though the recognition of the need to protect some 
areas in wilderness status is gratifying, unfortunately the 
proposal was not developed with involvement by all major 
interests. The wilderness areas proposed for the region 
encompassed by the proposal fall far short of previous 
wilderness bills considered in this Subcommittee, and indude 
management prescriptions which are incompatible with wilderness 
as defined in the 1964 Wilderness Act. Given these 
deficiencies, if passed in its present form, the Secretary 
would recommend that the President veto H.R. 3625.
    Although we oppose this bill, we support the concept of a 
collaborative approach to recognizing the values of and 
developing means to protect cultural sites of national and 
local significance within the San Rafael Swell region. I will 
outline some proposed alternatives to accomplishing this goal 
later in my testimony. Before doing so, however, I will discuss 
in detail five major problem areas in the bill.

San Rafael Regional Heritage Council and the San Rafael Swell 
National Conservation Area Advisory Council

    First, the two councils proposed in H.R. 3625 do not 
include representation by a broad enough spectrum of public 
land constituencies who have legitimate concerns about the 
management of the resources on the public lands encompassed by 
the proposal. These public lands belong to all Americans, and 
all Utahns, and Americans who live elsewhere in Utah and 
elsewhere in the United States have a legitimate stake in the 
management of these resources. This really should come as no 
surprise to anyone on this Subcommittee who has sat through the 
years of debate over these issues. Successful resolution of 
management issues in the region will require a more inclusive 
approach.
    Transplanting the national heritage area designation 
concept, which has been used predominantly in the eastern 
United States where mostly non-Federal lands are involved, to 
the San Rafael Swell region where there are large holdings of 
federally administered lands, does not work well. H.R. 3625 
only vaguely identifies what entities will comprise the 
Heritage Council and how they will operate. The participation 
of local government entities, such as county governments, is 
essential if the Council is to succeed, but the procedure 
identified in the legislation leaves doubt as to which entities 
will actually participate. It is also not clear how entities 
will be represented on the Council. The use of the term 
``council'' implies that entities would appoint 
representatives, but it is not clear if this is intended or 
whether these entities form some sort of a coalition of 
interested organizations. The NCA Advisory Council has more 
detailed requirements for representation than the Heritage 
Council, but is also vague as to the spectrum of interests that 
would be represented.
    Provisions for the Heritage Council also conflict with, or 
at least lead to confusion about, who is responsible for 
planning and management responsibilities which FLPMA requires 
BLM to administer. H.R. 3625 fails to clearly articulate what 
the relationship will be between Federal land managers in 
Carbon, Emery and Sanpete counties and the proposed San Rafael 
National Heritage Council. The legislation charges the Council 
with completing and implementing a management plan for the 
lands and resources within the national heritage area, yet 
there is no provision for how this plan interfaces with BLM's 
San Rafael Resource Management Plan or the land use plans of 
the Forest Service which also manage lands in the area. Section 
105(b)(4) requires the plan to ``detail appropriate land and 
water management techniques,'' but is unclear as to whether, or 
how, such decisions by the Heritage Council would amend BLM's 
San Rafael Resource Management Plan.
    The title of Section 108 implies that the San Rafael 
National Heritage Council has the status of a Federal agency. 
If so, the Council must operate under the laws and regulations 
which govern Federal agencies, such as the Archeological 
Resources Protection Act, the Clean Air Act, the Endangered 
Species Act, etc. Yet Section 107(b) limits the Secretary from 
requiring ``land use restrictions'' when providing the 
technical and financial assistance required by the legislation. 
This may, in effect, limit the Secretary from complying with 
the requirements of these laws when assisting the Council in 
implementing its management plan.
    The application of the National Environmental Policy Act 
(NEPA) and the FLPMA to the preparation of a management plan by 
the Heritage Council is unclear. It is not clear whether this 
bill envisions NEPA compliance. Secretarial approval or 
disapproval of the plan, however, would require such 
compliance. Further, BLM's role in the management plan is 
uncertain. The plan would constitute a major Federal action for 
the Federal lands, yet it is not clear whether BLM would be the 
``lead agency,'' for purposes of compliance with the Council on 
Environmental Quality regulations. Who would pay for the 
preparation of an EIS, BLM or the Heritage Council, is not 
stated.
    Given these problems, I suggest that the BLM, the State of 
Utah, the county governments, ana other interested parties 
cooperate in doing an in-depth survey of the unique heritage 
resources, recreation resources, and tourism infrastructure of 
the San Rafael Swell region. After the information is available 
the various participants should make recommendations regarding 
implementation of the heritage area concept or other approaches 
for developing gateway communities which could be applied in 
the San Rafael Swell area. By fully involving all parties in a 
such a survey, buy-in to the management plan would be more 
likely.
RS 2477 Right-of-Way Assertions

    RS 2477 was adopted by Congress in 1866 and granted a 
right-of-way for the construction of highways across public 
land not reserved for public uses. When FLPMA was passed in 
1976, Congress repealed RS 2477, but did not terminate valid 
rights-of-way existing on the date of FLPMA's enactment.
    Rights-of-way validly acquired pursuant to RS 2477 provide 
access to and across Federal lands for States and local 
governments, and the general public. Historically, these 
rights-of-way have not presented many problems for Federal land 
managers, because in general their existence is obvious and 
unquestioned.
    In recent years, however, there has been controversy over 
whether certain claimed access routes are ``highways'' that 
were ``constructed'' pursuant to RS 2477. This controversy 
causes uncertainty for Federal land managers charged with 
managing and protecting Federal lands according to current 
environmental, land use, and national security laws.
    The matrix identified as roads on the map referenced in the 
legislation indudes many routes which are wash bottoms, 
abandoned and unmaintained mining exploration routes, and 
trails impassable to vehicular traffic. We are concerned that 
labeling these areas as minor roads on the map could, if it 
became law, establish these routes as RS 2477 rights-of-way.
    These so-called minor roads appear to be within many of the 
areas proposed as wilderness or for semi-primitive nonmotorized 
designation, and legislatively establishing them as rights-of 
way, is confusing, unmanageable, and incompatible with the 
purposes of these areas. According to this legislation, such 
roads would have a setback of 100 feet on either side, creating 
swaths 200 feet wide through areas ostensibly managed as 
wilderness. All of the minor roads should be removed from this 
map, and no roads should extend into, or run through areas 
proposed for wilderness. This bill is not the appropriate 
vehicle to resolve contentious RS 2477 claims.

National Conservation Area

    The San Rafael Swell region of Utah has long been 
recognized as having high-quality geological, archeological, 
historical, paleontological, wildlife, and scenic resources of 
national significance. The natural and cultural values of these 
lands have caused much of it to be included in BLM's wilderness 
study areas and in wilderness legislative proposals dating back 
more than a decade. Furthermore, in 1989, BLM proposed an 
876,000 acre National Conservation Area for the area in its San 
Rafael Resource Management Plan and Environmental Impact 
Statement.
    Although H.R. 3625 would designate an NCA boundary (except 
for a mineral withdrawal) it does not provide substantive 
protections for the important heritage and natural resources of 
the San Rafael Swell area. Moreover, it creates an unnecessary 
Advisory Council which would represent a narrow segment of the 
population interested in the management of the NCA. The bill's 
Section 203 unwisely reinvents FLPMA's well-understood and 
tested multiple-use and sustained yield definitions. As a 
general matter, BLM does not support any bill whose effect 
would be to reinvent FLPMA. FLPMA evolved in 1976 from the 
decade-long investigation by the Public Land Law Review 
Commission, led by prominent western Congressmen and Senators. 
The final product is a statute which has given BLM numerous 
flexible tools to accomplish a variety of land management goals 
with input from people across the spectrum of interests.
    Finally, the NCA proposed in H.R. 3625 would dedicate an 
area proposed by many including the BLM, for wilderness to the 
intensive management of bighorn sheep, in part for export to 
other regions. The ecological cost of ``ranching'' bighorn 
sheep is not known and needs to be examined closely for 
resource trade-offs, including loss of wilderness values.

School and institutional trust lands exchange process

    Sections 204, 222, and 406 of H.R. 3625 all deal with 
acquiring non-Federal lands inside various designations and 
exchanging them for Federal lands outside those areas. These 
sections do not provide a uniform approach to accomplish such 
land exchanges, creating confusion. Combining the provisions of 
Section 204(a)(1), 204(b), and Section 222(b) to replace 
Section 406 would provide a consistent and reasonable approach 
to these land exchanges. Section 406's requirement of 
acquisition of all lands within two years, without any sharing 
of the associated costs, is unreasonable. The land exchange 
process should allow the Secretary to work with the State of 
Utah to complete mutually acceptable exchanges.

Wilderness

    I commend the proponents of this bill for recognizing areas 
that should be designated wilderness. Nevertheless, the 
proposed wilderness is 80,000 acres smaller than the BLM 
proposed in the previous Administration. Moreover, it allows 
excessive access by vehicles on virtually any historically used 
route in a wilderness which is drastically out of step with the 
Wilderness Act of 1964. The wilderness proposal outlined in 
H.R. 3625 is not the product of an inclusive process. Until we 
have such a process, we will not have a workable resolution of 
the wilderness issue.
    Thank you for allowing me to testify regarding this 
legislation before your Subcommittee. I would be happy to 
answer any questions you may have.
                                ------                                


        Statement of Governor Michael O. Leavitt, State of Utah

    Thank you for allowing me the opportunity to speak to you 
today about the San Rafael Swell National Heritage and 
Conservation Act.
    The protection of public lands in the State of Utah is an 
issue of national significance. The Federal Government 
administers more than 65 percent of the land in the State. 
These lands include some of the most spectacular scenery to be 
found anywhere in the world. The public lands in Utah are also 
host to a variety of activities and uses, and in many cases, 
the center of a good deal of controversy.
    For decades now Utahns, along with many concerned people 
living outside the state, have waged contentious battles over 
how these lands should be managed and protected.
    In my State of the State address in January 1997, I 
recounted a marvelous event I was privileged to experience here 
in the nation's capitol. In September of 1993, I was among 
those gathered on the White House lawn to witness a handshake 
that would change the course of history as Yasser Arafat and 
Yitzhak Rabin clasped hands in a gesture that bridged decades 
of bitterness and strife between Israelis and Palestinians with 
the signing of the Oslo peace accords. Across the street in 
Lafayette Park, protesters from both sides loudly chanted their 
objections.
    As I told the citizens of my state, ``We're not talking 
about world peace, but our state, for decades has been divided 
on the wilderness issue. It is time, now, to say enough 
fighting, to begin building on what unites us. Each of us 
shares a love for the land, and each of us shares a common 
desire to preserve sensitive lands. Let us begin with those 
lands on which there is substantial agreement. I'd like to say 
to the extremes on both sides of this debate, let's quit 
protesting in Lafayette Park, come to the table, and after 20 
years let's stop fighting and start protecting land.''
    At that time I proposed a different approach to addressing 
these issues. I suggested that rather than deal with a 
statewide proposal that included enormous acreages and even 
larger political and emotional stakes, we needed to take a 
different road. I suggested that we deal with these public 
lands issues by means of an incremental approach, in which we 
would deal with areas or regions one at a time, piece by piece, 
as we worked our way a step at a time toward a total solution.
    I have been convinced for a quite some time that if we are 
going to break the impasse over wilderness and the protection 
of public lands, we must begin by designating some wilderness 
somewhere in order to begin the process. This initial step, 
this first success, would be a critical catalyst for setting in 
motion the string of events that could ultimately break the 
gridlock and move toward resolution.
    In presenting this incremental approach, I emphatically 
stated that it could not be successful unless it were 
accomplished through valid pubic processes and active 
involvement on the part of the numerous stakeholders associated 
with the issues.
    The San Rafael Swell National Heritage and Conservation Act 
is a remarkable example of the innovation and quality that can 
occur when public processes are allowed to take root and 
develop in a natural and healthy way. This proposal is the 
fruit of years of discussion and soul-searching within Emery 
County, and in collaboration with an array of stakeholders.
    The product of this effort is a proposal that addresses the 
protection requirements of the lands in a manner that is both 
far-reaching and environmentally sound. It considers the 
protection and management needs of an entire ecosystem. It is a 
unique proposal that could only be designed by those who are 
closest to the lands and who understand its intricacies and 
nuances.
    This is an excellent example of the virtue of an open 
incremental approach. It clearly demonstrates the fact that 
there is indeed much common ground upon which to work.
    This proposal is truly a local initiative. It was not 
developed by outsiders nor by state or Federal Government 
agencies. But at the same time, Emery County officials did not 
do their work behind closed doors. This bill is the result of 
interaction and input from numerous sources from across the 
political spectrum.
    Its conception occurred as the result of a significant 
planning process known as the Emery County Wild Lands Futures 
Project. This process, which was sponsored by the Coalition for 
Utah's Future--a private non-profit organization working to 
build consensus on major Utah issues--received strong support 
and involvement from my administration. Emery County 
reluctantly but courageously volunteered to be the pilot county 
in testing the potential for building consensus in these thorny 
matters.
    The Midlands Futures Project brought an array of 
stakeholders to the table to participate in facilitated 
discussions aimed at identifying common interests and shared 
values with regards to the BLM lands of the San Rafael Swell. 
Participants included representatives from local, state, and 
Federal agencies, as well as user groups representing 
recreation, hunting, water development and industrial 
interests. There were also many significant environmental 
organizations seated at the table, including the Utah 
Wilderness Association, the Sierra Club, the Nature 
Conservancy, and the Audubon Society.
    It was through these meetings that the walls of mistrust 
began to crumble, and people in the room discovered that their 
individual agendas were all driven by the same underlying 
motivation--a deep and sincere love for the lands and a desire 
to do right by them for current and future generations.
    Though the process was never completed because of 
intensified battles from both sides of the issues, important 
seeds had been planted in Emery County--seeds Emery County 
continued to cultivate and nourish, and which today have 
blossomed into a proposal that is without precedent in the Utah 
public lands debate.
    Consider what Emery County has proposed: Protection of 
240,000 acres of wilderness. Areas we would all agree should be 
wilderness. Beyond wilderness the bill also proposes a National 
Conservation Area that gives statutory protection to the San 
Rafael Swell. In a bold step for which they have been widely 
criticized by many of their sister counties, they have removed 
the threat of commercial extractive development by proposing to 
exclude oil drilling, mining, and timbering activities from the 
Swell.
    For many other acres of critical lands that don't quite fit 
the requirements of wilderness designation, they have 
innovatively applied an additional layer of protection in the 
form of semi-primitive non-motorized designation.
    To their credit, Emery County officials have looked toward 
the future, and are proposing to further enhance the value of 
this public lands resources by creating something very new to 
Utah--a National Heritage Area. In doing so, they will be 
preserving and sharing with the nation an intriguing piece of 
western American history and culture.
    They have also recognized the importance of another 
significant asset that is part of the San Rafael Swell--the 
Desert Bighorn Sheep. Their concept of creating a Desert 
Bighorn Sheep management area to provide opportunities for 
public education and observation of these magnificent animals 
in their natural settings adds an important new dimension of 
conservation to the National Conservation Area.
    All in all, this is a proposal that is environmentally 
sound and secure. It protects and preserves the lands, the 
habitat, the wildlife, and the spirit of a spectacularly scenic 
and varied landscape. It is a proposal that has my full support 
and encouragement.
    It is difficult to overemphasize how important this 
proposal is toward setting in motion the processes and 
discussions that can ultimately resolve critical public land 
concerns within the State of Utah. All eyes are focused upon 
this bill. If it is successful, it is natural to assume that 
other successes will follow, and that these successes will 
follow a similar process of public involvement and 
environmental sensitivity that will serve both state and 
national interests.
    Indeed, if there can be hope for peace in the Middle East, 
then surely there can also be hope for meaningful progress in 
preserving and protecting the national and local interests 
associated with Utah's spectacular public lands treasure. The 
San Rafael Swell National Heritage and Conservation Act is 
certainly a worthy representative to lead the way toward 
reaching this essential objective. It is my hope that in the 
very near future we can all clasp hands in another handshake of 
success that will change the course of the future, and that 
will leave a lasting legacy for generations to come.
                                ------                                


   Statement of William H. Meadows, President, The Wilderness Society

    Mr. Chairman and Members of the Subcommittee, I am William 
H. Meadows, President of The Wilderness Society, and I am 
pleased to come before you today to discuss a matter of great 
significance for our nation's public lands: the protection of 
the magnificent red rock canyons and other public lands in 
Utah. We have met together to discuss these important lands 
before, most recently when I testified last June regarding H.R. 
1952, the ``Utah Wilderness and School Trust Lands Protection 
Act of 1997,'' introduced by Representative Chris Cannon last 
year.
    I am also pleased to be sharing the panel with 
Representative Wayne Owens today, a Utah native who loves the 
state, its public lands resources, and wild lands. I understand 
that Rep. Owens will focus much of his testimony on the 
specific areas affected by H.R. 3625. With that in mind and in 
light of Representative Cannon's ongoing efforts with respect 
to the management of public lands in Utah, I will focus my 
remarks on the national implications of this legislation by 
highlighting key comparisons between H.R. 3625 and 
Representative Cannon's earlier bill. I believe that such 
comparisons will best explain the position of The Wilderness 
Society on ``The San Rafael Swell National Heritage and 
Conservation Act.''
    Before I begin, however, I would like to acknowledge the 
work of many in Emery, Carbon, and Sanpete Counties who have 
sought to address the important issues before us, as well as 
the efforts of Representative Cannon and Governor Leavitt. I 
would also like to express the willingness of The Wilderness 
Society to sit down with any parties committed to the sound 
resolution of wilderness issues in Utah, to work cooperatively 
to find a lasting approach to the sound management and 
protection of public lands and wilderness resources in that 
great state.

1. Scope of Legislation:

    Introduced in 1997, H.R. 1952 addressed the designation of 
some 1.8 million acres of BLM wilderness in a ``statewide'' 
fashion, while H.R. 3625 addresses wilderness designation for 
public lands in two Utah counties: Emery and Carbon. [H.R. 3625 
also makes additional non-wilderness designations for Sanpete 
County.] H.R. 3625 creates a total of 407,468 acres of 
wilderness designations in these two counties, a designation 
that is roughly 143,000 acres smaller than the Wilderness Study 
Area acreage in these counties, and roughly 666,000 acres 
smaller than the wilderness designations that would be made by 
H.R. 1500, ``America's Redrock Wilderness Act,'' which The 
Wilderness Society supports.
    On a positive note, the wilderness designations of H.R. 
3625 seem intended to take effect immediately upon enactment, 
while the wilderness designations contained in H.R. 1952 were 
entirely contingent on the completion of the state/Federal land 
exchange outlined by this earlier bill. In addition, we are 
pleased that H.R. 3625 does not contain H.R. 1952-like language 
allowing the State to pick which Federal lands it would acquire 
in exchange for state trust lands within designated wilderness 
areas. H.R. 1952 contained this potential ``sweetheart'' land 
exchange deal for state, at Federal taxpayers' risk and 
expense.
    Our concerns with the scope of H.R. 3625, however, are 
three-fold: First, it does not address the full range of 
wilderness quality lands in Utah. Second, even in those 
counties in which it does make wilderness designations, it 
actually reduces the level of protection that wilderness 
resources currently receive, by eliminating WSA protection for 
over 140,000 acres. These ``former'' WSAs (which are currently 
receiving interim protection as wilderness) will no longer be 
managed to protect their wilderness values. Without wilderness 
quality protection, these lands may be lost to development 
activities including road construction and ORV use. Third, H.R. 
3625 only protects some 40 percent of the wilderness 
designations contained in H.R. 1500.

2. Wilderness Release:

    H.R. 1952 contained ``hard'' release language that would 
have expressly prohibited the BLM from protecting the 
wilderness values of lands not designated as wilderness under 
that legislation. Furthermore, under H.R. 1952, public lands in 
Utah could never again be considered for wilderness protection. 
H.R. 3625, on the other hand, contains non-standard, but 
apparently ``soft'' wilderness release language, improved 
language that--as we currently interpret it--would allow for 
the future wilderness consideration of all remaining BLM lands 
in the state. In addition, H.R. 3625 does not appear to 
undercut the BLM's authority to chose to protect wilderness 
values as part of a multiple-use management approach to 
``released'' lands. [H.R.3625 releases 143,000 acres of WSAs to 
multiple-use management, lands that are currently protected as 
if they were wilderness. (Sect. 304)]

3. Wilderness Protection and Management:

    One of The Wilderness Society's chief concerns with the 
wilderness area boundaries of both H.R. 1952 and H.R. 3625 is 
that these boundaries appear too-often to be drawn according to 
political lines or other non-ecological factors (e.g., both 
bills ``cut'' canyons in half and often follow county rather 
than natural boundaries). Of equal importance, however, is the 
matter of how both bills govern management of those lands which 
they do designate as wilderness. Unfortunately, both bills 
contain non-standard and damaging wilderness management 
language affecting a variety of management issues and 
resources. We believe that such exceptions to standard 
wilderness management are both inappropriate in Utah and set a 
dangerous precedent for future wilderness legislation, 
nationally. The damaging wilderness ``exceptions'' of H.R. 1952 
and H.R. 3625 include provisions related to:
        <bullet>  Reserved wilderness water rights and water 
        developments: In Utah and elsewhere in the arid West, 
        wilderness areas must be protected from the future drain-off of 
        their streams and other water resource ``lifelines.'' Yet the 
        water rights provisions of both H.R. 3625 (Section 407) and 
        H.R. 1952 expressly deny Congressional reservation of a water 
        right sufficient to sustain these magnificent desert lands. 
        Furthermore, both bills contain provisions forcing the Federal 
        Government to apply for a water right consistent with Utah 
        state law. These provisions do not provide any real opportunity 
        for water for wilderness resources, as Utah state water laws do 
        not recognize wilderness resources as an appropriate recipient 
        of water.
          In the two most recent BLM wilderness bills enacted for arid 
        Arizona and California, Congress reserved a quantity of water 
        sufficient to maintain the integrity of the wilderness 
        ecosystem. Both bills balanced the needs of water rights 
        holders with that of the wilderness users and wildlife--H.R. 
        3625 does not.
          Additionally, Section 407 (d) of H.R. 3625 appears to be 
        written to open the door for inappropriate water developments 
        and dam construction in wilderness. As worded, this section 
        seems to allow almost unlimited expansion of existing water 
        developments (and the access thereto) without any regard for 
        the impact of such expanded developments on wilderness 
        resources.
        <bullet>  Grazing management: During passage of The Wilderness 
        Act of 1964 and subsequent wilderness debates, Congress has 
        attempted to balance the continuation of pre-existing grazing 
        operations in areas designated as wilderness with the 
        protection of Federal range resources and other legitimate 
        planning and management concerns. TWS believes the language of 
        both H.R.3625 and H.R. 1952 would alter the existing balance 
        between grazing and the protection of resources within 
        wilderness areas, and could be interpreted as providing the BLM 
        with less ability to protect range resources within wilderness 
        areas than on non-wilderness public lands.
          Section 303 of H.R. 3625 undermines existing Secretarial 
        authority to enforce reasonable regulations and policies to 
        manage grazing in wilderness areas to prevent undue resource 
        degradation. Section 4(d)(4)(2) of The Wilderness Act states 
        that pre-existing grazing of livestock in wilderness ``shall be 
        permitted to continue subject to such reasonable regulations as 
        are deemed necessary by the Secretary.'' Language reflecting 
        the Secretary's ability to provide such appropriate guidance 
        for the management of pre-existing grazing in wilderness has 
        been included in subsequent wilderness legislation (the 
        California Desert Protection Act, for example).
          Furthermore, the grazing guidelines which Congress developed 
        during passage of the Colorado Wilderness legislation during 
        the 96th Congress--which have provided the standard for grazing 
        management in wilderness--also emphasize that all reasonable 
        measures must be taken to minimize the impact of grazing 
        activities on wilderness character and to protect other 
        resource values.
        <bullet>  Other road and motorized use issues, and Native 
        American motorized access: Road development and vehicular/ORV 
        use constitute one of the largest threats to wilderness 
        resources in certain areas of Utah and elsewhere in the West. 
        Unfortunately, several provisions of H.R. 3625 appear drafted 
        so as to allow dangerous road/vehicular damage to wilderness 
        and public lands, including the bills sections related to 
        ``fish and wildlife management,'' ``Native American cultural,'' 
        grazing, ``valid existing rights,'' and other uses. Each of 
        these sections breaks with existing legal and administrative 
        precedents for the protection of the fundamental roadless and 
        wild nature of Federal wilderness areas.
        <bullet>  State fish and wildlife agency authority in 
        wilderness: The Wilderness Act specifically allows for the 
        continued jurisdiction of state fish and wildlife agencies over 
        matters related to the management of fish and wildlife 
        populations. The language of H.R. 3625 (Section 408) broadens 
        the existing situation under The Wilderness Act to the point 
        that state fish and game agencies could apparently undertake 
        almost any fish or wildlife related management activity, 
        including water impoundments, dam or road construction, 
        motorized use, and other significant development activities 
        with no apparent restrictions. This language is unnecessarily 
        and dangerously broad.
        <bullet>  Mandatory Federal acquisition of non-governmental 
        lands: Both H.R. 1952 and H.R. 3625 force the Secretary to 
        offer to acquire lands from non-governmental entities if such 
        lands are located not only within, but also adjacent to lands 
        designated as wilderness. Given the limited funding available 
        to the Federal Government, the Department of Interior must be 
        very selective in prioritizing lands to acquire. We see no 
        reason to force the Secretary to offer to acquire lands that 
        are not actually within wilderness designations.
    Finally, with respect to wilderness protection and management, we 
must note that the ways in which H.R. 3625 is worse than H.R. 1952. 
Specifically, H.R. 3625 contains language (which H.R. 1952 does not) 
that would harm wilderness values by adversely affecting management of:

        <bullet>  ``Valid existing rights:'' Section 222(a) of H.R. 
        3625 dangerously expands existing precedents concerning so-
        called valid existing rights (VERs) to include protection of 
        ``full exercise of those rights.'' As drafted, this section 
        would severely undercut the Secretary's current authority to 
        exercise some control over access to and exercise of VERs. 
        (Sect. 222 & 302) Under such sections, development interests 
        could argue that the ``full exercise'' of their rights would 
        require the construction of roads, full motorized vehicular 
        access, and/or the installation of facilities that are 
        incompatible with wilderness designations. Could open the door 
        for increased ``blackmail'' development proposals in wilderness 
        (i.e., aggressively proposed ``development'' plans that are 
        made by private interests in the sole hope that the Federal 
        Government will pay to stop them.)
        <bullet>  Cultural/paleo resources: H.R. 3625 threatens both 
        wilderness and cultural/paleo resources by allowing ``means of 
        discovery conventional to the science of archeology, including 
        customary means of ingress and egress.'' Management of 
        wilderness lands is appropriately geared to a higher protection 
        standard than that of other public lands. ``Customary'' 
        archeological practices that might be appropriate on non-
        wilderness Federal lands may well be completely inappropriate 
        in wilderness areas. For example, the language of H.R. 3562 
        could well be interpreted to include road construction and 
        motorized access including large earth-moving equipment. (Sect. 
        402) Such uses/activities would seriously degrade wilderness 
        values.
        <bullet>  Communication towers: Section 207 states nothing in 
        Act shall be construed as prohibiting Secretary from 
        authorizing installation of communications equipment in 
        conservation area for public safety purposes. Communications 
        towers are most frequently located on ridgetops that are 
        visible for many miles, such development would seriously impair 
        the ``untrammeled'' character of wild lands and should be 
        subject to the strictest of appropriate regulations. We are 
        concerned that this Section could be interpreted so as to 
        actually facilitate the installation of inappropriate 
        communications towers in wilderness, by allowing an abuse of 
        the ``public safety'' test.
        <bullet>  2477 road claims: The set-back provisions regarding 
        ``roads and rights-of-way as boundaries'' (Section 408(c)) 
        expressly recognize so-called ``County Class D'' roads, which 
        are closely associated with R.S. 2477 road claims. In recent 
        years, we have seen an explosion of such road claims in Utah, 
        many of which prove bogus on closer examination. We are 
        concerned that H.R. 3625 appears to give validation to such 
        controversial road claims. In addition, non-wilderness set-back 
        strips along such ``roads'' minimize wilderness protection and 
        maximize inappropriate road and vehicular access into these 
        wild and magnificent lands. If H.R. 3625 is to include 
        provisions against ``buffer zones'' (Section 408(b)) because 
        they extend wilderness-like protection outside of wilderness 
        areas, it should not include ``anti-wilderness buffers'' that 
        extend development and mechanized travel into the heart of wild 
        areas.

4. Non-Wilderness Issues:

    Because it contains designations other than wilderness, certain of 
H.R. 3625's troubling provisions also affect management of non-
wilderness Federal lands--National Conservation Area, Semi-primitive 
Areas, etc.
    One of the most distressing aspects of H.R. 3625 is its language 
that threatens to give inordinate local control over management of 
these Federal lands. In the management of National Heritage Area(s) 
(NHA) for example, the Secretary (Sect. 104) could make a local 
government/group the NHA ``management entity.'' A local governmental or 
private interest that assumed management entity status would have a 
great deal of discretion in decisions affecting both planning and 
management of these Federal lands. If such a local entity took on this 
management status, then the Department's role in managing these Federal 
lands is largely relegated to one of providing technical support 
(Section 107). In addition, Sect. 106's vague wording also appears to 
give local government/interests an inappropriate role in implementing 
NHA plan. While it is clear that local governments and interests have a 
strong and legitimate interest in the management of these Federal 
lands, we do not feel it is appropriate to turn over management 
authority for Federal lands to local control in the manner proposed by 
H.R. 3625.
    With respect to management of the National Conservation Area, 
Section 222 of H.R. 3625 requires that the BLM ``cooperate'' with the 
NCA Advisory Council created in Section 205. This ``cooperation'' 
requirement appears to greatly exceed current BLM requirement under 
FLPMA to ``consult'' with all interests during management/planning for 
Federal wilderness.
    In addition, H.R. 3625 restricts the Secretary's ability (Section 
401) to manage grazing and protect Federal resources (NCA, Semi-
primitive Areas) in non-wilderness areas. H.R. 3625's language 
governing management of pre-existing grazing within areas of the NCA 
and in the Semi-Primitive Areas outside of the NCA appears to thwart 
agency protection of these lands. We assume that the intent of this 
Section is to establish that the designation--in and of itself--of the 
NCA or the semi-primitive areas conveys no additional requirements on 
the management of grazing. However, the actual wording of Section 401 
appears to eliminate almost all BLM authority to assure that grazing on 
these lands is managed so as to protect Federal resources.
    Section 407 expressly prohibits reserved Federal water rights for 
the National Conservation Area and Semi-Primitive Areas established by 
H.R. 3625 and allows for the nearly unconstrained expansion of existing 
water developments in these areas. Such provisions undercut the 
protections that this bill claims to provide these Federal lands.

Conclusion

    The mission of The Wilderness Society (TWS) directs us to ensure 
that the integrity and beauty of America's wild lands are protected 
unimpaired for future generations. We have established two goals: to 
build and sustain a nationwide network of wild lands; and, to ensure 
that customs and practices affecting wild lands embody the land ethic. 
As described by Aldo Leopold and Robert Marshall who were instrumental 
in the founding of The Wilderness Society in 1935, the land ethic, 
``changes the role of Homo Sapiens from conqueror of the land community 
to plain member and citizen of it. It implies respect for his fellow-
members and also respect for the community as such.''
    Our vision for the future has at its core the commitment to secure 
and maintain the essential benefits and values of wilderness: habitat 
for the diversity of plant and animal species, pure air and water, 
natural beauty, physical recreation, spiritual renewal, scientific 
research and the opportunity to educate ourselves and our children 
about the proper place of humanity in the great tapestry of the natural 
world. We see Congressionally designated wilderness areas as the core 
of the national network of wild lands which we seek: a network also 
comprised of protected and well managed forest, park, refuge, and 
public lands.
    To summarize, Mr. Chairman: We must oppose H.R. 3625 because we 
believe that it: (1) provides wilderness designation for an inadequate 
acreage of wilderness quality lands in the state and in the San Rafael 
area; (2) threatens wilderness resources in Utah and on other BLM lands 
nationally by failing to provide true wilderness protection for the 
public lands which it designates as wilderness; (3) releases lands 
currently protected as Wilderness Study Areas (WSAs) to management 
practices that may degrade their wilderness values; (4) makes non 
wilderness Federal land designations that do not adequately protect 
these special areas and their wilderness resources; and (5) threatens 
to cede an inappropriate level of control over Federal land and 
wilderness management to local governments and interests.
    We thank you for the opportunity to testify before you today.
                                 ______
                                 
Statement of Wes Curtis, Director, Governor's Rural Partnership Office, 
      State of Utah, and Member, Emery County Public Lands Council
    Mr. Chairman, Ranking Member, and members of the Subcommittee, I 
appreciate this opportunity to talk to you about a remarkable proposal 
for protecting one of the nation's unique public lands and heritage 
treasures--the San Rafael Swell.
    This bill is the product of years of work and a long process of 
public involvement. It is a marvelous manifestation of local initiative 
acting in the national interest. It is also a manifestation of a 
significant change in attitude and perspective on the part of the 
residents of Utah's Carbon and Emery Counties.
    As recently as a few years ago, Emery County was one of the leaders 
in opposing wilderness designation and other environmental protection 
schemes. They strongly resisted what was viewed as imposed solutions 
from Washington that threatened, rather than enhanced, local culture 
and lifestyles. Fortunately this attitude began to change once county 
leaders set aside the emotions of the moment and took a close look at 
what they truly valued. In doing so it became clear that protecting 
this public lands treasure was vitally important to the people of Emery 
County.
    To understand our interest in the future of the San Rafael Swell, 
one must understand our love for this land and our strong connection to 
it. Like everyone else, we marvel at its scenic beauty. But to us this 
land is more than beautiful scenery. This land has shaped our culture, 
our communities, our thinking, and our hearts. It is part of our lives.
    We have a love not only for the land, but for the heritage and 
legacy it has given us. This land tells the stories of our past--the 
tales of who we are and how we came to be.
    It is important to note that the bill you have before you is 
environmentally sound. It has been carefully crafted to ensure that 
every needful protection is in place, because we knew this proposal 
would have to stand up to intense scrutiny. This bill reflects the keen 
sense of responsibility we feel to protect this public lands treasure 
and to pass it on as a legacy to future generations.
    We are puzzled when we hear certain factions, who seem to have 
little interest in finding workable solutions, denounce this bill as 
inadequate and then sum up their opposition by parroting the tired and 
worn phrase they have applied to every lands proposal of this decade by 
saying this is an ``anti-wilderness bill.'' They then imply that this 
bill leaves thousands of acres unprotected because it releases them 
from Wilderness Study status. They imply that wilderness designation is 
the only means for protecting these lands, and that anything else is 
``anti-protection.'' In making these statements they are not telling 
the whole story.
    The truth is this: H.R. 3625 is a wilderness bill--and a whole lot 
more!
    A weakness inherent in all the past and current wilderness 
proposals, regardless of their total acreages, is that they are one-
dimensional in their focus. They offer ``slice and dice'' protections 
but don't preserve the integrity of the whole. They focus on lands and 
acres, not on eco-systems.
    H.R. 3625 is the only proposal from any quarter that offers 
protection for the entire San Rafael Swell. It not only designates 
407,000 acres of wilderness, it goes beyond this to protect the 
environment and integrity of an entire eco-system. It not only 
addresses the needs of the lands, it addresses other needs as well--
such as habitat and wildlife management and cultural and historic 
preservation.
    This is the only proposal that withdraws the threats of oil 
drilling, mining, and timbering from the entire San Rafael Swell--a 
remarkable concession for a rural county with an economy based on 
mineral extraction.
    This is the only proposal that provides special protection and 
management for the desert bighorn sheep, as well as opportunities for 
watchable wildlife and public education at the same time.
    One of the great success stories of the San Rafael Swell is that of 
the desert bighorn sheep. The Sid's Mountain herd began with the 
transplanting of a small herd of sheep in the late 1970s. Now the Swell 
is home to one of the largest herds in the state, and it has been used 
as transplanting stock for many other herds, both inside and outside 
the state of Utah.
    We take great pride in this locally. In fact, we have selected the 
desert bighorn sheep as the symbol of our National Conservation Area.
    This is the only proposal that preserves another critical component 
of the San Rafael Swell--a component every bit as priceless and 
threatened as the lands--that of the history and heritage of the San 
Rafael Swell region.
    This bill is a protection measure in every sense of the word. The 
purpose of a National Conservation Area is to protect resources. The 
purpose of a National Heritage Area is to protect and perpetuate 
cultural and historic resources.
    The questions we pose to any and all, are these: In what way does 
this proposal fail to protect the resources of the San Rafael Swell? 
What specific threats to these lands have we failed to address? If 
there are any, we want to be the first to know--and we will be the 
first to address them.
    We have learned an important lesson through the course of 
developing this proposal that we wish to share. We have learned that a 
locally initiated, locally driven approach such as this one has an 
important side-benefit attached to it. We have found that it leads to 
local buy-in, local ownership, and local pride in the proposal. As a 
result the local residents become part of the solution instead of part 
of the problem. With this buy-in and community pride the local public 
becomes the eyes and ears to help monitor and protect against abuse. 
This represents an important and positive shift in attitude from days 
past.
    It would be a sad day for the future of the public lands debate, a 
sad day for local initiative, a sad day for the national environmental 
interest, and a sad day for the lands themselves if this proposal were 
rejected simply because it doesn't carry the popular label of the day.
    On the other hand, passage of this bill would be a triumph for 
compromise and common sense; a triumph for hope--for hope of resolving 
difficult public lands issues in a sound and sane manner. It would be a 
triumph for the lands, for the habitat, for the wildlife, for the 
environment, for the history and heritage of the American West, and for 
the nation as a whole.
    This is truly an extraordinary proposal--or maybe we should just 
call it a ``Swell'' proposal. Instead of being satisfied with standard 
issue, one-size-fits-all khakis, the people of Emery County elected to 
begin with a new piece of cloth. By taking this cloth to the designer 
and the tailor, they have come up with something quite different from 
the designs and fashions of the past. They have come up with something 
better, for in this case, the cloth has been tailored to be a perfect 
fit--a perfect fit for the needs of the lands, a perfect fit for the 
eco-system, and a perfect fit for the American people.
    Thank you Mr. Chairman for providing the opportunity to address 
this Committee.
                                 ______
                                 
         Statement of Richard M. Warnick, Salt Lake City, Utah
    Mr. Chairman:
    My name is Rich Warnick. As a member of the Utah Wilderness 
Association, I was one of the authors of our original Utah Bureau of 
Land Management wilderness proposals in 1985, which first advocated a 
series of regional wilderness bills. I later served as the BLM ranger 
at the Cleveland-Lloyd Dinosaur Quarry from 1987 to 1989, and also 
monitored wilderness study areas on the San Rafael Swell and Desolation 
Canyon.
    It is with a feeling of cautious optimism that I offer my comments 
on H.R. 3625, the San Rafael Swell National Heritage and Conservation 
Act. I ask that this statement be included in the hearing record.
    Local support is the key to wilderness designation in Utah. In the 
Utah Wilderness Act of 1984, our last successful wilderness bill, the 
areas that received designation were the ones with the strongest local 
constituencies. It is indeed encouraging that Carbon and Emery Counties 
have put together this proposal. I believe it can become the catalyst 
for a long-delayed compromise on this issue.
    As you know, the Utah Wilderness Association worked hard to achieve 
consensus on a San Rafael wilderness package. In a four-year process 
facilitated by the Coalition for Utah's Future, UWA put into practice 
the principle that more progress can be made when parties focus on 
solving problems instead of trying to win battles. This process aided 
the formation of the Emery County public lands council. The ``handshake 
agreement'' reached between UWA and Emery County in March, 1995 
represented a glimmer of hope. Unfortunately, the present bill does not 
reflect that agreement. If it did, I would have no doubt that Congress 
would approve it.
    The amount of wilderness designation in the bill is inadequate. 
Leaving aside Sids Mountain, only approximately half of the area that 
deserves wilderness protection on the San Rafael Swell is included. The 
bill's proposal for Desolation Canyon is about 100,000 acres short of 
an adequate designation--it also uses county lines as wilderness 
boundaries.
    I believe the wilderness areas in this bill fall short simply 
because some elected officials have an unjustified fear of the National 
Wilderness reservation System and its relationship to economies. 
National conservation areas can augment wilderness designation, but 
they should not substitute for it. New negotiations will be needed to 
achieve a genuine compromise.
    H.R. 3625 also contains unprecedented management language. Title 
IV, sections 402, 403, 404, 405, 407 and 408 should be changed. 
Wilderness area management is adequately addressed in the Wilderness 
Act and relevant agency management policies.
    Everyone who hailed the proclamation of the Grand Staircase-
Escalante National Monument ought to support the San Rafael Swell 
National Heritage Area. The Bureau of Land Management has not been able 
to take care of and interpret the abundant paleontological, 
archaeological and historic sites on the San Rafael Swell as well as it 
should. I fully support the proposal for a national heritage area.
[GRAPHIC] [TIFF OMITTED] T8613.001

[GRAPHIC] [TIFF OMITTED] T8613.002

[GRAPHIC] [TIFF OMITTED] T8613.003

[GRAPHIC] [TIFF OMITTED] T8613.004

[GRAPHIC] [TIFF OMITTED] T8613.005

[GRAPHIC] [TIFF OMITTED] T8613.006

[GRAPHIC] [TIFF OMITTED] T8613.007

[GRAPHIC] [TIFF OMITTED] T8613.008

[GRAPHIC] [TIFF OMITTED] T8613.009

[GRAPHIC] [TIFF OMITTED] T8613.010

[GRAPHIC] [TIFF OMITTED] T8613.011

[GRAPHIC] [TIFF OMITTED] T8613.012

[GRAPHIC] [TIFF OMITTED] T8613.013

[GRAPHIC] [TIFF OMITTED] T8613.014

[GRAPHIC] [TIFF OMITTED] T8613.015

[GRAPHIC] [TIFF OMITTED] T8613.016

[GRAPHIC] [TIFF OMITTED] T8613.017

[GRAPHIC] [TIFF OMITTED] T8613.018

[GRAPHIC] [TIFF OMITTED] T8613.019

[GRAPHIC] [TIFF OMITTED] T8613.020

[GRAPHIC] [TIFF OMITTED] T8613.021

[GRAPHIC] [TIFF OMITTED] T8613.022

[GRAPHIC] [TIFF OMITTED] T8613.023

[GRAPHIC] [TIFF OMITTED] T8613.024

[GRAPHIC] [TIFF OMITTED] T8613.025

[GRAPHIC] [TIFF OMITTED] T8613.026

[GRAPHIC] [TIFF OMITTED] T8613.027

[GRAPHIC] [TIFF OMITTED] T8613.028

[GRAPHIC] [TIFF OMITTED] T8613.029

[GRAPHIC] [TIFF OMITTED] T8613.030

[GRAPHIC] [TIFF OMITTED] T8613.031

[GRAPHIC] [TIFF OMITTED] T8613.032

[GRAPHIC] [TIFF OMITTED] T8613.033

[GRAPHIC] [TIFF OMITTED] T8613.034

[GRAPHIC] [TIFF OMITTED] T8613.035

[GRAPHIC] [TIFF OMITTED] T8613.036

[GRAPHIC] [TIFF OMITTED] T8613.037

[GRAPHIC] [TIFF OMITTED] T8613.038

[GRAPHIC] [TIFF OMITTED] T8613.039

[GRAPHIC] [TIFF OMITTED] T8613.040

[GRAPHIC] [TIFF OMITTED] T8613.041

[GRAPHIC] [TIFF OMITTED] T8613.042

[GRAPHIC] [TIFF OMITTED] T8613.043

[GRAPHIC] [TIFF OMITTED] T8613.044

[GRAPHIC] [TIFF OMITTED] T8613.045


</pre></body></html>
